United States Patent and Trademark Office
Performance and Accountability Report
Fiscal Year 2011
                                                          FINANCIAL HIGHLIGHTS
                                                                                                        % Change              September 30,          September 30,
                                    (Dollars in Thousands)
                                                                                                      2011 over 2010              2011                   2010

Fund Balance with Treasury                                                                                   13.6%            $	 1,631,206           $	 1,436,432
Property, Plant, and Equipment, Net                                                                          18.5%                    206,628        	         174,397
Other Assets                                                                                                 (8.5%)                    15,663        	          17,124
	     Total Assets                                                                                           13.9%            $	 1,853,497           $	 1,627,953

Deferred Revenue                                                                                               9.2%           $	      845,782        $	        774,388
Accounts Payable                                                                                             22.1%                     85,640        	          70,114
Accrued Payroll, Benefits, and Leave                                                                         14.3%                    203,956        	         178,465
Other Liabilities                                                                                              2.8%                   115,859        	         112,681
	     Total Liabilities                                                                                      10.2%            $	 1,251,237           $	 1,135,648
Net Position                                                                                                 22.3%                    602,260        	         492,305
Total Liabilities and Net Position                                                                           13.9%            $	 1,853,497           $	 1,627,953

Total Program Cost                                                                                             7.0%           $	 2,148,097           $	 2,006,938
Total Earned Revenue                                                                                           6.4%                 (2,236,374)      	    (2,101,682)
Net Income from Operations                                                                                   (6.8%)           $	       (88,277)      $	        (94,744)

Budgetary Resources Available for Spending                                                                     8.2%           $	 2,338,600           $	 2,161,632

Total Collections, Net of Outlays                                                                            56.9%            $	     (191,593)       $	    (122,074)

Federal Personnel                                                                                              7.4%           	        10,210        	              9,507

Disbursements by Electronic Funds Transfer (EFT)                                                                   —          	         100%         	              99%

On-Time Payments to Vendors                                                                                    4.2%           	         100%         	              96%


                                                      PERFORMANCE HIGHLIGHTS
                                                                                                           FY 2011                  FY 2011           Performance
                                   Performance Measures
                                                                                                            Target                   Actual             Results1
Patent Average First Action Pendency (months)                                                                  23.0                   28.0                Not Met
Patent Average Total Pendency (months)                                                                         34.5                   33.7                     Met
Patent Final Disposition Compliance Rate                                                               95.6% - 96.5%                95.4%                      Met
Patent In-Process Compliance Rate                                                                      94.6% - 95.6%                95.2%                      Met
Patent Applications Filed Electronically                                                                     90.0%                  93.1% 2                    Met
Trademark Average First Action Pendency (months)                                                         2.5 to 3.5                    3.1                     Met
Trademark Average Total Pendency (months)                                                                      12.5                   10.5                     Met
Trademark First Action Compliance Rate                                                                       95.5%                  96.5%                      Met
Trademark Final Compliance Rate                                                                              97.0%                  97.0% 3                    Met
Trademark Applications Processed Electronically                                                              68.0%                  73.0%                      Met
Percentage of prioritized countries that have implemented at least 75%
of action steps in the country-specific action plans toward progress along
following dimensions:
    1. Institutional improvements of IP office administration for advancing IPR                              75.0%                 100.0%                      Met
    2. Institutional improvements of IP enforcement entities
    3. Improvements in IP laws and regulations
    4. Establishment of government-to-government cooperative mechanisms
Percentage of foreign officials trained who have initiated or implemented a
                                                                                                           Baseline                      *                      *
positive change in the IP systems in their organizations and/or countries
1	   The performance result of a given measure is either met (100 percent or greater of target), slightly below (95 to 99 percent of the target), or not met
     (below 95 percent of target).
2	   This is preliminary data and is expected to be final by December 2011 and will be reported in the fiscal year (FY) 2012 PAR.
3	   Within the target range of 97 percent considering the margin of error (+/- 0.6 percent).
*	   FY 2011 is a baseline year for this new measure. A target will be assigned after baseline data has been analyzed, and actuals reported subsequently in FY 2012.
                        T able             O f      C ontents


Message from the Under Secretary of Commerce for Intellectual Property and
Director of the United States Patent and Trademark Office	                                   3
Management’s Discussion and Analysis	                                                        7
    Mission and Organization of the USPTO	                                                   8
    Performance Goals and Results	                                                          12
        USPTO Strategic Plan	                                                               13
        Strategic Goal 1: Optimize Patent Quality and Timeliness	                           15
        Strategic Goal 2: Optimize Trademark Quality and Timeliness	                        24
        Strategic Goal 3: Provide Domestic and Global Leadership to Improve Intellectual
        Property Policy, Protection and Enforcement Worldwide	                              31
        Management Goal: Achieve Organizational Excellence	                                 38
    Management Challenges and What’s Ahead	                                                 45
    Accompanying Information on USPTO Performance	                                          50
        Performance Audits and Evaluations	                                                 50
    Management Assurances and Compliance with Laws and Regulations	                         52
    Financial Discussion and Analysis	                                                      58
Financial Section	                                                                          71
    Message from the Chief Financial Officer	                                               72
    Principal Financial Statements and Related Notes	                                       74
    Independent Auditors’ Report	                                                          103
Other Accompanying Information	                                                            111
    Inspector General’s Top Management Challenges Facing the USPTO	                        112
    Improper Payments Information Act of 2002, as amended	                                 151
    Summary of Financial Statement Audit and Management Assurances	                        153
    The Nature of the Training Provided to USPTO Examiners	                                154
    FY 2011 USPTO Workload Tables	                                                         158
Glossary of Acronyms and Abbreviation List	                                                189


            Web address for the USPTO Performance and Accountability Report

                         http://www.uspto.gov/about/stratplan/ar/index.jsp




                                         ABOUT THIS REPORT

   The USPTO Performance and Accountability Report for FY 2011 provides a comprehensive
   summary of program and financial results and is structured to help the President, the
   Congress, and the American public assess our performance relative to our mission and
   accountability for our financial resources.
                                                                             M anagement ’ s D iscussion and A nalysis




Message from the Under Secretary of Commerce for
Intellectual Property and Director of the United States
Patent and Trademark Office



N
         ow more than ever, the work of                                             significant milestone the Agency
         the United States Patent and                                               surpassed this year was the issuance of
         Trademark Office (USPTO) is                                                its 8,000,000th patent.        This is an
vital to our nation’s well-being. As we                                             important signal of the technological
stand at an important crossroads in the                                             vigor and creative industry underpinning
country’s economic evolution, our ability                                           a healthy and highly-productive U.S. IP
to foster new products and cultivate new                                            system.
inventions proves instrumental in creating
the next generation of jobs, investments,                                           And for the fifth consecutive year, our
and growth. We are committed to accom-                                              outstanding Trademark organization has
plishing our mission of fostering an intel-                                         consistently exceeded its pendency
lectual property (IP) system that allows                                            targets for first action and final disposi-
American business and entrepreneurs to thrive. And in            tion. Going above and beyond expectations with final
order to strengthen the very infrastructure that marshals        pendency below 11 months, we’ve also implemented the
new innovation to the marketplace, under our 2010-2015           new “excellent quality” measure.
Strategic Plan, the entire USPTO team made some
important strides in Fiscal Year (FY) 2011.                      But even with all of this activity, the USPTO faces enormous
                                                                 challenges with the likelihood that FY 2012 will be a difficult
We’ve undertaken a series of initiatives to improve the          year financially. That is why the historic patent reform legis-
speed and quality of patent processing in an ongoing effort      lation—passed this summer by Congress, and signed into
to further strengthen the examination capacity of the            law in September by the President—is pivotal to our opera-
USPTO. We’ve also aggressively been reengineering many           tions. The America Invents Act ensures that the USPTO
systems and processes including our internal information         remains sufficiently resourced to modernize our IT infra-
technology (IT) systems. We are working toward a 21st            structure, hire more examiners, and swiftly implement
Century system that is smarter, better, faster, and stronger     new cost-effective provisions that will increase the effi-
for all stakeholders. For the first time in several years, the   ciency and the quality of our patent system. Various working
USPTO team was able to push the number of patent appli-          groups have already been convened to roll out a staged
cations awaiting first action well below 700,000—an              implementation of the bill over the next 18 months.
important milestone proving that our range of initiatives are    Ultimately, this sweeping legislation will offer inventors the
helping to usher technological innovations from the drawing      strong property protections they need to grow their busi-
board into the economic sphere more quickly. Another             nesses, and afford our Agency the tools it needs to drive




www.uspto.gov	                                                                                                                33
Message from the Under Secretary




                                                                    We are confident that the USPTO’s financial and perfor-
                                                                    mance data are complete, reliable, accurate, and consis-
                                                                    tent as we improve our ability to measure progress toward
                                                                    our performance goals. For the 19th consecutive year, we
                                                                    earned an unqualified audit opinion on our annual financial
                                                                    statements. For FY 2011 financial reporting, the indepen-
                                                                    dent auditors did not identify any material weaknesses,
                                                                    significant deficiencies, or instances of non-compliance
                                                                    with laws and regulations.


                                                                    Even though we’re proud of what we achieved, we look
     Under Secretary Kappos speaks at the Innovation Alliance
     Conference January 21, 2011, in Washington, D.C.
                                                                    forward to challenges that remain ahead. I know that the
                                                                    requisite talent, creativity, and innovative spirit are alive and

down the backlog, and deliver cutting-edge technologies to          well among USPTO employees and are producing positive

the marketplace—all without adding a dime to the deficit.           results for the American people and our economy. That’s
                                                                    why I look forward to another productive year, working
But, in order to remain competitive in a global economy,            with you all to ensure that the USPTO drives innovation,
and in order to ensure that businesses can create more              creates jobs, and guarantees America’s competiveness in
jobs and increase their hiring, develop and invest faster,          the century ahead.
there’s more we must do. That’s why we will continue to
work with the Administration, Congress, and our stake-
holders to identify and implement solutions for a sustain-
able and robust IP system that better equips the nation’s
                                                                    David J. Kappos
innovators.
                                                                    Under Secretary of Commerce for Intellectual Property and
                                                                    Director of the United States Patent and Trademark Office
                                                                    November 4, 2011




4	                                                              Performance and accountability Report: Fiscal Year 2011
                 M essage from the U nder S ecretary




         2010
Certificate of Excellence
     President Barack Obama signs the America Invents Act into law September 16, 2011,
     at Thomas Jefferson High School for Science and Technology in Alexandria, Virginia.




6	                                         Performance and accountability Report: Fiscal Year 2011
Management's
Discussion and Analysis
Mission and Organization
of the USPTO

          Mission
          Fostering innovation, competitiveness and economic growth, domestically
          and abroad to deliver high quality and timely examination of patent and
          trademark applications, guiding domestic and international intellectual
          property policy, and delivering intellectual property information and education
          worldwide, with a highly skilled, diverse workforce.



          T
                he United States Patent and Trademark Office’s (USPTO) mission is anchored in
                Article I, Section 8, Clause 8, of the Constitution “to promote the progress of
                science and useful arts, by securing for limited times to authors and inventors
          the exclusive right to their respective writing and discoveries,” and the Commerce
          Clause of the Constitution (Article 1, Section 8, Clause 3) supporting the federal regis-
          tration of trademarks.

          For most of the last century, the United States has been the clear leader in developing
          new technologies, products, and entire industries that provide high-value jobs for
          Americans, enabling us to maintain our economic and technological leadership.

          As a part of the Department of Commerce (DOC), the USPTO is uniquely situated to
          support the accomplishment of the Department’s mission to create the conditions for
          economic growth and opportunity by promoting innovation, entrepreneurship,
          competitiveness, and stewardship.




            Under Secretary Kappos signs Patent No. 8,000,000 at a signing ceremony at the
            Smithsonian American Art Museum, once the home of the first U.S. Patent Office,
            August 16, 2011.



                    8	          PERFORMANCE AND ACCOUNTABILITY REPORT: FISCAL YEAR 2009
8	                             Performance and accountability Report: Fiscal Year 2011
                                                                           M anagement ’ s D iscussion and A nalysis




Our Organization
The USPTO is an agency of the United States within the         backlog, and offering effective alternatives to costly patent
DOC. As shown in Figure 1, the Agency is led by the Under      litigation. It also provides fee-setting authority that will be
Secretary of Commerce for Intellectual Property and Director   essential to USPTO’s sustainable funding model.
of the USPTO who consults with the Patent Public Advisory
Committee (PPAC) and the Trademark Public Advisory             As the clearinghouse for U.S. patent rights, the USPTO is
Committee. The USPTO has two major components: the             an important catalyst for U.S. economic growth as it plays
Patent organization and the Trademark organization, which      a key role in fostering the innovation that drives job cre-
are teamed with several other supporting units, as shown in    ation, investment in new technology, and economic recov-
the organization chart below (Figure 1). Headquartered in      ery. Through the prompt granting of patents, the USPTO
Alexandria, Virginia, the USPTO also has two storage facili-   promotes the economic vitality of American business,
ties located in Virginia and Pennsylvania.                     paving the way for investment, research, scientific devel-
                                                               opment, and the commercialization of new inventions.
The USPTO has evolved into a unique government agency.         The USPTO also promotes economic vitality by ensuring
In 1991 – under the Omnibus Budget Reconciliation Act          that only valid patent applications are approved for grant-
(OBRA) of 1990 – the USPTO became fully supported by           ing, thus providing certainty that enhances competition in
user fees to fund its operations. In 1999, the American        the marketplace.
Inventors Protection Act (AIPA) established the USPTO as an
agency with performance-based attributes, for example, a       The Patent organization examines patent applications to
clear mission statement, measurable services and a perfor-     compare the scope of claimed subject matter to a large
mance measurement system, and known sources of funding.        body of technological information to determine whether the
On September 16, 2011, the President signed into law the       claimed invention is new, useful, and non-obvious. Patent
Leahy-Smith America Invents Act (AIA). The new law will        examiners also provide answers on applications appealed
promote innovation and job creation by improving patent        to the Board of Patent Appeals and Interferences (BPAI),
quality, clarifying patent rights, reducing the application    prepare initial memoranda for interference proceedings to




www.uspto.gov	                                                                                                              9
Management’s D iscussion and A nalysis




                                                                informing applicants of the attorney’s findings, approving
                                                                applications to be published for opposition, and examining
                                                                statements of use in applications filed under the Intent-to-
                                                                Use provisions of the Trademark Act.

                                                                Domestically, the USPTO provides technical advice and
                                                                information to executive branch agencies on intellectual
                                                                property (IP) matters and trade-related aspects of IP rights.
                                                                Internationally, the USPTO works with foreign govern-
                                                                ments to establish regulatory and enforcement mecha-
                                                                nisms that meet international obligations relating to the
                                                                protection of IP.

                                                                The performance information presented in this report is the
                                                                joint effort of the Under Secretary‘s Office, the Patent
                                                                organization, the Trademark organization, the Office of the
                                                                Administrator for Policy and External Affairs, and Office of
                                                                the Chief Financial Officer (OCFO).



  Registered trademark characters at the 2010 National
  Trademark Expo in Alexandria, Virginia.                       Our People
                                                                At the end of FY 2011, the USPTO work force (Figure 2)
determine priority of invention, and prepare search reports
                                                                was composed of 10,210 federal employees (including
and international preliminary examination reports for
                                                                6,780 patent examiners and 378 trademark examining
international applications filed under the Patent Cooperation
                                                                attorneys).
Treaty (PCT). The patent process includes performing an
administrative review of newly filed applications, publishing
pending applications, issuing patents to successful
applicants, and disseminating issued patents to the public.

The Trademark organization registers marks (trademarks,
service marks, certification marks, and collective member-
ship marks) that meet the requirements of the Trademark
Act of 1946, as amended, and provides notice to the public
and businesses of the trademark rights claimed in the
pending applications and existing registrations of others.
The core process of the Trademark organization is the
examination of applications for trademark registration. As
part of that process, examining attorneys make determina-
tions of registrability under the provisions of the Trademark
Act, which includes searching the electronic databases for
any pending or registered marks that are confusingly similar
to the mark in a subject application, preparing letters




10 	                                                       Performance and accountability Report: Fiscal Year 2011
                                                                                 M anagement ’ s D iscussion and A nalysis




                                          America In v ents Act

    After six years of tireless efforts by the Congress, the
    Administration and stakeholders, the President
    signed into law the Leahy-Smith America Invents Act
    (AIA) (Pub. L. No. 112-29) on September 16, 2011.
    The AIA supports the USPTO’s efforts to improve
    patent quality, reduce the backlog of patent applica-
    tions, reduce domestic and global patenting costs for
    U.S. companies, provide greater certainty in patent
    rights, and offer effective alternatives to costly and
    complex litigation. It sets forth some of the biggest
    changes to the patent system in almost 200 years. It
    moves the invention precedence standard from first-        ●●   Established the following new fees:
    to-invent to a first-inventor-to-file system, which is
                                                                    ■	    Post-grant review
    more aligned with global IP standards. It also signifi-
                                                                    ■	    Inter partes review
    cantly moves the USPTO toward a more sustainable
                                                                    ■	    Preissuance submissions by a third party
    funding model (fee setting authority). It also provides
                                                                    ■	    Supplemental Examination
    enhanced proceedings for post-grant patent reviews.
                                                                    ■	    Derivation proceedings
    Some other key provisions of this groundbreaking
                                                                    ■	    Priortized Examination
    Act:
                                                               ●●   Established a new definition and segment of
    ●●   Third party submissions of Prior Art                       applicants – micro entities that are a distinct
                                                                    subset of small entities for fee purposes
    ●●   Priority Examination for Important Technologies
                                                               ●●   Provided the Board of Patent Appeals and Interferences
    ●●   Supplemental Examination Procedure
                                                                    the following new review proceedings:
    ●●   Prior User Defense – expands defense to
                                                                    ■ 	   Derivation Proceedings
         technologies beyond current business methods
                                                                    ■ 	   Inter partes review
    ●●   Creates Patent and Trademark Fee Reserve Fund              ■	    Post grant review
         for excess fees to be appropriated – reserved for          ■	    Transitional program for covered business
         Agency use and spending authorized in annual               	     method patents
         appropriations




www.uspto.gov	                                                                                                           11
Performance Goals and Results


         Introduction to Performance

         I
            n FY 2010, the USPTO issued its 2010-2015 Strategic Plan, which recognizes that
            innovation has become the principal driver of our modern economy by stimulating
            economic growth and creating high-paying jobs. America’s innovators rely on the U.S.
         patent and trademark systems to secure investment capital and to bring their products
         and services to the marketplace as soon as possible. Therefore, it is critical for America’s
         innovators to have a well-run USPTO.

         The USPTO 2010-2015 Strategic Plan (www.uspto.gov/about/stratplan/index.jsp) is
         designed to strengthen the capacity of the USPTO by focusing on a specific set of goals
         and the steps we must take to reach those goals, as follows:
         ●●   Provide timely examination of patent applications: Reduce the average time to first
              office action for patent applications to 10 months (average time from filing until an
              examiner’s initial determination on patentability), and average total pendency to 20
              months (average time from filing until the application is issued as a patent or
              abandoned)
         ●●   Improve quality of patent examination
         ●●   Improve/enhance patent appeal and
              post-grant processes
         ●●   Optimize trademark quality and
              maintain pendency
         ●●   Demonstrate global leadership in all
              aspects of IP policy development
         ●●   Improve information technology (IT)
              infrastructure and tools
         ●●   Implement a sustainable funding
              model for operations
         ●●   Improve relations with employees
              and stakeholders.

         While funding constraints this past year caused us to take actions that postponed full
         implementation of some strategic plan initiatives, we are still committed to achieving
         the goals and objectives in the USPTO 2010-2015 Strategic Plan.

         These priorities support the DOC’s theme of economic growth, and the goal of delivering
         the tools, systems, policies and technologies critical to transforming our economy,
         fostering U.S. competitiveness, and driving the development of new businesses.




12 	                              Performance and accountability Report: Fiscal Year 2011
                                                                                    M anagement ’ s D iscussion and A nalysis



Our plan communicates the USPTO’s priorities and directions, and serves as the foundation for programmatic and
management functions. As a management tool for tracking progress in meeting each of our performance commitments,
the plan includes a Balanced Scorecard which identifies the objectives, initiatives, and performance measures associated
with each strategic goal. These performance commitments are outlined in the strategic framework presented in Table 1.

Following the presentation of the Strategic Planning Framework, a summary table (Table 2) provides trend information on
performance results within each strategic goal. This is followed by a more detailed discussion of our strategy and
performance results, by strategic objective within each strategic goal.



                                        Table 1   2010-2015 Strategic Plan

                                                               Mission
                 Fostering innovation, competitiveness and economic growth, domestically and abroad by
                delivering high quality and timely examination of patent and trademark applications, guiding
                 domestic and international intellectual property policy, and delivering intellectual property
                     information and education worldwide, with a highly skilled, and diverse workforce.

                                                                Vision
                       Leading the Nation and the World in Intellectual Property Protection and Policy.

       Strategic Goals with
                                                                                  Objectives
       Resources Invested

                                      Re-Engineer Patent Process to Increase Efficiencies and Strengthen Effectiveness
            GOAL 1:                   Increase Patent Application Examination Capacity
     Optimize Patent Quality
                                      Improve Patent Pendency and Quality by Increasing International Cooperation and Work Sharing
         and Timeliness
                                      Measure and Improve Patent Quality
            Obligations:
          $1,915.3 million            Improve Appeal and Post-Grant Processes
                                      Develop and Implement the Patent End-to-End Processing System
                                      Maintain Trademark First Action Pendency on Average between 2.5 – 3.5 Months
                                      with 12.5 Months Final Pendency
            GOAL 2:
                                      Continuously Monitor and Improve Trademark Quality
   Optimize Trademark Quality
         and Timeliness               Ensure Accuracy of Identifications of Goods and Services in Trademark Applications and Registrations
            Obligations:              Enhance Operations of Trademark Trial and Appeal Board (TTAB)
           $196.4 million
                                      Modernize IT System by Developing and Implementing the Trademark Next Generation IT System
                                      Develop a New Generation of Trademark Leaders

             GOAL 3:                  Provide Domestic Leadership on IP Policy Issues and Development of a National IP Strategy
   Provide Domestic and Global        Provide Leadership on International Policies for Improving the Protection and Enforcement of
 Leadership to Improve Intellectual   IP Rights (IPR)
  Property Policy, Protection and
     Enforcement Worldwide
           Obligations:
           $49.2 million

                                      Improve IT Infrastructure and Tools
      MANAGEMENT GOAL:
      Achieve Organizational          Implement a Sustainable Funding Model for Operations
            Excellence
                                      Improve Employee and Stakeholder Relations



www.uspto.gov	                                                                                                                          13
Management’s D iscussion and A nalysis



Summary of Strategic Goal Results
The following table summarizes FY 2011 actual performance results against established goals and targets for each key
performance measure. The table also includes actual performance results for the past four fiscal years.

  Table 2 	 Strategic
                  Goals                                                FY 2007      FY 2008      FY 2009       FY 2010        FY 2011       FY 2011
          Performance Measures                                          Actual       Actual       Actual        Actual         Target        Actual

 GOAL 1: Optimize Patent Quality and Timeliness

 Average First Action Pendency                                           25.3         25.6         25.8          25.7           23.0         28.01
                                                                                                                                             Not Met

 Average Total Pendency                                                  31.9         32.2         34.6          35.3           34.5         33.71
                                                                                                                                               Met

 Final Disposition Compliance Rate                                       N/A          N/A         94.4%         96.3%         95.6%-        95.4%2
                                                                                                                              96.5%            Met

 In-Process Examination Compliance Rate                                  N/A          N/A         93.6%         94.9%         94.6%-         95.2%
                                                                                                                              95.6%            Met

 Patent Applications Filed Electronically                               49.3%        71.7%        82.4%         89.5%          92.0%        93.1%3
                                                                                                                                               Met

 GOAL 2: Optimize Trademark Quality and Timeliness

 Average First Action Pendency                                           2.9           3.0          2.7           3.0        2.5 to 3.5        3.1
                                                                                                                                               Met

 Average Total Pendency                                                  13.4         11.8         11.2          10.5           12.5          10.5
                                                                                                                                               Met

 First Action Compliance Rate                                           95.9%        95.8%        96.4%         96.6%          95.5%         96.5%
                                                                                                                                               Met

 Final Compliance Rate                                                   N/A          N/A         97.6%         96.8%          97.0%         97.0%
                                                                                                                                               Met

 Trademark Applications Processed Electronically                         N/A          N/A         62.0%         68.1%          68.0%         73.0%
                                                                                                                                               Met

 GOAL 3: Provide Domestic and Global Leadership to Improve Intellectual Property Policy, Protection and Enforcement Worldwide

 Percentage of prioritized countries that have implemented               N/A          N/A           NA           75%            75%         100%1
 at least 75% of action steps in the country-specific action
 plans toward progress along following dimensions:

 1. Institutional improvements of IP office administration
    for advancing IPR

 2. Institutional improvements of IP enforcement entities

 3. Improvements in IP laws and regulations

 4. Establishment of government-to-government
    cooperative mechanisms
 Percentage of foreign officials trained who have initiated or           N/A          N/A           N/A           N/A        Baseline           4
 implemented a positive change in the IP systems in their
 organizations and/or countries

 The performance result of a given measure is either  Met (100 percent or greater of target),     Slightly Below (95 to 99 percent of the target), or
    Not Met (below 95 percent of target).
 N/A: Denotes new performance measures where data was not available.
 1 The FY 2011 DOC PAR reported preliminary data for this measure.

 2 Within the target range of 95.6%–96.5% considering the margin of error of +/- 0.8%.
 3 This is preliminary data and is expected to be final by December 2011 and will be reported in the fiscal year (FY) 2012 PAR.
 4 FY 2011 is a baseline year for this new measure. A target will be assigned after baseline data has been analyzed, and actuals reported

 subsequently in FY 2012.




14 	                                                                 Performance and accountability Report: Fiscal Year 2011
Strategic Goal 1: Optimize Patent Quality and Timeliness


T
      he USPTO made significant progress in FY 2011 in
                                                                   FIGURE 4   	   Clearing the Oldest Patent
      meeting our goal of providing timely and quality                              Applications – FY 2011
      patents. While less-than-planned spending authority
has greatly impacted the USPTO’s ability to decrease
patent pendency and the backlog, the Patent organization
continued to respond to these challenges and obstacles by
launching new and innovative initiatives to achieve its
strategic goals. Despite budget constraints suspending
routine programs such as examiner hiring, overtime, and
training, the Patent organization succeeded in making
progress by focusing on new methods and processes to
increase efficiencies and strengthen effectiveness through
collaboration, communication, and transparency.

In order to achieve its goal to reduce the backlog, the
USPTO launched a major program to clean up the older
cases in the pending backlog and more strictly manage its         OBJECTIVE 1: RE-ENGINEER PATENT PROCESS
inventory in a first-in, first-out (FIFO) inventory environ-      TO INCREASE EFFICIENCIES AND STRENGTHEN
ment. This initiative has resulted in a temporary rise in         EFFECTIVENESS
pendency in the near-term, because pendency is deter-
mined by cases that were examined during a particular             During this fiscal year, the USPTO worked to reengineer
period. However, clearing the oldest patent applications is       the entire patent examination system to improve workload
important to the USPTO’s long-term success in reducing            prioritization, decrease duplicative work, and streamline
pendency and the backlog of unexamined patent applica-            reviews in collaboration with applicants. Establishing and
tions. In an effort to eliminate the “tail” of backlog applica-   improving mechanisms that would result in accelerated
tions that were more than 16 months old at the beginning          examination were critical to this effort. Accelerating the
of the fiscal year and which had not yet received a first         patent process and boosting patent quality are essential in
office action, the USPTO launched a unique initiative known       translating inventors’ ideas into job-creating businesses
as “Clearing the Oldest Patent Applications” (COPA).              that spur economic growth and ensure U.S. competitive-
This initiative (Figure 4) was a critical first step toward       ness in the global market. In recognizing that applicants’
reaching the USPTO’s strategic goal of providing first office     needs vary in patent prosecution time as well as in applica-
actions on all new applications in an average of 10 months        tion costs, this has resulted in the development and imple-
from their date of filing by 2015.                                mentation of new programs aimed at meeting these varied
                                                                  needs of stakeholders.
The improvements and increased efficiencies are shown in
our performance metrics.                                          Project Exchange is an application acceleration pilot initia-
                                                                  tive that empowers qualifying applicants having two or
                                                                  more pending patent applications to accelerate the review
                                                                  status of one of the applications by abandoning a second




www.uspto.gov	                                                                                                             15
Management’s D iscussion and A nalysis




unexamined application. This initiative, which gives appli-        Program has targeted application processing within
cants greater control over the processing speed of their           12 months for those applications deemed to be most
applications, helps the USPTO to prioritize its workload           important to applicants. Under the “Three-Track” Program,
while reducing the backlog of unexamined patent applica-           an applicant may request one of the following:
tions. After first testing the pilot by permitting its use only
by qualifying independent inventors and small entities, the        ●●   Track I: a prioritized examination with an aggregate
pilot was recently expanded to permit use by all patent                 12 month pendency goal;
applicants.
                                                                   ●●   Track II: a traditional examination under the current
                                                                        procedures; or
The Green Technology Pilot Program provides accelerated
examination of inventions involving green technology,              ●●   Track III: an applicant-controlled delay for up to 30
thereby promoting innovation in green technologies and                  months prior to docketing for examination.
reducing the pendency of patent applications critical to
climate change mitigation. In response to feedback from            The Track I, prioritized examination, was put into motion
applicants, the USPTO revised the Green Technology Pilot           after the passing of the AIA in late September. When fully
Program to allow more categories of technology to be               implemented, the “Three-Track” Program will bring new
eligible for expedited processing under the program. As a          products and services to the global market more quickly,
result, the Green Technology Pilot Program has increased           thus helping to build businesses and create new jobs in
the development and deployment of green technology and             the U.S.
contributed to promoting U.S. competitiveness in this vital
sector. More than 1,900 petitions have been granted to             The First Action Interview Program is another mechanism
green technology patent applicants since the pilot began in        in which the USPTO is improving the examination process
December 2009.                                                     to increase effectiveness of patent prosecution.
                                                                   This program encourages examiners to hold interviews
A new patent examination initiative that would provide             with applicants early in the prosecution process in order to
applicants greater control over the speed with which their         facilitate resolution of issues for a timely disposal.
applications are examined, promote greater efficiency in           This program has been expanded to include all utility appli-
the patent examination process, and allow the USPTO to             cations in all technology areas, enhance efficiency, and
deploy its resources to better meet the needs of innova-           provide more options to participants. The benefits of the
tors is the “Three-Track” Program. This new “Three-Track”          program include the ability to advance prosecution of an
                                                                   application, enhanced interaction between applicant and
                                                                   the examiner, the opportunity to resolve patentability issues
                                                                   one-on-one with the examiner at the beginning of the pros-
                                                                   ecution process, and the opportunity to facilitate possible
                                                                   early allowance. The First Action Interview Program has
                                                                   not only provided applicants with more options in regards
                                                                   to procedures needed for examination, but it also has
                                                                   contributed dramatically to improving patent application
                                                                   quality.

                                                                   For the first time in history, the IP community is able to
                                                                   work with the USPTO collaboratively in making the Manual
                                                                   of Patent Examining Procedure (MPEP) a state-of-the-art
                                                                   practice document through an interactive discussion tool
  The USPTO’s brochure illustrating the details of the Green
                                                                   specifically designed to solicit input from stakeholders on
  Technology Program.
                                                                   the revision and publication process of the MPEP. The inno-




16 	                                                           Performance and accountability Report: Fiscal Year 2011
                                                                              M anagement ’ s D iscussion and A nalysis




vative use of Web-based technology to successfully
reengineer the MPEP has not only transformed the way
the MPEP is expeditiously updated, but also has estab-
lished a more collaborative revision process to foster inter-
action and contributions from stakeholders. This tool
benefits practitioners as well as examiners by providing
easy, accurate, and current guidance to ensure that all
patent applications comply with the laws and regulations
governing the patent system.

Another innovative use of Web-based technology is the
USPTO’s launch of its new e-Petition System which
automates the filing and decision process for eight patent
related routine petition types. With e-Petition, data is input
through a secure Web interface and the petition is decided         Deputy Director of the USPTO Teresa Stanek Rea speaks
automatically, eliminating months of waiting for these             at the Patent Training Academy’s May graduation in
types of petitions to be docketed, decided, and uploaded           Alexandria, Virginia.
into Public Patent Application Information Retrieval.
Petitioners will have more control over when their petitions
are filed and answered through the new e-Petition system         OBJECTIVE 2: INCREASE PATENT APPLICATION
and this is especially advantageous for critical petitions,      EXAMINATION CAPACITY
such as petitions to withdraw from issue. Moreover, elec-
tronic petition decisions will also decrease the need for        The USPTO continues to increase its examination capacity
renewed petitions and reduce the inventory of petitions          by employing new recruitment and development models to
awaiting decision, thus freeing up resources currently used      hire, train, and retain a highly skilled and diverse workforce.
to decide the eight types of petitions. Processing and           While continuing to draw candidates from traditional sources,
issuing more petition decisions electronically provides a        a targeted hiring program was launched to focus on recruiting
great improvement in service to patent applicants as well        experienced former examiners and IP professionals. The new
as increases the efficiency of the USPTO. Table 3 below          hiring model seeks individuals with appropriate technology
indicates the relative cost effectiveness of the entire patent   backgrounds who also have previous IP experience for patent
examination process over time, or the efficiency with which      examiner positions. In contrast with previous hiring which
the organization applies its resources to production.            focused on scientific background and experience, this new
                                                                 hiring model places more emphasis on recruiting candidates
  TABLE 3   	Measure: Total Cost Per Patent Production Unit      with significant IP experience. This will result in reduced
    FISCAL YEAR           TARGET              ACTUAL
                                                                 training time as well as an increased ability to examine appli-
        2007               $4,253              $3,961            cations much sooner than a new hire with little or no IP expe-
        2008               $3,982              $3,773            rience, thereby increasing overall production output.
        2009               $3,562              $3,523
        2010               $3,530              $3,471            Additionally, plans provide for the establishment of a nation-
        2011               $4,041              $3,594            wide workforce using telework from off-site locations to hire
        2012               $4,115                                highly skilled, experienced IP professionals interested in
  Target Met.                                                    joining the USPTO, but who do not wish to relocate to the
                                                                 Washington, D.C. region. This will directly aid in the hiring of
                                                                 patent examiners as well as expand the presence of the
                                                                 USPTO. Development of a nationwide workforce enables
                                                                 the USPTO to widen its hiring practices in an effort to meet




www.uspto.gov	                                                                                                               17
Management’s D iscussion and A nalysis




                                                                     However, despite the fiscal challenges in FY 2011, the
                                                                     USPTO is nonetheless managing to work within its means to
                                                                     continue making improvements and maintaining a highly
                                                                     efficient workforce.


                                                                     OBJECTIVE 3: IMPROVE PATENT PENDENCY
                                                                     AND QUALITY BY INCREASING INTERNATIONAL
                                                                     COOPERATION AND WORK-SHARING

                                                                     Patent processing times are primarily gauged by two
                                                                     measures – Average First Action Pendency (Table 4) and
                                                                     Average Total Pendency (Table 5). Average First Action
                                                                     Pendency is the average length of time it takes from filing
                                                                     until an examiner’s initial determination of the patentability
                                                                     of an invention. Average Total Pendency is the average
its hiring targets as well as tap into the expertise that lies       length of time it takes from filing until the application is
outside the USPTO’s geographical boundary. Plans for
opening the first satellite office, initially scheduled to open in
Detroit, Michigan in August 2011, were temporarily                     TABLE 4   	   Measure: Patent Average First
                                                                       	              Action Pendency (Months)
suspended due to FY 2011 budget constraints, but have now
                                                                           FISCAL YEAR           TARGET            ACTUAL
been resumed with the passage of the AIA.
                                                                              2007                 23.7              25.3
                                                                              2008                 26.9              25.6
Use of overtime is a vital component in reducing the backlog
                                                                              2009                 27.5              25.8
of pending patent applications and achieving the USPTO’s
                                                                              2010                 25.4              25.7
pendency goals. Each overtime hour worked is directly tied
                                                                              2011                 23.0              28.0
to production output because it is straight examining time.                   2012                 22.3*
As such, overtime has proven to be more efficient on a                        2013                 15.2*
per-hour basis than equivalent regular-time hours, which
                                                                       Target Not Met.
must also incorporate the cost of training, employee leave,
                                                                       * Outyear targets subject to change.
and other benefits. Unfortunately, overtime has been
reduced this year due to the lack of adequate funding in
FY 2011.
                                                                       TABLE 5   	   Measure: Patent Average Total
                                                                       	                 Pendency (Months)
Additional patent examination capacity will also be gained by
                                                                           FISCAL YEAR           TARGET            ACTUAL
continuing to contract for the searching on PCT international
                                                                              2007                 33.0              31.9
applications thereby allowing examiners to conduct the
                                                                              2008                 34.7              32.2
examination process on U.S. national applications. By
                                                                              2009                 37.9              34.6
contracting this function, contractors, instead of patent
                                                                              2010                 34.8              35.3
examiners, would provide international search reports and
                                                                              2011                 34.5              33.7
written opinions of the International Searching Authority,                    2012                 32.1*
thus allowing examiners to focus on reducing the backlog of                   2013                 29.1*
U.S. applications. PCT search contracting has been greatly
                                                                       Target Met.
reduced this year, also due to the lack of adequate funding.
                                                                       * Outyear targets subject to change.




18 	                                                            Performance and accountability Report: Fiscal Year 2011
                                                                                       M anagement ’ s D iscussion and A nalysis




issued as a patent or abandoned by the applicant. Average
                                                                        FIGURE 5   	    TOTAL PPH FILINGS BY MONTH
First Action Pendency has slightly increased from the
previous year. This increase was expected due to the
efforts focused on clearing up the oldest patent applica-
tions from the backlog through the COPA initiative.
However, with sufficient funding and the ability to hire and
utilize overtime, the USPTO is confident that it will not only
meet but exceed its target goals for next year.

An ongoing effort to improve examination efficiency and to
use resources wisely is the development of work sharing.
Work sharing has evolved as a significant tool in addressing
pendency. Under the work sharing umbrella are the Patent
Prosecution Highway (PPH), Strategic Handling of
Applications for Rapid Examination (SHARE), and First Look
Application SHaring (FLASH). These work sharing programs
                                                                        FIGURE 6   	AVERAGE MONTHLY ALLOWANCE RATE -
reduce re-work, increase collaboration, and provide consis-         	                PPH RATE VS USPTO OVERALL RATE
tency between IP offices. The benefits of work sharing are
immense. The USPTO continues to work with the major
IP offices toward collaborative work sharing solutions that
aid in faster, higher quality patents.

PPH has been implemented with 15 other offices
worldwide. In the PPH program, after an office of first
filing determines that an application contains at least one
allowable claim, the applicant may request that the second
office fast-track examination of corresponding claims in its
corresponding application filed in the office of second filing.
By using the PPH, an applicant can receive patentability
determinations faster in multiple jurisdictions, saving time
and money in the process. Offices greatly benefit from
work sharing efficiency and quality gains.                         ●●   An 8.8 percent rate of requests for continued examina-
                                                                        tion versus the USPTO rate of 30.6 percent requests for
Beginning with the first PPH with the Japan Patent Office               continued examination.
(JPO) in 2006, the USPTO has received over 7,900 PPH
requests (Figure 5), and is close to meeting the goal of           This program was selected by the then Secretary of
8,000 requests by the end of calendar year 2011. Other             Commerce, Gary Locke, as one of the first two programs
important PPH metrics include:                                     to be awarded the Department’s first Performance
                                                                   Excellence Award for outstanding efforts to improve
●●   An overall allowance (Figure 6) rate of over 88 percent,      business processes.
     about double the overall USPTO average allowance
     rate;                                                         Furthermore, the USPTO is piloting aspects of a concept
                                                                   known as SHARE. According to the SHARE concept,
●●   A reduction of almost one entire office action per disposal
                                                                   where corresponding applications are filed in multiple
     versus the USPTO average of 2.5 actions/disposal;
                                                                   offices, the USPTO appropriately prioritizes and balances
●●   A lower average appeal rate of 1.7 percent versus the         workloads to be able to maximize the re-use of foreign
     overall USPTO average appeal rate of 2.3 percent; and         search and examination results, and minimize duplication




www.uspto.gov	                                                                                                               19
Management’s D iscussion and A nalysis




of examination work done in other IP offices. One important       between the USPTO, the PPAC Quality Task Force and the
advantage of SHARE relative to the PPH is that SHARE              patent community, a new Composite Quality Metric was
does not depend on an applicant’s request to reutilize work;      developed for reporting in FY 2012. This metric measures
it operates independently of such requirements. As such,          seven diverse aspects of the examination process to form
its potential is not limited in the same way that PPH is          a more comprehensive composite of quality metric. One
limited as an applicant-driven process.                           measure of the composite metric, the Quality Index Report
                                                                  tracks the actions taken by examiners during prosecution
Additionally, the USPTO launched a pilot with the European        of patent applications. It further provides a statistical
Patent Office (EPO) and the JPO in their implementation of        analysis of quality-related events in the prosecution, such
the SHARE concept, called FLASH. Under FLASH, the USPTO           as the reopening of final rejections and second non-final
identifies applications filed with it for which a corresponding   actions. Identifying quality issues prior to final action allows
application was later filed at EPO or JPO, and then under-        for corrective actions to be taken via coaching, mentoring,
takes a search and examination of that application within a       and training.
time frame in which that work can be optimally reused by the
EPO or JPO on their corresponding application.                    To better measure the quality of services provided by the
                                                                  patent examining staff, the USPTO expanded its Patents
To date, the USPTO has issued 506 examination reports             External Quality Survey. This survey gives applicants an
out of 1,058 applications identified for FLASH participation,     opportunity to provide feedback on the patent process on
and has provided 221 of the reports to the EPO and JPO            a semi-annual basis. The survey provides a valuable
for reuse. The remaining reports will be released once the        complement to other quality initiatives, such as enhancing
U.S. application has been published. Significant metrics          interview practice. The survey results (Figure 7), along with
captured to date include:                                         customer outreach efforts and other initiatives, enable the
                                                                  USPTO to improve service quality based upon the input
●●   Average number of days from notification to the examiner     collected through the survey process. In the Spring 2011
     to mailing of a first office action: 39 days; and            survey, 36 percent of customers felt that overall examina-
                                                                  tion quality had slightly or significantly improved over the
●●   Average number of months pendency from application
                                                                  previous three months. These levels are consistent with
     filing to first office action: 15.1 months for FLASH as
                                                                  those observed over the past year and remain some of the
     compared to 28.0 months USPTO average pendency to
                                                                  most positive ratings the USPTO has achieved since the
     first action (Table 4) for all applications.
                                                                  inception of the survey in 2006.

                                                                  Other measures of patent quality include – the Final
OBJECTIVE 4: MEASURE AND IMPROVE                                  Disposition Compliance Rate (Table 6) and the In-Process
PATENT QUALITY                                                    Compliance Rate (Table 7). The Final Disposition Compliance

Reducing patent pendency is only one part in improving              FIGURE 7   I	n Past Three Months, How Would You
the IP system – patent quality must also be maintained and         	           Rate Overall Examination QuaLity
improved. The USPTO continues to expand its quality
management program from top to bottom by focusing on
improving the quality of the initial patent application and
the entire examination and prosecution process. Quality
improvement is a continuous process that must include
public input on the best ways to improve quality as well as
measure that improvement without extending the overall
examination process. As a result of the collaboration




20 	                                                         Performance and accountability Report: Fiscal Year 2011
                                                                                           M anagement ’ s D iscussion and A nalysis




Rate provides the percentage of Utility, Plant, Reissue,                    knowledge on prior art and industry standards in areas of
Design (UPRD) allowances and final rejections reviewed                      emerging technologies and established technologies.
that were found to be compliant with applicable rules and                   The PETTP provides an excellent opportunity for communi-
laws regarding final patentability determination. The                       cation between patent examiners and the experts who
In-Process Compliance Rate provides the percentage of                       work in the various technologies that are examined
UPRD office actions prior to allowance or final rejection                   throughout the USPTO. This enhanced communication
that were found to be compliant with applicable rules and                   contributes to improving overall patent quality and
laws. In changing its focus from end-process reviews to                     decreasing patent pendency.
an emphasis on front-end quality, the USPTO continues to
make strides in improving the quality of its products and                   In addition, the Office of Patent Training (OPT) has provided
services.                                                                   a two-phase training program to new supervisory patent
                                                                            examiners which provides coaching and mentoring modules
                                                                            in an effort to help patent examiners reach their full
  TABLE 6   	   Measure: Patent Final Disposition                           potential. Patent managers and supervisors will continue
  	                   Compliance Rate
                                                                            to participate in a Leadership Development Program which
      FISCAL YEAR            TARGET                  ACTUAL
                                                                            focuses on educating and creating leaders. Lastly, OPT
         2009                  N/A                    94.4%
                                                                            will continue to maintain and improve the effectiveness of
         2010                 94.5%                   96.3%
                                                                            the ISO-9001 (International Organization for Standardization)
         2011             95.6% - 96.5%               95.4%
                                                                            certified New Patent Examiner Training Program.
         2012             95.6% - 96.7%
         2013             95.6% - 96.7%                                     Quality improvement also relies on clearly defining objective
  Target Met.                                                               measures that will be universally applied during the perfor-
                                                                            mance appraisal process, as well as developing a framework
                                                                            that focuses on coaching, mentoring, and training. Revising
  TABLE 7   	      Measure: Patent In-Process                               Senior Executive Service (SES) Performance Appraisal
  	              Examination Compliance Rate                                Plans (PAPs) to ensure alignment with the USPTO
      FISCAL YEAR            TARGET                  ACTUAL                 2010-2015 Strategic Plan goals and objectives as well as
         2009                  N/A                    93.6%                 developing the framework for modifying new patent
         2010                 94.0%                   94.9%                 examiner PAPs that focus on patent quality and reducing
         2011             94.6% - 95.6%               95.2%                 pendency will provide greater transparency, educate
         2012             94.6% - 96.0%                                     employees on their responsibilities, and enable managers
         2013             94.6% - 96.3%                                     to set clear expectations and objectives for the achieve-
  Target Met.                                                               ment of organizational goals. Reformulating PAPs not only
                                                                            advances management and employee development, but
                                                                            lays the foundation for long-term improvement in providing
In providing more effective training, the USPTO further                     timely and high quality examination of patent applications.
enhances patent examination fundamentals, communica-
tion, and cooperation between the examiner and applicant.                   The BPAI issued numerous informative decisions on
In addition to the highly successful compact prosecution                    substantive and procedural issues in FY 2011. This year’s
training and refresher training program that encompasses                    decisions relate to current issues of concern to the IP
over 20 training modules designed to enhance examiners’                     community, including: the written description requirement;
knowledge and skills in procedural and legal topics                         the limits of the BPAI’s jurisdiction in reexamination
pertaining to patent examination, the USPTO has also                        proceedings; in interferences,1 the rules pertaining to publi-
implemented the Patent Examiner Technical Training                          cation of the record of an interference; and burden of proof
Program (PETTP) which provides patent examiners with                        the party seeking to assert inventorship rights in an inter-
direct access to experts who are able to share their technical              ference proceeding bears. BPAI’s informative opinions

1	A patent interference is a determination of which party first invented the commonly claimed invention (priority contest) between an application and
 either another application or an issued patent.




www.uspto.gov	                                                                                                                                   21
Management’s D iscussion and A nalysis




help provide insight into BPAI procedural issues and legal                   In FY 2011, the USPTO: (1) released the Patent Application
standards, and clarify its jurisdiction. The Agency is                       Text Initiative project to two patent work units to develop
currently considering whether and what kind of metrics will                  in-house Optical Character Recognition capability and provide
result from the implementation of the AIA.                                   text-based documents and analytical tools; (2) established
                                                                             the integrated program team and hired its portfolio manager;
                                                                             (3) developed three prototypes for front-end solutions and
OBJECTIVE 5: IMPROVE APPEAL AND POST-GRANT                                   received feedback from more than 2,000 examiners; (4)
PROCESSES                                                                    oversaw and analyzed three competing back-end prototypes
                                                                             to assess Patent End-to-End (PE2E) implementation needs;
The BPAI continues to improve communications with the                        (5) implemented an enterprise-class, scalable architecture
Patent organization. This year, BPAI launched a program                      that runs on an infrastructure that leverages industry-leading
where senior patent examiners are detailed to the BPAI in                    technology; and (6) initiated agile development of high-
order to develop a high-level understanding of its opera-                    priority functionality and deployed initial PE2E functionality
tions, decision-making processes, and constraints.                           to users in the Patent organization Central Reexamination
Detailed examiners will work with Administrative Patent                      Unit.
Judges by researching both technical issues raised in
appealed cases and legal issues, and applying court                          The USPTO continues to provide and enhance the tools for
decisions in legal analysis to assist as the judges craft their              applicant’s use for patent application filing. The use of elec-
decisions. BPAI continues to liaise with technology center                   tronic filings as shown in Table 8 continues to rise, now at
representatives in order to enhance operational under-                       93.1 percent, from last year when 89.5 percent of applica-
standing throughout the USPTO.                                               tions were filed electronically.


OBJECTIVE 6: DEVELOP AND IMPLEMENT THE                                         TABLE 8   	   Measure: Patent Applications
                                                                               	                 Filed Electronically
PATENT END-TO-END PROCESSING SYSTEM
                                                                                   FISCAL YEAR           TARGET                 ACTUAL
                                                                                      2007                40.0%                   49.3%
Under Secretary Kappos stated, “The intellectual property
                                                                                      2008                69.0%                   71.7%
community deserves to have high quality patents and trade-
                                                                                      2009                80.0%                   82.4%
marks issued in a timely manner. Intelligent investment in                            2010                90.0%                   89.5%
the USPTO IT infrastructure holds the potential to dramati-                           2011                90.0%                  93.1%*
cally accelerate the USPTO towards that goal. That’s why                              2012               90.0%**
I’m aggressively pushing the agency to completely modernize                           2013               94.0%**
our IT systems—not just to incrementally improve, but to                       Target Met.
radically re-invent our systems from scratch.”2 A new
                                                                               * Preliminary data and is expected to be final by December 2011
patent processing system that meets the USPTO’s goals of                       and will be reported in the FY 2012 PAR.
timely patent examination is critical to innovators and to the                 ** Outyear targets subject to change.
American economy. The USPTO proposes to modernize its
patent prosecution system by migrating to fully-electronic,
text-based application and examination processes and by                      The improvements and increased efficiencies can be seen
eliminating the fragmentation of existing examination tools.                 in some of our metrics in Figure 8.




2   David Kappos Blog: “Re-Thinking our IT Infrastructure”, April 2010




22 	                                                                     Performance and accountability Report: Fiscal Year 2011
                                                                               M anagement ’ s D iscussion and A nalysis




 FIGURE 8    	                                        Various Patent Metrics



                 Applications Awaiting First Action                   12 Month Rolling Average Actions Per Disposal
                          FY 2009 – FY 2011                                    by Bi-Week FY 2009 – FY 2011




            12 Month Rolling Average Allowance Rate                               Green Technologies Pilot
                  by Bi-Week FY 2009 – FY 2011                                 December 2009 – September 2011




www.uspto.gov	                                                                                                        23
Strategic Goal 2: Optimize Trademark Quality and Timeliness


T
     he Trademark organization has served an important           Over the last six years, the Trademark organization has met
     purpose throughout recorded history, as owners of goods     and exceeded its performance targets as it continues to
     and services historically affixed their names to their      reap the benefits of its significant investments in human
products. Trademarks perform a valuable function by identi-      capital and in automation and process reengineering.
fying the source of products and services and serving as an      Additional performance targets and metrics are reported
indicator of reliable quality to the consumer. By registering    on a quarterly basis throughout the year at the USPTO Data
trademarks, the USPTO has a significant role in protecting       Visualization Center – Trademark’s Dashboard (Figure 9) is
consumers, as well as providing important benefits to American   available at http://www.uspto.gov/dashboards/trademarks/
businesses by allowing them to strengthen and safeguard their    main.dashxml. Reporting these metrics, along with defini-
brands and related investments.                                  tions, increases transparency as well as providing a more
                                                                 useful and interactive dialog with the IP community.



                                                                 OBJECTIVE 1: MAINTAIN TRADEMARK FIRST ACTION
                                                                 PENDENCY ON AVERAGE BETWEEN 2.5-3.5 MONTHS
                                                                 WITH 12.5 MONTHS FOR FINAL PENDENCY

                                                                 For the sixth consecutive year, the Trademark organization
                                                                 has consistently met and exceeded its pendency targets
                                                                 for first action and final disposition. With final pendency
                                                                 less than 11 months, a record low for the office, a new
                                                                 application is registered or issued a notice of allowance on
                                                                 average in less than a year. This rapid processing allows
                                                                 applicants to act quickly on marketing strategies and
                                                                 business plans. The examiner’s first action is issued
                                                                 approximately three months from the filing date, giving the
                                                                 applicant an important early indication of registrability. First
                                                                 action pendency has been consistently maintained between
                                                                 2.5 and 3.5 months despite large monthly variability in
                                                                 incoming workloads and persistent economic uncertainty.

                                                                 Pendency has improved as electronic processing and filing
                                                                 have become the primary means of conducting business
                                                                 within the Trademark organization. Increased use of elec-
                                                                 tronic forms, particularly Trademark Electronic Application
                                                                 System (TEAS) Plus filings, has improved the efficiency
                                                                 and timeliness of examination. While 30 percent of new
                                                                 applications are TEAS Plus filings, these applications
                                                                 account for 48 percent of first action approvals.




24 	                                                        Performance and accountability Report: Fiscal Year 2011
                                                                                 M anagement ’ s D iscussion and A nalysis




The Trademark organization has managed to dynamically
align examination capacity with incoming workloads by             TABLE 10   	     Measure: Trademark Average
                                                                 	                  Total Pendency (Months)
maintaining appropriate staffing levels, sustaining high
                                                                     FISCAL YEAR            TARGET           ACTUAL
productivity, and judiciously adjusting production incentives
                                                                        2007                 14.8               13.4
to maintain first action pendency at 2.5 to 3.5 months and
                                                                        2008                 14.3               11.8
final pendency at less than 11 months.
                                                                        2009                 13.0               11.2
                                                                        2010                 13.0               10.5
Trademark Pendency Performance                                          2011                 12.5               10.5
Trademark first action pendency measures the average                    2012                 12.5
number of months from the date of application filing to the             2013                 12.5

first office action. Trademark final pendency measures the        Target Met.
average number of days from date of filing to notice of
allowance, notice of abandonment, or registration for appli-
                                                                 FIGURE 10       	PENDENCY BY FILING METHOD (MONTHS)
cations based on use in that month. Final pendency is
measured two ways: excluding and including cases that
were previously suspended or were involved in inter partes
proceedings at the TTAB. First action pendency (Table 9)
has been maintained within its optimized range of 2.5 to 3.5
months every month for more than five years now. Average
final pendency, including suspended and inter partes cases,
was 12.6 months. Excluding applications that were
suspended or delayed for inter partes proceedings, average
final pendency (Table 10) was 10.5 months. TEAS Plus
remains the filing method of choice being the fastest and
                                                                OBJECTIVE 2: CONTINUOUSLY MONITOR
most cost-effective method to apply and register a mark, as
                                                                AND IMPROVE TRADEMARK QUALITY
illustrated in Figure 10 to the right.
                                                                The Trademark organization continues to meet and exceed
  TABLE 9   	    Measure: Trademark Average 		                  high quality standards and achieve year-to-year gains and
  	             First Action Pendency (Months)
                                                                enhancements. About 97 percent of all first actions and
      FISCAL YEAR        TARGET              ACTUAL             final decisions (approvals and rejections) were compliant
         2007               3.7                 2.9
                                                                with the registrability standards set by statute, and also
         2008            2.5 to 3.5             3.0
                                                                met or exceeded agency standards for writing quality.
         2009            2.5 to 3.5             2.7
                                                                Results for both the first and final action measures are
         2010            2.5 to 3.5             3.0
         2011            2.5 to 3.5             3.1
         2012            2.5 to 3.5
         2013            2.5 to 3.5
  Target Met.




                                                                  Commissioner for Trademarks Deborah Cohn.




www.uspto.gov	                                                                                                         25
Management’s D iscussion and A nalysis




above their targets and indicate high accuracy in decision-
making and high quality of writing. To sustain these high           TABLE 11     	 Measure: Trademark First Action
                                                                   	                     Compliance Rate
performance levels, the Trademark organization continues
                                                                       FISCAL YEAR                    TARGET                    ACTUAL
to emphasize and improve training, to promote electronic
                                                                          2007                        95.5%                      95.9%
filing and processing, and to make greater use of on-line
                                                                          2008                        95.5%                      95.8%
tools and enhanced processes.
                                                                          2009                        95.5%                      96.4%
                                                                          2010                        95.5%                      96.6%
Nevertheless, the Trademark organization strives to                       2011                        95.5%                      96.5%
enhance the quality of examination by adopting more                       2012                        95.5%
rigorous customer-centric measures. The new “excellent                    2013                        95.5%
quality” measure—which reflects comprehensive excel-                Target Met.
lence of the search, evidence, writing, and decision-making
of the initial office action, while also emphasizing the appro-
priate use of telephone and e-mail communications to                TABLE 12     Measure: Trademark Final Compliance Rate
settle or clarify issues with the applicant or its attorney—
                                                                       FISCAL YEAR                    TARGET                    ACTUAL
exceeded its first year target by almost nine percentage                  2009                        97.0%                      97.6%
points. The target is an indication of the high standard that             2010                        97.0%                      96.8%*
has been set in defining excellence. The Trademark organi-                2011                        97.0%                      97.0%
zation has used feedback from user groups to ensure that                  2012                        97.0%
the standards of excellence applied by the Trademark orga-                2013                        97.0%
nization reflect users’ perception of excellence as well.           Target Met.
                                                                    * Within the target range of 97.0% considering the margin error of
Trademark Quality Performance                                       (+/- 0.6%).

The Trademark organization evaluates examination quality
for all issues that could be considered deficient in making       Trademark quality has continued to demonstrate high levels
a first and final action substantive decision. Evaluations are    and sustained improvement of the search and examination
conducted on a random sample of applications. The evalu-          process. To increase quality performance even further, a
ations review the quality of decision making of the exam-         new measure and a new incentive award that focuses on
iner’s first office action and final action (an approval for      the comprehensive excellence of the entire office action
publication or a final refusal).                                  was developed effective FY 2011. The new quality measure
                                                                  raises the examination standards and aims at excellence as
The “in-process review” for assessing excellent and               perceived by customers and internal stakeholders
deficient work creates a comprehensive, meaningful, and           (Figure 11).
rigorous review of what constitutes quality. The results of
an examiner’s first action (Table 11) and final office action      FIGURE 11      	       EXCELLENT OFFICE ACTION
(Table 12) are reviewed for the correctness of the substan-
tive decision-making, and the quality of the search strategy,
evidence, and writing. The measures consider a wide
scope of elements for review and evaluation, and the
results are used for targeted training on topics that warrant
improvement. Examiners are given feedback about
excellent as well as deficient work to further improve
quality.
                                                                                      FY 2011 Actual Result          Annual Target
                                                                               The FY 2011 actual result for the Excellent Office Action
                                                                               was 20.7%, well above the annual target of 15.0%.




26 	                                                         Performance and accountability Report: Fiscal Year 2011
                                                                            M anagement ’ s D iscussion and A nalysis




Trademark Efficiency Performance                               Comments on the proposed rule were due September 12,
                                                               2011. Once finalized, the rules changes initially would
The efficiency measure (Table 13) is calculated by dividing
                                                               facilitate a limited pilot in a relatively small number of cases
total expenses associated with the examination and
                                                               to assess the level of accuracy of the identifications.
processing of trademarks (including associated overhead
                                                               The pilot could yield information about the reliability of the
and allocated expenses) by outputs or office disposals.
                                                               trademark register in this regard, so that the USPTO and
The measure is a relative indicator of the efficiency of the
                                                               stakeholders may determine whether an inaccuracy
trademark process and related services over time, it does
                                                               problem exists and consider measures to address it,
not represent the unit cost of a trademark since office
                                                               if necessary.
disposals are only one measure among many products and
services that the USPTO performs each year.

                                                               OBJECTIVE 4: ENHANCE OPERATIONS OF
  TABLE 13   	      Measure: Total Cost Per
                                                               TRADEMARK TRIAL AND APPEAL BOARD
                  Trademark Office Disposal
    FISCAL YEAR             TARGET            ACTUAL
                                                               The TTAB issued 38 precedential decisions on a wide
        2007                  $685             $660
                                                               variety of substantive and procedural matters. The TTAB’s
        2008                  $697             $470
                                                               precedential decisions on ex parte appeals provide proce-
        2009                  $639             $474
        2010                  $607             $520
                                                               dural and substantive guidance to the Agency’s trademark
        2011                  $650             $541
                                                               examining attorneys, trademark owners, and the trademark
        2012                 $621*                             bar. The TTAB’s precedential decisions in opposition and
        2013                 $619*                             cancellation proceedings provide guidance to trademark
  Target Met.
                                                               owners and the bar on procedural matters pertaining to the
                                                               Trademark Rules of Practice, the application of the Federal
  * Outyear targets subject to change.
                                                               Rules of Civil Procedure to Board cases, and on substan-
                                                               tive legal matters.

OBJECTIVE 3: ENSURE ACCURACY OF                                In May 2011, TTAB issued a new edition of the Trademark
IDENTIFICATIONS OF GOODS AND SERVICES IN                       Board Manual of Procedure, which was revised to incorpo-
TRADEMARK APPLICATIONS AND REGISTRATIONS                       rate new material related to the 2007 amendments of the
                                                               Trademark Rules and the more than 300 precedential
Following changes in the standard for fraud at the USPTO,      decisions that have issued since the last revision.
and resulting concerns about the potential for inaccuracy in   The revised manual is posted at: http://www.uspto.gov/
the identifications of goods and services on the register,     trademarks/process/appeal/TBMP_Master_Document_
the Trademark organization began taking steps to assess        May_2011.pdf, and is in a searchable format for the first
this issue. The Trademark organization hosted a round-         time. This version of the manual is easier to use and will
table in 2010 with the George Washington University            be easier to revise on a regular basis than the previous
School of Law to discuss improvement to the accuracy of        edition.
identifications with members of the user community.
Public comments were collected on a suggestion from the        The TTAB also continues to work closely with the bar to
roundtable. The Trademark organization also discussed the      expand and refine its Accelerated Case Resolution (ACR)
issue with the Trademark Public Advisory Committee.            practice options. The TTAB has already seen increased
                                                               use of ACR to expedite the disposition of inter partes
Following up on one of the leading suggestions from the        cases. To facilitate the use of ACR, the TTAB posted on its
2010 event, in July 2011 the Trademark organization issued     Web page suggested approaches to ACR from practitio-
a Notice of Proposed Rulemaking that would permit the          ners and expects to post additional suggestions as they are
USPTO to require additional specimens or other evidence        developed by innovative practitioners and the TTAB’s own
in connection with a Section 8 Affidavit of Continued Use.     attorneys and judges. In addition, the TTAB issued a Notice




www.uspto.gov	                                                                                                             27
Management’s D iscussion and A nalysis




of Inquiry to solicit suggestions from stakeholders about     The program represents a major multi-year investment that
the TTAB’s involvement in the settlement discussions of       underwent a rigorous approval process with extensive
parties. Finally, the TTAB began discussions with the bar     technical and managerial reviews. The USPTO has reached
regarding development and possible adoption of new and        out to all key external and internal stakeholders to identify
informative performance measures that will inform stake-      the needs, define the requirements, assess and track the
holders about the state of TTAB practice.                     cost-benefits of the investment, and will continue to seek
                                                              input from stakeholders as progress is made on the
                                                              program. An internal Business Architecture Group has
OBJECTIVE 5: MODERNIZE IT SYSTEM BY                           been established and tasked with refining and articulating
DEVELOPING AND IMPLEMENTING THE                               a capability map that defines the current business environ-
TRADEMARK NEXT GENERATION IT SYSTEM                           ment, the future requirements and the top priorities.

The Trademark organization is progressively becoming a        The Trademark organization is in the process of separating
fully electronic organization. More than 98 percent of new    its current IT systems and creating a virtual environment to
applications are received electronically and 73 percent are   support the Trademark organization’s Next Generation
processed completely electronically from filing to final      computer-based resources. The transition will require
disposition (Table 14). This performance measure exceeds      judicious maintenance of legacy systems and legacy
the target of 68 percent and demonstrates that the            system improvements while migrating to a virtual
Trademark organization is making good use of its electronic   architecture.
systems and is successfully motivating applicants to
conduct correspondence electronically. In an effort to        The development of the Trademark organization’s Next
further improve upon the rate of electronic processing, the   Generation IT systems is bearing its first fruit with the
Trademark organization has held a number of roundtables       “cloud” deployment of the Trademark Data Retrieval (TDR)
and focus sessions with user groups to identify process       system and functionality. TDR, which now offers multi-
enhancements and novel practices that eliminate the need      media functionality, provides an important communication
for paper-based filings and communications.                   link for applicants to retrieve electronic notifications of
                                                              office actions.

                                                              Trademark E-Management
  TABLE 14   	 Measure: Trademark Applications
  	               Processed Electronically                    The number of electronically filed trademark applications
       FISCAL YEAR          TARGET          ACTUAL            has progressed steadily over the years as a result of promo-
          2009               62.0%           62.0%            tional events, increased number and type of applications
          2010               65.0%           68.1%            available for filing electronically, improved functionality and
          2011               68.0%           73.0%            enhancements, and lower fees for filing electronically.
          2012               74.0%*
                                                              The USPTO completed the launch of 10 informational
          2013               76.0%*
                                                              trademark instructional videos that are available at the
  Target Met.                                                 Trademark Information Network through http://www.uspto.
  * Outyear targets subject to change.                        gov/trademarks/basics/index.jsp. The Network was
                                                              designed to present information in an entertaining manner
                                                              as news style broadcast how-to videos covering important
Given the critical importance of the IT systems and the       topics and critical application filing tips to address common
existing state of its infrastructure and systems, the USPTO   filing mistakes.
has embarked on an ambitious IT modernization program
for Trademark systems. The modernization program will         The Trademark organization has created an electronic
enhance functionality, availability, security, scalability,   trademark application record management process by
quality of service, and overall cost efficiencies.            capturing all incoming application and registration filings as
                                                              an electronic file, that includes text and image of the initial




28 	                                                     Performance and accountability Report: Fiscal Year 2011
                                                                             M anagement ’ s D iscussion and A nalysis




application and subsequent applicant and office correspon-     progress in becoming a paperless organization that is
dence. Examining attorneys use the electronic record to        responsive, efficient, and environmentally friendly, as
process and examine applications, manage their dockets of      shown in the data for Figure 12, below.
pending work, and take action on applications. The same
electronic files are similarly used to process registration
maintenance documents. All paper documents associated          OBJECTIVE 6: DEVELOP A NEW GENERATION
with active registrations have been converted into elec-       OF TRADEMARK LEADERS
tronic files.
                                                               The Trademark organization witnessed a change in two of its
A new measure was introduced in 2009 to address the            executive positions in the past year. Deborah Cohn was
major USPTO strategic challenge to complete full elec-         named the Commissioner for Trademarks, succeeding Lynne
tronic workflow and file management for receiving and          Beresford who had served in the position for five years. The
processing trademark applications and related documents.       transition included the appointment of Mary Boney Denison
The measure (Table 14), “Applications Processed                as Deputy Commissioner for Trademark Operations, the
Electronically,” has been developed to identify the degree     position that was previously held by Ms. Cohn.
to which the Trademark organization is able to encourage
applicants to file and submit correspondence electronically    For a fourth year, the Trademark organization continued
as well as implement systems that can electronically           programs in support of the Trademark Human Capital
process, examine, and dispose of an application in a           Strategic Plan. The Trademark plan, which was developed
completely electronic environment. This measure reports        to further the objectives of the Office of Personnel
the percentage of trademark applications that were filed,      Management Federal Human Capital Strategic Plan, has
processed, and disposed of relying completely on elec-         shown results. Teams have continued work on programs
tronic systems and communications. This measure                and training in support of the three “human capital” objec-
replaced the electronic filing performance measure of          tives of talent management, results-oriented performance
which the target has been achieved.                            culture, and leadership and knowledge management.

To increase electronic processing further, the Trademark       The Trademark organization continues to improve upon its
organization has been transforming notices from paper to       successful telework program through the continued
electronic form, sending these notices electronically rather   expansion of telework opportunities and by expanding the
than by regular mail to those applicants and registrants       use of remote access and collaboration tools:
who have authorized e-mail communication. Customer
focus sessions have also been conducted to identify best       ●●   97 percent of trademark employees are eligible to
practices and issues that prevent them from conducting all          work from home;
their transactions and communications electronically. As a
result of the feedback, changes are being made in the elec-
                                                               ●●   88 percent of all eligible Trademark employees
tronic forms. The Trademark organization is making great            (78 percent of all Trademark employees) are working
                                                                    from home at least one day per week; and

 FIGURE 12   	APPLICATIONS COMPLETELY PROCESSED 	
                                                               ●●   90 percent of eligible examining attorneys work from
 	               ELECTRONICALLY (CLASSES)                           home nearly full time.

                                                               In past years, the program was expanded to provide work-
                                                               at-home opportunities for employees in the Examination
                                                               Support Unit, the Intent-To-Use/Divisional Unit (ITU), and
                                                               Pre-Examination Unit. As a result, programs exist throughout
                                                               the organization to expand the number of employees and
                                                               functions supported by telework.




www.uspto.gov	                                                                                                          29
Management’s D iscussion and A nalysis




With the implementation of the Telework Enhancement
                                                                   FIGURE 13   	USPTO HOTELING ACROSS THE USA
Act of 2010, the telework program will be expanded further
by allowing eligible employees to locate more than 50
miles away from the office. Trademark management and
labor worked with an inter-agency oversight committee to
develop a pilot program and define a framework to measure
and track relevant cost and performance data as required
by the Act. The office is able to tap into and retain geograph-
ically diverse pools of skilled labor and talent as a result.
This is best illustrated in the Telework Map, Figure 13, to
the right.




30 	                                                         Performance and accountability Report: Fiscal Year 2011
Strategic Goal 3: Provide Domestic and Global Leadership
to Improve Intellectual Property Policy, Protection and
Enforcement Worldwide


I
   n addition to the examination and issuance of patents          plurilateral, and multilateral negotiations involving the
   and trademarks, the USPTO promotes the protection              protection and enforcement of IP around the globe. The
   and enforcement of the IP of American innovators and           USPTO’s cooperation with IP offices was greatly expanded
creators on both the domestic and international levels.           during FY 2011, including an expansion of the PPH program
Under the AIPA of 1999 (Pub. L. No. 106-113), the USPTO           to several new partner offices. Through the USPTO’s
is directed to advise the President, through the Secretary        Global IP Academy (GIPA), we greatly expanded IP rights
of Commerce, and all Federal agencies, on national and            training, capacity building, and technical assistance offerings
international IP policy issues including IP protection in other   to promote improved IP protection and enforcement. The
countries. The USPTO is also authorized by the AIPA to            USPTO also continued to work closely with the White
provide guidance, conduct programs and studies, and               House’s IP Enforcement Coordinator (IPEC) to implement
otherwise interact with foreign IP offices and international      the Administration’s IP enforcement plan, including
intergovernmental organizations on matters involving the          improving the USPTO IP Attaché Program and establishing
protection of IP.                                                 a U.S. Government-wide database of training and capacity
                                                                  building efforts.
As described below, during FY 2011, the USPTO provided
domestic and global leadership on a broad range of IP
issues. The USPTO played a very active role in advising           OBJECTIVE 1: PROVIDE DOMESTIC LEADERSHIP
Congress on critical IP legislation, including patent reform,     ON IP POLICY ISSUES AND DEVELOPMENT OF A
and the Federal Courts on major IP litigation. The USPTO          NATIONAL IP STRATEGY
continued to engage with other Federal agencies in bilateral,
                                                                  Supplying America with a National IP Strategy
                                                                  The USPTO committed in its 2010-2015 Strategic Plan to
                                                                  develop a National IP Strategy for the 21st Century
                                                                  (Strategy) as a central component of the President’s
                                                                  evolving Strategy for American Innovation. To date, the
                                                                  USPTO has formed an internal task force composed of
                                                                  representatives from all business units, and has conducted
                                                                  a series of internal meetings in which the task force has
                                                                  fully developed the outline and fundamental narrative for
                                                                  the Strategy. The Strategy will address: (a) how the IP
                                                                  system promotes innovation, economic growth, and
                                                                  competitiveness; (b) the necessity of building the IP infra-
                                                                  structure; (c) the importance of improving the operation of
  Under Secretary Kappos testifies at a House Subcommittee        the IP system; (d) the need to show global IP leadership;
  Hearing on Intellectual Property, Competition, and the          and (e) using IP to support national technology priorities.
  Internet on Capitol Hill, January 25, 2011.                     The task force is in the process of drafting the Strategy.




www.uspto.gov	                                                                                                               31
Management’s D iscussion and A nalysis




The draft document is slated to be completed and – after          dence by the Supreme Court in the ability of the USPTO to
internal USPTO review – submitted for interagency review          correctly perform its core patent examination functions.
in the fall of 2011.
                                                                  Another Supreme Court matter being handled by OGC, this
Monitoring and Providing Policy Guidance on Key                   time as a party, is Hyatt v. Kappos. The Hyatt case concerns
IP Issues in Cases                                                the circumstances under which new evidence of patent-
                                                                  ability may be introduced by a patent applicant in a civil
The USPTO continues to heavily shape IP law and policy
                                                                  action in federal district court under 35 U.S.C. § 145 for
through domestic litigation, both as a party and as an
                                                                  review of the BPAI decision affirming the rejection of its
amicus curiae. The Agency’s IP litigation responsibilities
                                                                  patent claims by the USPTO. In late 2010, the Federal
fall primarily on the Office of the Solicitor within the Office
                                                                  Circuit issued an en banc decision in Hyatt, holding that
of General Counsel (OGC). The Solicitor’s Office defends,
                                                                  under Section 145, an applicant can introduce new
among other things, the decisions of the Agency’s two
                                                                  evidence, even if that evidence could have been submitted
administrative boards (i.e., the BPAI and TTAB), decisions
                                                                  to the USPTO during its proceedings. At the USPTO’s
of the Director, and the Agency’s rulemaking and policies in
                                                                  request, the Supreme Court granted certiorari to consider:
court. These cases involve a wide variety of issues,
                                                                  (1) Whether the plaintiff in a Section 145 action may
affecting both substantive IP law and Agency practice
                                                                  introduce new evidence that could have been presented to
concerning patent applications and trademark registrations.
                                                                  the Agency in the first instance, and (2) Whether, when
As the BPAI has tripled the number of decisions it has
                                                                  new evidence is introduced under Section 145, the district
issued in recent years, the Solicitor’s Office has seen a
                                                                  court may decide de novo the factual questions to which
dramatic increase in the number of appeals it is litigating in
                                                                  the evidence pertains, without giving deference to the prior
FY 2011. Whereas the Solicitor’s Office typically defended
                                                                  decision of the USPTO.
50-60 BPAI and TTAB decisions annually over the past 10
years, the number of appeals being handled by the Solicitor’s
                                                                  OGC established the Law School Clinic Certification Pilot
Office topped 100 cases at the beginning of the fourth
                                                                  Program in 2008 to give law students an opportunity to
quarter. Larger numbers of appeals are expected for next
                                                                  practice patent and trademark law before the USPTO (e.g.,
year. Despite budget cuts and hiring freezes, the Solicitor’s
                                                                  by drafting applications, filing applications, responding to
Office has not seen any significant decrease in its litigation
                                                                  Agency actions). The Program benefits the IP community by
success.
                                                                  increasing the number of highly-qualified IP attorneys, and
                                                                  encourages participating students to consider a career with
OGC also plays an important role advising the Solicitor
                                                                  the USPTO when they graduate. The Program began with
General of the United States on IP matters before the U.S.
                                                                  six schools and expanded to include 16 schools in FY 2011.
Supreme Court. The Solicitor’s Office aided the Solicitor
General in developing the Government’s amicus position in
                                                                  Providing Domestic Education Outreach and
Microsoft Corp. v. i4i Limited Partnership, which challenged
                                                                  Capacity Building
the presumption of validity accorded patents under 35
U.S.C. § 282. Specifically, Microsoft challenged the strength     The USPTO, through the GIPA in the Office of Policy and
of that presumption – arguing that a low “preponderance”          External Affairs, provides IP educational opportunities to
standard for proving invalidity should be sufficient rather       domestic small and medium-sized enterprises, universi-
than the higher “clear and convincing” standard required          ties, foreign officials, and the public. The GIPA provides
by the U.S. Court of Appeals for the Federal Circuit – when       expertise on administration, protection, and enforcement
evidence raised during litigation was not expressly consid-       in all areas of domestic and international IP. In FY 2011, the
ered by the USPTO during the original examination. A              GIPA conducted more than 120 training programs with
unanimous Supreme Court rejected Microsoft’s argument             more than 5,500 attendees from 138 different countries.
and, in straightforward language, wrote: “We consider             The attendees included officials from foreign IP offices,
whether § 282 requires an invalidity defense to be proved         law enforcement authorities (including prosecutors, police,
by clear and convincing evidence. We hold it does.”               and customs officials), and members of the judiciary.
The decision in i4i represents an important vote of confi-        Domestic opportunities include outreach to Native American




32 	                                                         Performance and accountability Report: Fiscal Year 2011
                                                                               M anagement ’ s D iscussion and A nalysis




tribes, educational programs on IP awareness, and China          Engaging USG Agencies and Congress on
Road Shows providing IP information to small and medium-         Legislation that Improves the IP System
sized enterprises seeking to do business in China.
Additionally, the GIPA partners to develop and deliver           Throughout FY 2011, the USPTO continued its engage-
educational outreach programs with other areas of the            ment with the Congress, other USG agencies, and its
United States Government (USG), in particular the Small          stakeholders to promote effective IP legislation. Patent
Business Administration, bureaus of the DOC including the        reform legislation continued to be the focus of the first
Minority Business Development Agency, and the U.S.               session of the 112th Congress. The AIA, as signed into
Export Assistance Centers of the U.S. Commercial Service.        law (Pub. L. No. 112-29) on September 16, 2011, supports
The GIPA also worked with the Office of the White House          USPTO’s efforts to improve patent quality, reduce the
IPEC to coordinate all USG IP training including hosting a       backlog of patent applications, reduce domestic and global
database of all training and capacity building activities. The   patenting costs for U.S. companies, provide greater
efforts by the USPTO will facilitate the export capabilities     certainty in patent rights, and offer effective alternatives to
of domestic industry and small and medium-sized enter-           costly and complex litigation.
prises, and ensure their competitiveness around the world.
As illustrated in Figures 14, 15, and 16 below, these charts     Director Kappos, Deputy Director Rea, Commissioner for
provide the number of programs, officials, and countries         Patents Stoll, and USPTO staff conducted numerous
trained by the GIPA. These data reflect USPTO’s contribu-        briefings and meetings with hundreds of Members of
tions to the development of strong IP systems, domesti-          Congress, Senators, and congressional staff to discuss the
cally and abroad.                                                intricacies of proposed patent reforms. USPTO staff will
                                                                 work closely with stakeholders on implementation of this
                                                                 important legislation.
 FIGURE 14   	   Educational programs
                                                                 During the year, the USPTO provided policy guidance on
                                                                 various other IP bills, including legislation to crack down on
                                                                 rogue websites that traffic in counterfeit merchandise.

                                                                 In FY 2011, Under Secretary Kappos testified on Capitol Hill
                                                                 on three occasions – including twice before the House
                                                                 Judiciary Committee on “How an Improved U.S. Patent
                                                                 and Trademark Office Can Create Jobs” and on patent
                                                                 reform legislation. The Director also testified before the
                                                                 House Appropriations Committee on USPTO’s FY 2012
                                                                 budget request.

                                                                   FIGURE 16   	   Cumulative NUMBER OF
 FIGURE 15   	 NUMBER OF ATTENDEES TRAINED                        	                  COUNTRIES TRAINED




www.uspto.gov	                                                                                                              33
Management’s D iscussion and A nalysis




The USPTO also increased its engagement with Members
of Congress and their Staff. Senator Mary Landrieu was
the keynote speaker at the Women’s Entrepreneurship
Symposium; Representative Jim Moran was the keynote
speaker at the opening ceremonies of the USPTO Trademark
Expo; and Senator Mark Warner of Virginia and
Congresswoman Sandy Adams of Florida also visited the
USPTO for meetings with the Under Secretary. Twice this
year the USPTO hosted congressional staffers for “A Day
in the Life” of a typical patent and trademark examiner.
The USPTO also hosted several staff from the Senate
Small Business Committee.


                                                                  Senator Mary Landrieu of Louisiana speaks at the USPTO’s
OBJECTIVE 2: PROVIDE LEADERSHIP ON                                Women’s Entrepreneurship Symposium March 11, 2011, in
INTERNATIONAL POLICIES FOR IMPROVING THE                          Alexandria, Virginia.
PROTECTION AND ENFORCEMENT OF IP RIGHTS

Leading efforts at the World Intellectual Property              The International Union for the Protection of New Plant
Organization (WIPO) and other Intergovernmental/                Varieties (UPOV) is celebrating its 50th anniversary this
International Organizations to Improve                          year. To help commemorate this anniversary, the USPTO
International IP Rights Systems                                 and the Department of Agriculture’s Plant Variety Protection
                                                                Office hosted the 45th Technical Working Party on Vegetable
Throughout FY 2011, the USPTO continued to seek                 Crops in Monterey, California, on July 24-29, 2011. The
enhanced cooperation and improved protection for IP multi-      USPTO and UPOV also worked together in providing assis-
laterally in several fora including the WIPO, the World Trade   tance to the African Regional IP Office and its members in
Organization (WTO), and other intergovernmental organiza-       drafting and adopting plant variety protection laws in confor-
tions. The USPTO continued its efforts to improve the           mity with the UPOV Convention. The USPTO and UPOV
WIPO filing and registration systems. In the copyright          also worked with Japan in supporting the Association of
area, the USPTO advanced work on issues relating to the         South East Asian Nations’ countries plant variety testing
protection of broadcasting, the protection of audio-visual      and application examination under the UPOV Convention.
performers, and the access to copyrighted works by
persons with print disabilities. Within the WIPO Standing       Improving Efficiency and Cooperation in the
Committee on Copyright and Related Rights, the USPTO            Global IP System
brokered a deal to end the 11-year stalemate on conclusion
                                                                Throughout FY 2011, the USPTO continued to emphasize
of the WIPO Audiovisual Performers’ Treaty, a treaty effort
                                                                work-sharing among patent offices as a key to efficient
that has been dormant since a failed diplomatic conference
                                                                management of office workloads, reduction of backlogs
in 2000. Separately, the USPTO participated in “four way”
                                                                and pendency, and improvement of the international patent
meetings between a group of Latin American countries,
                                                                system. The USPTO’s primary work sharing vehicle—the
the European Union, African countries, and the U.S. to
                                                                PPH—has proven to be a major success, producing signifi-
forge a common text for an international instrument
                                                                cant efficiency gains in terms of higher allowance rates,
addressing copyright exceptions for the benefit of blind
                                                                fewer office actions per disposal, and substantially lower
persons and the cross-border sharing of special format
                                                                percentages of appeals and continuation applications. The
copies for the blind.
                                                                USPTO has doubled the total number of PPH requests in
                                                                2011 that it has received in the preceding four years
                                                                combined.




34 	                                                       Performance and accountability Report: Fiscal Year 2011
                                                                                M anagement ’ s D iscussion and A nalysis




                                                                   The USPTO, along with its Trademark Trilateral partners,
                                                                   i.e., the JPO, and the Office for the Harmonization of the
                                                                   Internal Market, have been accelerating work on one partic-
                                                                   ular Trilateral Project, known as the “Trilateral ID Project.”
                                                                   The Trademark Trilateral partners have collaborated to
                                                                   compile a list of identifications of goods and services (IDs)
                                                                   that are acceptable in each of their respective offices. The
                                                                   USPTO, with the approval of the Trilateral partners, is taking
                                                                   the lead to invite other national trademark offices to partici-
                                                                   pate in the project. To date, Canada, Philippines, South
                                                                   Korea, Mexico, Singapore, and the Russian Federation
                                                                   have joined the project.

  Under Secretary Kappos,Japan Patent Office Commissioner          The USPTO also worked with WIPO to ensure that the
  Yoshiyaki Iwai, and President of the European Patent Office      Trilateral ID list is incorporated into the Madrid System for
  Benoît Battistelli celebrate further work sharing agree-         the International Registration of Marks to provide appli-
  ments, November 14, 2010, in Alexandria, Virginia.               cants with IDs that will be accepted by certain national
                                                                   offices. Additionally, upon request by the USPTO, WIPO
                                                                   has started to revise the Madrid application forms to better
The USPTO continues to work with its international partners
                                                                   accommodate some U.S. application requirements.
to evolve and improve the PPH and, to this end, began
testing a new approach in July 2011 that enhances flexi-
                                                                   Improving Enforcement and Providing Capacity
bility and expands PPH eligibility. In parallel, the offices are
                                                                   Building and Technical Assistance to Key
working out details of a USPTO proposal for a next-gener-
                                                                   Countries/Regions
ation framework—PPH 2.0—that will replace the existing
network of bilateral arrangements with a more centralized,         The USPTO continued to work closely with other USG
easy-to-use system incorporating the new approach being            agencies to increase the accessibility, efficiency, and effec-
tested, as well as other user-friendly enhancements.               tiveness of civil, border, and criminal enforcement mecha-
                                                                   nisms in global trade, foreign markets, and electronic
As illustrated in Figure 17 below, this chart provides the         commerce, and to encourage foreign trading partners to
number of PPH requests filed with the USPTO. PPH is a              adopt laws against illegal camcording of movies. The
framework in which an application whose claims have been           USPTO also continued to organize capacity-building activi-
determined to be patentable in one country’s patent office         ties for foreign officials on IP enforcement topics, effective
is eligible to go through an accelerated examination in            border enforcement, investigation and prosecution of
another country’s patent office.                                   digital piracy, and combating counterfeit medicines and
                                                                   infringing hard goods. Domestically, the USPTO played a
 FIGURE 17   P
             	 atent Prosecution Highway requests                  key role in assisting small businesses to protect and enforce
                                                                   their IP, and regularly participated in the IP Theft Enforcement
                                                                   Teams training programs organized by the National IPR
                                                                   Coordination Center for Federal, state and local law enforce-
                                                                   ment personnel.




www.uspto.gov	                                                                                                                 35
Management’s D iscussion and A nalysis




The GIPA offers training programs on protection, utilization,             The USPTO also worked closely with the USTR throughout
and enforcement of IP rights including patents, trademarks,               FY 2011 in ongoing IP discussion in the WTO in seeking to
and copyrights (Table 15). It is through the GIPA training                maintain the integrity of the Trade-Related Aspects of IPR
programs that the USPTO is instrumental in achieving its                  (TRIPS) Agreements and defeat attempts to weaken it.
objectives of advancing IP right policies and halting IP theft.           The USPTO also advised the USTR during the WTO
The USPTO is developing survey tools to evaluate the                      accession process of several countries in evaluating IP
effectiveness and impact of these training programs.                      laws, regulations, and practices of countries in the process
These evaluation and survey tools provide methodologi-                    of accession, and advising the USTR as to their TRIPS-
cally rigorous data collection and analyses in place of more              consistency.
subjective, ad hoc, non-standardized anecdotal materials.
The survey questions have been approved by the Office of                  The range of policy advice and expertise provided by the
Management and Budget (OMB). The tools will include                       USPTO included:
pre-program, post-program, and alumni surveys. The use
of the three surveys will allow the USPTO to collect data                 ●●   Legislative and regulatory analysis and drafting;
spanning the life of the GIPA training cycle.
                                                                          ●●   Identification of deficiencies and needed improvements
                                                                               to foreign laws and regulations;
  TABLE 15 Measure: Percentage of foreign officials trained
                                                                          ●●   Identification of potential administrative improvements
  who have initiated or implemented a positive change
                                                                               to existing foreign IP regimes; and
  in the IP systems in their organizations and/or countries
       FISCAL YEAR             TARGET                  ACTUAL
                                                                          ●●   Technical and strategic policy advice in international IP
          2011                 Baseline                    *                   negotiations.
          2012                    *                        *
          2013                    *                        *              Providing Technical Expertise in Negotiation
   * FY 2011 is a baseline year for this new measure. A target will       and Implementation of Bilateral and Multilateral
   be assigned after baseline data has been analyzed, and actuals         Agreements
   reported subsequently in FY 2012.
                                                                          The USPTO continued to provide expert technical advice
                                                                          on the full range of substantive IP protection and enforce-
Providing Policy Advice and Expertise to Other
                                                                          ment issues to the USTR in connection with on-going trade
USG Agencies
                                                                          negotiations. The USPTO played an active role in the
The USPTO continued to provide policy advice and technical                successful conclusion of the Anti-Counterfeiting Trade
expertise on IP administration, protection, and enforce-                  Agreement negotiations, the ongoing Trans-Pacific
ment in several contexts, including in the consideration of               Partnership negotiations, and the implementation and
domestic legislation involving IP and in the formulation and              monitoring for compliance of other bilateral and free trade
negotiation of bilateral and multilateral agreements and                  agreements.
initiatives.
                                                                          Increasing the effectiveness of IP Attachés in
The USPTO worked with the U.S. Trade Representative                       Prioritized Countries/Regions
(USTR), the State Department, the Department of Health
and Human Services and several other agencies, as well as                 The USPTO places a high priority on increasing the effec-
U.S. stakeholders, to finalize a draft framework agreement                tiveness of IPR in prioritized countries/regions. In FY 2011,
in the World Health Organization (WHO) on the sharing of                  the USPTO established an IP Attaché Task Force to explore
influenza samples and related benefits. The framework                     options to improve and expand the Attaché Program. The
agreement was adopted by the General Assembly of the                      task force has developed 19 proposals and is currently
WHO in April 2011.                                                        working to implement many of these proposals. As part of




36 	                                                                  Performance and accountability Report: Fiscal Year 2011
                                                                            M anagement ’ s D iscussion and A nalysis




this work, IP attachés and their country/region teams at
                                                                 TABLE 16 Measure: Percentage of prioritized countries
USPTO headquarters have developed Master Action Plans
that eliminate any inconsistencies and redundancies             that have implemented at least 75% of action steps
between the numerous work plans at USPTO in Alexandria,         in the country-specific action plans toward progress
Virginia and at post, and serve as blueprints that guide the    along following dimensions:
work of the country team and the attaché. Standardized             1.	Institutional improvements of IP office
operating procedures and standardized performance                     administration for advancing IPR
                                                                   2.	Institutional improvements of IP enforcement
measures have also been developed.
                                                                      entities
                                                                   3.	Improvements in IP laws and regulations
Through its attachés, USPTO has met a number of important          4.	Establishment of government-to-government
objectives in host countries. For example, an agreement               cooperative mechanisms
was signed with the Russian Federal Service for IP, Patents       FISCAL YEAR          TARGET            ACTUAL
and Trademarks (Rospatent) in which Rospatent agreed to              2010              50.0%              75.0%
undertake international search and international preliminary         2011              75.0%             100.0%
examination for international applications filed with the            2012              75.0%
USPTO as the receiving office. This will be beneficial for           2013              75.0%
U.S. applicants as it will provide them with an additional      Target Met.
choice of international authorities for searches and prelimi-
nary examinations based on the field of technology of the
invention, as well as the speed and cost of service.
Other accomplishments include the introduction of legisla-
tion to improve Brazil’s criminal IP laws and the govern-
ment of India’s decision to maintain patent protection for
certain computer-related inventions. The implementation
of country-specific action plans in prioritized countries is
shown in Table 16. This reflects the USPTO’s continued
efforts in engaging foreign IP offices, enforcement entities,
and their respective legislative organizations.




www.uspto.gov	                                                                                                       37
Management Goal: Achieve Organizational Excellence


F
    ulfillment of the USPTO’s mission requires strong
    leadership and collaborative management. While the
    three strategic goals focus on our core mission, our
overarching management priorities focus on the shared
responsibility that is a prerequisite for achieving those
goals and objectives, namely, the priorities of sound
resource management, solid workforce planning, corporate
support services, and effective use of IT.



OBJECTIVE 1: IMPROVE IT INFRASTRUCTURE
AND TOOLS

The USPTO continued to make improvements in our IT
enterprise architecture, internal processes, and organiza-
                                                                  The USPTO’s Universal Laptop intranet site.
tional alignment to improve our ability to be more respon-
sive and better manage and deliver quality products at
enhanced service levels. In particular, these initiatives       directs the Federal Chief Information Officer (CIO), OMB,
directly support the USPTO 2010-2015 Strategic Plan to:         and Federal agencies to take specific steps in solving the
                                                                most pressing Federal IT problems. The USPTO is
●●   Improve overall efficiency;                                implementing many of these points while keeping with the
                                                                Administration’s commitments for “Transparency,
●●   Improve availability of and streamline access to USPTO     Participation, and Collaboration.” The USPTO expanded
     information, data, and services with improvements to       access to all patent and trademark data through the
     the USPTO Website;                                         www.data.gov and www.google.com Websites; has a
●●   Serve an increasingly geographically dispersed workforce   “cloud first” policy; is working to align the IT budget with
     with the deployment of the Universal Laptop (UL);          modular development; is reforming and strengthening the
                                                                Agency’s Investment Review Boards; and has created a
●●   Implement faster, more secure information exchange         “TechStat” model for the USPTO.
     by adhering to the Federal Information Security
     Management Act (FISMA);                                    The Office of the Chief Information Officer (OCIO) continues
                                                                to work in improving the visibility of IT costs by instituting
●●   Continue expansion and improvement of e-filing,
                                                                a standardized budget execution system with assistance
     e-processing, and other e-government efforts; and
                                                                from the OCFO. This has allowed for the OCIO to work
●●   Improve the USPTO’s IT infrastructure and tools.           with all of the USPTO business units to create an improved
                                                                long-term IT investment strategy, which is discussed
In October 2010, OMB released the “25 Point                     further in the USPTO Strategic Information Technology
Implementation Plan to Reform Federal Information               Plan. See http://www.uspto.gov/about/offices/cio/ITP_
Technology Management.” This “25 point action plan”             Overview.pdf.




38 	                                                       Performance and accountability Report: Fiscal Year 2011
                                                                            M anagement ’ s D iscussion and A nalysis




In fulfilling responsibilities under 44 U.S.C. § 3504(h), the   OBJECTIVE 2: IMPLEMENT A SUSTAINABLE
USPTO uses a Capital Planning and Investment Control            FUNDING MODEL FOR OPERATIONS
process to prioritize investments and determine funding
levels for subsequent fiscal years. Projects are carefully      The USPTO operating structure is like a business in that it
managed throughout their life cycle, and progress reviews       receives requests for services—applications for patents
are conducted at key milestone dates to compare the             and trademark registrations—and charges fees projected
project’s status to planned benefit, cost, and schedule,        to cover the cost of performing the services it provides.
along with technical efficiency and effectiveness measures.     Unlike a business, however, the USPTO did not until
All major IT system investments are reported in OMB             recently have the flexibility to adjust its fees or spending
Circular A-11, Exhibit 53, Exhibit 300A and 300B, and the       authority if actual application filings and revenues are
USPTO’s IT Investment Portfolio.                                different than those previously estimated. A USPTO
                                                                funding model must span multiple years and be adaptable
The USPTO’s OCIO continued to work diligently with the          to fluctuations. Anything less will not sustain operation of
Office of the Inspector General (OIG) and the DOC to            our nation’s IP system over an extended period of time.
improve the USPTO’s overall IT security program and the
quality of the certification and accreditation.                 The FY 2011 President’s Budget began to move the USPTO
                                                                toward a sustainable funding model by proposing:
The chart (Figure 18) shows trend of total number of Open
Plan of Actions and Milestones (POA&M) for the USPTO            (1)	 Ensuring access to fee collections to support the
33 operational systems at the end of FY 2010 and every               performance objectives;
quarter of FY 2011. Any known security weakness requiring
                                                                (2)	 Instituting an interim increase on certain patent fees as
remediation is tracked using POA&M. Our goal is to bring
                                                                     a financial bridge until the USPTO obtains fee setting
total number of open POA&M as low as possible by reme-
                                                                     authority and develops a new fee structure that will
diating security weaknesses in the systems.
                                                                     provide sufficient financial resources in the long term;

                                                                (3)	 Pursuing the legislative authority to adjust our fee
                                                                     structure by regulation to better align fees with the cost
 FIGURE 18   	TOTAL NUMBER OF OPEN PLAN OF
 	               ACTIONS AND MILESTONES
                                                                     of providing services; and

                                                                (4)	 Creating an operating reserve to manage operations on
                                                                     a multi-year basis.

                                                                Unfortunately, the Full Year Continuing Appropriations Act,
                                                                2011, did not include authority for the USPTO to apply the
                                                                15 percent interim increase on certain patent fees that was
                                                                included in the FY 2011 President’s Budget. Without this
                                                                interim financial bridge, the USPTO did not have sufficient
                                                                funding to implement the Administration’s Priority Goal of
                                                                reducing the patent application backlog and pendency or
                                                                the patent pendency performance targets outlined in the
                                                                FY 2011 President’s Budget.




www.uspto.gov	                                                                                                             39
Management’s D iscussion and A nalysis




                                                                   Effective and Efficient Recruitment plus Employee
                                                                   Satisfaction Equals Retention
                                                                   In line with the President’s call for hiring reform and in an
                                                                   effort to streamline the hiring process, the USPTO imple-
                                                                   mented Monster Hiring Management, and simplified the
                                                                   application process for candidates. As a result, the Agency
                                                                   is able to provide timely notifications to applicants, as well
                                                                   as more quickly generate a list of qualified applicants for
                                                                   the hiring managers. This resulted in increased external
                                                                   and internal customers’ satisfaction with the process and
                                                                   the results.
  Student and Inventor Rebecca Hyndman introduces
  President Barack Obama to the stage at Thomas Jefferson          In support of the USPTO’s goal of optimizing patent quality
  High School for Science and Technology September 16,             and timeliness, a targeted hiring plan was developed to
  2011, in Alexandria, Virginia, before he signed the Leahy-       recruit highly qualified individuals who have had meaningful
  Smith America Invents Act (AIA) into law.                        IP experience. These enhanced recruitment initiatives
                                                                   stem from a marketing strategy aimed at building the
                                                                   USPTO’s brand at the forefront of technological advance-
The Leahy-Smith AIA (Pub. L. No. 112-29) was enacted on            ment and innovation.
September 16, 2011. The AIA authorizes the USPTO to
set and adjust fees by regulation. It also improves the            Effective recruitment and employee satisfaction are
USPTO’s funding model and access to fee collections by             essential to mission achievement. Employee feedback
establishing a fee reserve fund where the Agency will              obtained through the annual Employee Viewpoint Survey
deposit all fees collected in excess of the annual appropria-      (EVS) is critical to understanding our employees’ concerns
tion. These fees will be reserved for USPTO’s use and the          and satisfaction with the agency overall. In an effort to
spending will be authorized in annual appropriations. Fee          increase employee participation, the Office of Human
setting authority, along with maintaining an operating             Resources (OHR) embarked on a strategic campaign to
reserve and ensuring access to fee collections, will begin         market the 2011 EVS to USPTO employees. Multiple
to put the USPTO on solid ground to support performance            communication techniques were employed. As a result of
objectives and adjust for volatility in the economy and/or         these efforts, the USPTO response rate on the 2011 EVS
demand for products and services without putting the               was 65 percent, an increase of 17 percent from the 2010
Agency at risk.                                                    survey. Using the results of the EVS, OHR partnered with
                                                                   business units to help identify and address human capital
OBJECTIVE 3: IMPROVE EMPLOYEE AND                                  opportunities. One program that was identified based on
STAKEHOLDER RELATIONS                                              EVS results, was the newly implemented agency-wide
                                                                   USPTO Creativity and Innovation Challenge. This program
The Office of the Chief Administrative Officer (OCAO) plays        provides employees with an opportunity to submit ideas
a critical role in the Agency’s efforts to meet the manage-        and suggestions for improving all aspects of the Agency.
ment goal to “achieve organizational excellence” by making
significant and continuous improvements to many of our             The USPTO continued to offer training and development
routine programs and services in the areas of human                opportunities through its Leadership Development Program.
capital, telework, security, safety, and environmental             The diverse set of development strategies in the program
awareness.                                                         are designed to efficiently and effectively identify and close
                                                                   competency gaps, as well as strengthen leadership values,
                                                                   knowledge, skills, and abilities. Additionally, an Executive




40 	                                                           Performance and accountability Report: Fiscal Year 2011
                                                                            M anagement ’ s D iscussion and A nalysis




                                                                all employees to foster positive lifestyle change. The Agency
                                                                drafted a comprehensive wellness plan and held a very
                                                                successful wellness fair this past year. The USPTO has set
                                                                a goal to have 75 percent of all employees participating in
                                                                wellness and fitness activities by the year 2017.

                                                                Advancements in Telework

                                                                Telework at the USPTO continues to be a primary corporate
                                                                business strategy and the USPTO continues to be a model
                                                                for telework in the federal government. The USPTO started
                                                                its telework programs more than 13 years ago with 18
                                                                Trademark examining attorneys. Today, more than 6,200
                                                                employees agency-wide are working from home at least
                                                                one day per week. The successful program continues to
  USPTO and union executives sign a telework enhance-           draw industry attention as more than 30 agencies and
  ment agreement July 5, 2011 at the USPTO headquar-            organizations interested in starting or expanding their
  ters in Alexandria, Virginia. (Left to right, standing: Tim   respective telework initiatives contacted the USPTO.
  Callahan, David Dalke, Pam Schwartz, Bob Oberleitner,
  Andrew Lawrence and Meryl Herschkowitz. Left to right,
                                                                The Telework Enhancement Act was signed into law on
  sitting: Harold Ross, Pat Richter, Robert Budens and Howard
                                                                December 9, 2010. The law specifies roles, responsibili-
  Friedman. Danette Campbell is not pictured.)
                                                                ties, and expectations for Federal agencies with regard to
                                                                telework policies, employee eligibility and participation,
                                                                program implementation, and reporting. In addition, the
Education Program was established to address both indi-
                                                                Telework Enhancement Act enables the USPTO to conduct
vidual and common development challenges across the
                                                                a pilot program called the Telework Enhancement Act Pilot
executive ranks. It consists of a 360 degree leadership
                                                                Program (TEAPP). This pilot program will enhance USPTO’s
assessment; executive coaching; online, classroom, and
                                                                current telework programs and will allow employees tele-
mobile training (book abstracts and Web/pod-casts); and
                                                                working full-time to decide, for their convenience, to live
executive development plans. The Executive Education
                                                                farther than 50 miles from the USPTO Headquarters located
Program is designed to maximize the capabilities, contribu-
                                                                in Alexandria, Virginia. Pilot program participants will be
tions, and potential of our entire SES team, build and
                                                                able to change their duty station to their home, or in some
sustain a common leadership vision, and enhance learning
                                                                instances, a location near their home.
across the Agency.

This year a Leadership in Action Program was implemented        The legislation specifies that an oversight committee be
to provide employees an opportunity to acknowledge              established and be comprised of equal representation of
supervisors and mentors who model best practices in lead-       management and labor. The USPTO’s Oversight Committee
ership or mentoring, and exemplify the values set forth in      included representatives from the Patent Office Professional
the USPTO Leadership Vision. The program was designed           Organization, National Treasury Employees Union (NTEU)
based on requests from employees wanting an agency-             245, NTEU 243, the Patent and Trademark organization,
wide method to recognize their supervisors. In FY 2011,         and the OCAO. This committee designed the TEAPP’s
106 supervisors were presented with Leadership in Action        operating procedures. The Memorandum of Understanding
Awards.                                                         for the TEAPP was signed on July 5, 2011. Implementation
                                                                of this pilot program will have a significantly positive impact
The USPTO promotes and fully embraces a wellness                on the effectiveness, productivity, and work-life balance for
culture through a voluntary program of formal and informal      USPTO employees.
activities designed to improve the health and well-being of




www.uspto.gov	                                                                                                             41
Management’s D iscussion and A nalysis




                                                                      Equal Employment Opportunity and Diversity

   T  elework has been shown to save money on
      infrastructure, transportation, and other costs.
   At the U.S. Patent and Trademark Office, for
                                                                      On October 1, 2010, the Agency reorganized its operational
                                                                      structure establishing the new Office of Equal Employment
                                                                      Opportunity and Diversity (OEEOD). The Director of
   instance, millions of dollars have been saved
                                                                      OEEOD reports directly to the Under Secretary and Director
   through the reduction of office space due to
                                                                      and is a member of the Agency’s Executive Committee
   increased use of telework.”
                                                                      and Management Council. The reorganization resulted in a
              —Representative JASON CHAFFETZ (R-UT),                  more strategic, proactive, and organizationally independent
            on May 5, 2010, on the House floor while discussing       functional unit than its predecessor, the Office of Civil
             H.R. 1722, the Telework Improvements Act of 2010         Rights, with the goal of supporting an increasingly diverse
                                                                      workforce. Notably, the USPTO is 26 percent Asian,
                                                                      24 percent African-American, 2 percent Hispanic (Figure 19).
Safe, Secure and Green                                                Also, females comprise 39 percent of the USPTO’s
                                                                      employee population.
The USPTO has created an environment for employees
that is favorable to enhancing their effectiveness by taking          The reorganization paved the way for a number of new
measures to ensure the workplace is modern, safe, secure,             initiatives. Including one designed to increase diverse
attractive, and energy efficient. For example, with the full-         interest in the Agency’s senior-most positions. In support
scale issuance of new identification cards, the USPTO                 of this initiative, OEEOD hosted a seminar designed to
made significant progress in implementing Homeland                    expand the pool of qualified SES applicants. The program
Security Presidential Directive 12, the government-wide               consisted of two-parts: an overview about the SES and the
mandate to establish a common identification standard for             application process; and executive-led roundtable discus-
all Federal employees and contractors. Approximately                  sions about SES candidacy.
2,000 new cards have been issued as of September 30,
2011.

To further employee awareness during emergency situa-
tions, the Agency’s emergency preparedness program was
expanded to include computer-based training to 500-plus
Occupant Emergency Plan team members. Additionally,
the USPTO’s Continuity of Operations Plan (COOP) was
updated and valuable COOP-related tabletop exercises
were held with Business Unit COOP managers, Emergency
Response Group personnel, and Reconstitution Team
members in June 2011.

The USPTO continues to develop energy and environ-
mental programs to meet Federal mandates and to educate
employees on the benefits of sustainability. To that end,
the Green at the USPTO intranet Website was redevel-
oped to focus on new sustainability initiatives; the third
annual “Green Fair” was hosted in April 2011; a commuter
survey was conducted, which launched a ridesharing
Website; and recycling policies were expanded to include
many more options in single-stream recycling beyond glass               The Green at the USPTO intranet site.
and cans.




42 	                                                              Performance and accountability Report: Fiscal Year 2011
                                                                               M anagement ’ s D iscussion and A nalysis




OEEOD also piloted a New Examiner Mentoring Program.
The program’s goal is to help new examiners acclimate to
the Agency and improve retention past the initial proba-
tionary period.

OEEOD actively supports a network of 11 new affinity
groups. This support involves conducting quarterly
meetings with the leaders of the affinity groups to discuss
joint projects, delivering a leadership training retreat for the
affinity group leaders, hosting an annual International Food
Sample Festival that allowed the affinity groups to showcase
diversity through food. Comprising the 11 affinity groups
are the:

●●   American and Muslim and Arabic Cultural Association
●●   Asian Pacific American Network
●●   Blacks in Government
                                                                   assistance with application-specific issues related to patent
●●   Caribbean Intellectual Property Association                   prosecution advancement. This program serves as a means
                                                                   for maintaining the lines of communication between practi-
●●   Intellectual Property Society of Iranian Americans
                                                                   tioners and examiners. The Patent Ombudsman Program
●●   Lambda PTO                                                    has resulted in improved, high-quality customer service by
                                                                   advancing the status of patent applications while simultane-
●●   National Society of Black Engineers Alumni
                                                                   ously demonstrating the Agency’s commitment to achieving
     Extension Chapter
                                                                   its strategic goals by improving patent quality and timeli-
●●   Responsibility                                                ness, promoting confidence in the patent examination
                                                                   process, and improving relations with stakeholders, all in an
●●   Society of Hispanic Professional Engineers
                                                                   effort to ultimately spur innovation and economic growth.
●●   Society of Ethiopian American Engineers and Scientists
                                                                   The USPTO continues to support the independent inventor
●●   Women in Science and Engineering.
                                                                   community and enhanced its efforts with the newly created
                                                                   Office of Innovation Development (OID) within the Patent
In addition to these new initiatives, the Agency hosted its
                                                                   organization. The OID serves a key role in promoting inno-
annual Community Day event, a major celebration of the
                                                                   vation and technology creation in the United States. The
Agency’s diversity. The Agency also held observances for
                                                                   OID oversees programs that foster and support innovation
National Hispanic Heritage Month, National Disability
                                                                   in the independent inventor communities, universities, and
Employment Awareness Month, Black History Month,
                                                                   non-profits. The OID also works closely with other officials
Asian Pacific American Heritage Month, Caribbean Heritage
                                                                   and agencies throughout the government in support of the
Month, and Lesbian, Gay, Bisexual, and Transgender Pride
                                                                   Administration’s efforts to promote small business, entre-
Month.
                                                                   preneurship and job creation. The OID designs and imple-
                                                                   ments outreach programs to a wide range of groups including
Providing Information and Feedback Channels for
                                                                   independent inventors, women, small business concerns,
Employees and the Public
                                                                   minorities, and other underserved communities. As part of
Implementation of the Patent Ombudsman Program was a               this effort, the OID held a Women’s Entrepreneurship
direct response to the public’s request for a dedicated            Symposium and a California Regional Conference.
resource to provide patent applicants, attorneys, and agents




www.uspto.gov	                                                                                                              43
Management’s D iscussion and A nalysis




The USPTO also participates in outreach initiatives with     acts as an information conduit for independent inventors
inventor organizations throughout the United States.         through our Website and outreach events. There are 13
These non-profit inventor organizations assist inventors     universities currently offering IP law clinics on IP rights
with innovations and the desire to start a business based    education aimed at independent inventors and small busi-
on those inventions.                                         nesses. The IP law clinics will also provide basic IP
                                                             education. A first pilot program was launched in June of
Online public chats are held bi-monthly. These chats         2010 in Minnesota by an association of law offices and
provide ongoing education opportunities and allow the        private companies to assist individuals and small busi-
public to ask questions in a live chat room and receive an   nesses with certain financial needs to protect their valuable
answer.                                                      inventions and innovations. This program, in conjunction
                                                             with the OID, will offer education and guidance to new and
The USPTO encouraged the establishment of pro bono IP        financially needy inventors. Independent inventors can
services through universities and law associations. In all   work directly with experts to gain assistance in filing a new
cases, the USPTO will be instrumental in helping in the      application or improving their existing applications.
development of concepts and finding partners. The USPTO




44 	                                                    Performance and accountability Report: Fiscal Year 2011
Management Challenges
and What’s Ahead

T
      he distance between innovation and the marketplace is shrinking. Said another
      way, innovation is moving more quickly from creation to manufacture and distri-
      bution. IP is a necessary instrument for innovators and businesses to capture
value as ideas move to the marketplace. In performing its mission—quality examina-
tion and disposition of patents and trademarks—the USPTO faces significant
challenges.

The America Invents Act (AIA) will promote innovation and job creation by improving
patent quality, clarifying patent rights, reducing the application backlog, and offering
effective alternatives to costly patent litigation. Implementation of the Act’s provi-
sions presents numerous challenges and the USPTO looks forward to actively
engaging stakeholders to ensure that implementation is accomplished in a proper and
timely manner.



Build and Focus on Improvements

The Patent and Trademark organizations will build on their accomplishments and work
toward meeting the objectives of the USPTO 2010-2015 Strategic Plan while working
with customers to ensure that the objectives remain aligned with their needs.

The Patent organization’s continuing challenges are to reduce patent pendency and
the backlog of patent applications, optimize examination capacity, improve the quality
of patent processing, provide applicants with greater control over examination timing,
and increase efficiency as a result of collaboration in areas including automation,
global patent classification and work sharing. As the Patent organization forges ahead
in meeting these challenges by continuing to recruit, develop, train, and retain a highly
skilled diverse workforce, it will yield high efficiency gains to achieve its goals.

The Trademark organization’s biggest challenge is to maintain its quality and pendency
achievements, given the uncertainty of trademark filings, future revenues, and costs.
The Trademark organization strives to support a high quality operation and maintain
consistent first-action pendency of 2.5 to 3.5 months, even in the face of monthly
fluctuations in filings, the unpredictability of projecting new filings in the current
economy, and the need to secure congressional approval for certain aspects of
funding and fee changes.

The Trademark organization must strike a proper balance between forecasting filing
levels, existing inventories, and managing an appropriately sized staff to ensure suffi-
cient resources are available to maintain pendency goals on a consistent basis.
Efficiency gains have been realized through process improvement and cost reduction,
along with greater use of IT.




www.uspto.gov	                                                                              45
Management’s D iscussion and A nalysis




                                                                    retaining, and training examiners and improving our opera-
                                                                    tions to be more effective and efficient. As we improve
                                                                    our Agency, we must continue to focus on building rela-
                                                                    tionships with our workforce, applicants, owners of patents
                                                                    and trademarks, Congress, and the public.



                                                                    Continue to Move to an Electronic
                                                                    Workplace

                                                                    The Patent and Trademark organizations have made signifi-
                                                                    cant progress to eliminate paper documents and manual
                                                                    transactions from their processes. Electronic communica-
                                                                    tions are improving and encouraging more applicants to do
  Team members from the OCIO hold an online chat about              business electronically by using Web-based systems.
  USPTO IT systems in Alexandria, Virginia, February 8, 2011.       The Patent and Trademark organizations now rely heavily
                                                                    on data submitted or captured electronically to support
                                                                    examination, publish documents, and issue registrations.
                                                                    Because of the high degree of reliance on electronic opera-
Although first and final quality compliance rates are very
                                                                    tions, both organizations are dependent on the manage-
high and consistently exceed 96 percent, the Trademark
                                                                    ment and support of internal IT systems and services to
organization continues efforts to improve quality in a cost-
                                                                    manage their operations and provide services to the
effective manner. To sustain these high performance levels,
                                                                    public.
the Trademark organization is emphasizing comprehensive
excellence in office actions, which expands upon the
existing first and final action standards for correct decision-     The Patent and Trademark organizations, along with the
making. While a comprehensive and excellent office action           support of the OCIO, are working to address the challenge
certainly reflects correct decision-making, it also includes        of completing an electronic docket and file management
excellent evidentiary support and is very well-written.             system for each organization. These systems will link all
The success of this initiative depends on novel and focused         operations and processing that support core examination
training, best practice benchmarking and sharing, new               and post-issuance activities. A fully electronic workflow
quality incentives, sustained communication, and close              will allow both organizations to better manage the fluctua-
collaboration with key stakeholders.                                tions in filings and be more efficient, as well as timely, in
                                                                    processing and responding to filings.


Manage and Execute to Goals                                         Another major challenge is to integrate and modernize
                                                                    legacy systems, especially those now used for Patent
The USPTO’s promotion, protection, and enforcement of               operations. The legacy systems were developed over the
IPR have never been more important to our nation’s                  past 30+ years, and most have their own user interface, do
economic prosperity. The USPTO must harness the                     not allow for easy movement of data to other systems, and
expertise and skills within the Agency and leverage new             were built on now obsolete technology. The goal of our
technology to achieve its goals. The actions we have taken          Next Generation IT systems is to provide a common user
to create a unified system to deliver timely, high-quality          interface and full data integration using modern IT tools,
patents and trademarks must be carefully managed.                   replacing the current antiquated and decaying infrastruc-
The Agency continues to face the external pressures of              ture. This increased reliance on electronic systems presents
increasing application volume and rapid technology                  other challenges to the USPTO in the event of an unplanned
changes. We will meet these challenges by continuing to             outage or disruption in processing. To address this need,
update our antiquated IT infrastructure as well as hiring,          the USPTO has embarked on an aggressive, phased




46 	                                                            Performance and accountability Report: Fiscal Year 2011
                                                                                 M anagement ’ s D iscussion and A nalysis




business continuity/disaster recovery program. The USPTO             provides the requirements-based authority to spend all
has established a remote data bunker which contains                  fees collected on operations and work received, spans
on-line backups of mission critical data.                            multiple years, and is adaptable to fluctuations inherent in
                                                                     estimates. Another important aspect of a sustainable
                                                                     funding model is the authority to set and adjust fees by
Strengthen Global IPR Systems                                        regulation, so that we can properly establish and align fees
                                                                     in a timely, fair, and consistent manner without the inherent
The USPTO faces numerous challenges in seeking to                    time impediments of the legislative process. For almost all
strengthen global IP systems, including a lack of political          of FY 2011, the USPTO did not have the ability to proac-
will in some countries to make the changes needed to                 tively adjust over 80 percent of its fee collections in
improve their IP systems. In many countries, IP protection           response to changes in demand for services, processing
and enforcement compete with other national priorities for           costs, or other factors. However, this fee-setting authority
attention, and some governments lack coordination in the             is contained in the AIA.
development and implementation of IP policy. Thus, despite
sustained efforts, only limited progress is possible in some         Over the next year, the USPTO will be engaging the public
countries. Progress on substantive IP issues in multilateral         advisory committees, stakeholders, and the public in refor-
institutions may also be blocked by a relatively small group         mulating the fee structure to provide sufficient financial
of countries that oppose strengthening of global IP systems.         resources to facilitate the effective administration of the
Funding insecurity caused by the global recession is also a          United States IP system.
major challenge for many IP institutions around the world.
The USPTO also continues to face funding uncertainty for
many programs that support its policy mission, including             Recruit and Hire, Develop and Retain
the GIPA programs and the IP Attaché Program.                        the Right Skills and Talent

The USPTO will continue to promote the strengthening of              The USPTO’s mission requires a highly-skilled, well-
IP systems through its policy advocacy and leadership, and           educated, and diverse workforce. The Agency faces the
training and education efforts. In close cooperation with            ongoing need to recruit, hire, develop, and retain sufficient
other agencies of the USG, the USPTO will continue to                numbers of qualified professionals in a highly competitive
promote the adequate and effective protection and enforce-           environment.
ment of IPR overseas. The USPTO will continue its efforts
to streamline and improve global systems for the registra-
tion and grant of IP rights. To expand the USPTO’s work
sharing initiatives, the USPTO will continue to promote the
use of search and examination results among IP offices
around the world.



USPTO FUNDING MODEL

The current financial model constrains the USPTO’s ability
to foster the innovation that is a crucial driver of job creation,
economic recovery, and prosperity. Today, the funding
model does not ensure that the USPTO always has the
resources necessary – year after year – to implement multi-
                                                                       Attendees of an event at the USPTO’s GIPA listen to the
year plans for critical work such as reducing the patent               speaker through language translation headphones.
application backlog and improving IT tools. The USPTO is
challenged to establish a sustainable funding model that




www.uspto.gov	                                                                                                                47
Management’s D iscussion and A nalysis




In order to retain our highly-skilled employees, the USPTO        Create IT Enterprise Architecture That
strives to be recognized as an employer of choice.                Supports Mission-Critical Business and
Our retention strategies must continually be updated to           Programmatic Requirements
reflect industry best practices. Attrition data will be tracked
and survey results monitored in an effort to discern the          In FY 2012, the USPTO will continue to take steps to
effectiveness of our retention initiatives and to identify        improve its ability to be more responsive, better manage,
developing trends. The challenge is to recruit, hire, develop,    and deliver quality products at enhanced service levels.
and retain a highly-skilled, well-educated, and diverse           This will be accomplished by reducing the complexity of
workforce from a specialized and competitive technological        systems, establishing and enforcing more standards, and
and professional IP environment.                                  practicing continual process improvement.

                                                                  In the current constrained fiscal environment, the challenge
Communication and Human Capital                                   facing the OCIO will be in continuing efforts to:
Management
                                                                  ●●   Work on strengthening our IT Infrastructure and moving
Recognizing the importance of building an active and                   to a “cloud” computing environment;
engaged communication culture, the USPTO continues to
                                                                  ●●   Expand IT infrastructure to include faster network
identify new and innovative ways to communicate and
                                                                       connections to/from USPTO campus, a UL, Voice over
collaborate with employees and stakeholders. These
                                                                       Internet Protocol telephones, and additional collabora-
communication avenues are a vital component of the
                                                                       tion tools in support of a nationwide workforce;
Agency’s strategic goal of transparency, accountability, and
interactivity. They allow the Agency to share human capital       ●●   Plan, implement, and maintain IT systems that support
programs and information, solicit employee feedback and                and improve business processes in the Patent and
recommendations, and gather information on current                     Trademark organizations;
human capital activities, as well as new ones of interest.
                                                                  ●●   Continue development of a PE2E System and a
                                                                       Trademark Next Generation System;
Because of the aforementioned competitiveness of the IP
labor pool, the recruitment and retention of highly-qualified
employees are critical to the Agency’s ability to meet
mission-critical requirements. As such, the Agency
continues to focus its efforts on improvements and worklife
enhancements which increase employee satisfaction at
the USPTO. The results of the annual EVS are used exten-
sively to direct these efforts and resources. The 2011-2015
Strategic Human Capital Plan (SHCP), which is aligned
with the USPTO 2010-2015 Strategic Plan, provides
guidance, structure, and specific human capital goals and
objectives to address Agency needs.




                                                                       Chief Administrative Officer Patricia Richter and Under
                                                                       Secretary David Kappos support the USPTO’s Creativity
                                                                       Challenge, which asked employees for ways they would
                                                                       improve Agency processes.




48 	                                                         Performance and accountability Report: Fiscal Year 2011
                                                                               M anagement ’ s D iscussion and A nalysis




●●   Work to develop and fully implement an IT Human
     Capital Strategic Plan, in alignment with the USPTO
     2010-2015 Strategic Plan;
●●   Assist OMB in designing and developing a federal job
     series for specialized IT acquisition professionals.
     USPTO’s 2011-2015 SHCP will set the foundation to
     hire, develop, and retain a highly competent IT Workforce
     now and in the future;
●●   Improve the security, availability, and quality of IT
     systems and services while reducing their complexity
     and cost; support business area needs to accommodate
     the hiring and equipping of new employees; provide
     internal on-line tools (regarding consistency and quality
                                                                      The USPTO holds regular online chats to answer customer
     of searching and examination); provide electronic file
                                                                      questions and help with USPTO systems and processes.
     management and workflow; develop interactive on-line
     electronic filing capabilities and upgrade e-tools to the
     public; help move the USPTO to full electronic records      ●●   Continue to add datasets to the USG’s www.data.gov
     and eliminate the need to collect and store paper                and www.google.com Website, providing the public
     records; and continue to improve overall data quality;           with no-cost access to bulk text and image data
●●   Work with the OCFO to plan, implement and support                collections of current and retrospective patent and
     Fee Processing Next Generation (FPNG) system that                trademark data.
     integrates with the IT systems for the Patent and
     Trademark organizations; and




www.uspto.gov	                                                                                                              49
Accompanying Information
on USPTO Performance

         Performance Audits and Evaluations


         T
               he OIG completed two evaluations during FY 2011. The first report, Stronger
               Management Controls Are Needed Over USPTO’s Projection of Patent Fee
               Collections (December 2010), focused on effectiveness of the process for
         projecting patent revenue, which is necessary for meeting the mission and the
         strategic goals for the Patent organization. The OIG made a series of recommenda-
         tions for stronger management controls that would enhance transparency and
         accountability in the projection of patent fee collections. The USPTO concurred with
         the OIG’s audit findings and began to address all recommendations. The USPTO has
         delivered standard procedures manuals for fee collection forecasts including portion
         of the patent production model that documents roles, responsibilities, and underlying
         components used with fee collection forecasts. This evaluation was performed in
         support of the Management Goal: Achieve Organizational Excellence.

         The second report, USPTO Patent Quality Assurance Process (November 2010),
         evaluated the effectiveness of the USPTO’s patent quality assurance program in
         ensuring that established quality standards are met, and whether the USPTO’s patent
         quality assurance process complies with applicable Federal, bureau, and other laws,
         regulations, policies, procedures, and guidelines. The OIG identified internal control
         weaknesses and recommended steps to improve the internal controls related to the
         quality assurance program. The USPTO generally concurred with the OIG’s audit
         findings and began to address the recommendations. The USPTO will develop
         standard procedures for handling of cases with errors reported in the Office of Patent
         Quality Assurance (OPQA), and will define the role of OPQA in the final adjudication
         of agreed-upon errors within the Technology Centers. This evaluation was performed
         in support of the Strategic Goal I: Improve Patent Quality and Timeliness.




50 	                          Performance and accountability Report: Fiscal Year 2011
                                                                              M anagement ’ s D iscussion and A nalysis




Performance Data Verification and                                 DATA ACCURACY — The USPTO conducts verification and
Validation                                                        validation of performance measures periodically to ensure
                                                                  quality, reliability, and credibility. At the beginning of each
In accordance with the Government Performance and                 fiscal year, and at various points throughout the reporting
Results Act requirements, the USPTO is committed to               or measurement period, sampling techniques and sample
making certain the performance information it reports is          counts are reviewed and adjusted to ensure data are statis-
complete, accurate, and consistent. The USPTO developed           tically reliable for making inferences about the population
a strategy to validate and verify the quality, reliability, and   as a whole. Data analyses are also conducted to assist the
credibility of USPTO performance results and has taken the        business units in interpreting program data, such as the
following actions:                                                identification of statistically significant trends and under-
                                                                  lying factors that may be impacting a specific performance
ACCOUNTABILITY — Responsibility for providing perfor-             indicator. For examination quality measures, the review
mance data lies with managers of USPTO programs who               programs themselves are assessed in terms of reviewer
are held accountable for making certain that procedures           variability, data entry errors, and various potential biases.
are in place to ensure the accuracy of data and the perfor-
mance measurement sources are complete and reliable.
                                                                  Commissioner’s Performance for FY 2011
QUALITY CONTROL — Automated systems and databases
that collect, track, and store performance indicators are         The AIPA, Title VI, Subtitle G, the Patent and Trademark
monitored and maintained by USPTO program managers,               Office Efficiency Act, requires that an annual performance
with systems support provided by the OCIO. Each system,           agreement be established between the Commissioner for
such as the Patent Application Location and Monitoring or         Patents and the Secretary of Commerce, and the
Trademark Reporting And Application Monitoring, incorpo-          Commissioner for Trademarks and the Secretary of
rates internal program edits to control the accuracy of           Commerce. The Commissioners for Patents and Trademarks
supporting data. The edits typically evaluate data for reason-    have FY 2011 performance agreements with the Secretary
ableness, consistency, and accuracy. Crosschecks between          of Commerce, which outline the measurable organizational
other internal automated systems also provide assurances          goals and objectives for which they are responsible.
of data reasonableness and consistency. In addition to            They may be awarded a bonus, based upon an evaluation
internal monitoring of each system, experts outside of the        of their performance as defined in the agreement, of up to
business units routinely monitor the data-collection meth-        50 percent of their base salary. The results achieved in
odology. The OCFO is responsible for monitoring the               FY 2011 are documented in this report. FY 2011 bonus
Agency’s performance, providing direction and support on          information is currently not available. For FY 2010, the
data collection methodology and analysis, ensuring that           Commissioner for Patents was awarded a bonus of 20.8
data quality checks are in place, and reporting performance       percent of base salary and the Commissioner for Trademarks
management data.                                                  a bonus of 13.9 percent of base salary.




www.uspto.gov	                                                                                                               51
Management Assurances and
Compliance with Laws and Regulations

          T   his section provides information on the USPTO’s compliance with the following
          legislative mandates:

          ●●   Federal Managers’ Financial Integrity Act
          ●●   Federal Financial Management Improvement Act
          ●●   Federal Information Security Management Act
          ●●   Agency’s Financial Management Systems Strategy
          ●●   Inspector General (IG) Act Amendments
          ●●   OMB Financial Management Indicators
          ●●   Prompt Payment Act
          ●●   Civil Monetary Penalty Act
          ●●   Debt Collection Improvement Act
          ●●   Biennial Review of Fees



          Management Assurances

          Federal Managers’ Financial Integrity Act (FMFIA)

          The FMFIA requires Federal agencies to provide an annual statement of assurance
          regarding management controls and financial systems. The USPTO management is
          responsible for establishing and maintaining effective internal control and financial
          management systems that meet the objectives of the FMFIA. The objectives of internal
          control, as defined by the Government Accountability Office (GAO), are to ensure:

          ●●   Effectiveness and efficiency of operations;
          ●●   Reliability of financial reporting; and
          ●●   Compliance with laws and regulations.

          The statement of assurance that follows is based on the wide variety of evaluations,
          control assessments, internal analyses, reconciliations, reports, and other information,
          including the DOC OIG audits, and the independent public accountants’ opinion on the
          USPTO’s financial statements and their reports on internal control and compliance with
          laws and regulations. In addition, USPTO is not identified on the GAO’s High Risk List
          related to controls governing various areas.




52 	                              Performance and accountability Report: Fiscal Year 2011
                                                                           M anagement ’ s D iscussion and A nalysis




Federal Financial Management



                                                                 O
Improvement Act (FFMIA)                                                    n the basis of the USPTO’s comprehensive
                                                                           internal control program during FY 2011, the
The FFMIA requires Federal agencies to report on agency
                                                                           USPTO can provide reasonable assurance
substantial compliance with Federal financial management
                                                                 that its internal control over the effectiveness and
system requirements, Federal accounting standards, and
                                                                 efficiency of operations and compliance with
the U.S. Standard General Ledger at the transaction level.
In accordance with OMB Circular A-127 (revised), substan-        applicable laws and regulations as of September 30,
tial compliance is achieved when an agency’s financial           2011, was operating effectively. Accordingly, I am
management systems routinely provide reliable and timely         pleased to certify with reasonable assurance that our
financial information for managing day-to-day operations,        Agency’s systems of internal control, taken as a
as well as to produce reliable financial statements, maintain    whole, comply with Section 2 of the Federal Managers’
effective internal control, and comply with legal and regula-    Financial Integrity Act of 1982. Our Agency also is in
tory requirements. The USPTO complied substantially with         substantial compliance with applicable federal
the FFMIA for FY 2011.                                           accounting standards and the U.S. Standard General
                                                                 Ledger at the transaction level and with Federal

Other Compliance with                                            financial system requirements. Accordingly, our
                                                                 Agency fully complies with Section 4 of the Federal
Laws and Regulations                                             Managers’ Financial Integrity Act of 1982, with no
                                                                 material non-conformances.
Federal Information Security Management Act
                                                                 In addition, the USPTO conducted its assessment of
The USPTO continues to stay vigilant in reviewing administra-    the effectiveness of our Agency’s internal control over
tive controls over information systems and is always seeking     financial reporting, which includes safeguarding of
methods of improving our security program. During FY 2011,       assets and compliance with applicable laws and regu-
the USPTO continued its dedicated efforts in support of          lations, in accordance with OMB Circular A-123,
compliance with FISMA standards and improvement of our           Management’s Responsibility for Internal Control.
security program. The USPTO IT Security Program includes         Based on the results of this evaluation, the USPTO
a strategy for continuous monitoring, which conducts creden-     provides reasonable assurance that its internal control
tialed compliance and vulnerability scans on servers, network    over financial reporting as of June 30, 2011 was
devices, database, and Web-application on a quarterly basis.     operating effectively and no material weaknesses
The analysis is being performed to ensure that operating         were found in the design or operation of the internal
systems have been configured in accordance with their
                                                                 control over financial reporting. In addition, no material
security baseline and appropriate software patch levels.
                                                                 weaknesses related to internal control over financial
Additionally, the IT Security program has integrated artifacts
                                                                 reporting were identified between July 1, 2011 and
to support Security Impact Analysis within the systems devel-
opment lifecycle that allow assessment of testing require-       September 30, 2011.
ments for systems undergoing new developments,
enhancements, or maintenance. This proactive approach to
security within the development process has successfully
assessed changes and enabled security compliance for
systems as they are being developed or updated.                  David J. Kappos
                                                                 Under Secretary of Commerce for Intellectual Property and
As a result, the Chief Information Security Officer and the
OCIO staff working together made a concerted effort to           Director of the United States Patent and Trademark Office
meet the new compliance requirements of FISMA, while             November 4, 2011
also meeting the reporting requirements to OMB.



www.uspto.gov	                                                                                                               53
Management’s D iscussion and A nalysis




These endeavors were a complete success. All USPTO                 FPNG replaces the previous initiative to modernize RAM,
systems (35 government and contractor systems) achieved            the USPTO’s legacy fee collection system. FPNG will focus
a 100 percent FISMA compliance reporting level prior to the        on retiring legacy RAM and look into using COTS, GOTS,
end of FY 2011. There were no deficiencies identified that         and open source code, using custom code as a last resort.
are considered to be the result of any material weaknesses         Developing and implementing FPNG supports USPTO’s
in internal control. As a result of the work accomplished, the     Strategic Priority, “Improve IT Infrastructure and Tools”,
USPTO was able to continue with continuous monitoring              and will replace legacy RAM with modern 21st Century
and provide an accurate summary of information consistent          technology that has more automated internal controls,
with OMB reporting requirements for year-end reporting.            electronic commerce capabilities, and will be able to meet
                                                                   the Patent and Trademark fee collection needs of the
The Inspector General’s Statement of Management                    future. As the USPTO progresses with its Patent and
Challenges for the DOC (in the Other Accompanying                  Trademark IT strategies (PE2E and Trademarks Next
Information section of this report) identifies IT security as a    Generation), the fee processing system also needs to
cause for concern Department-wide, to include at the               progress to the next generation. The lack of modern tech-
USPTO. While the OIG continues to report IT security as a          nology in legacy RAM hinders the USPTO from taking full
Commerce-wide concern, USPTO management has                        advantage of the potential benefits from PE2E and
concluded that IT security issues within the Agency have           Trademarks Next Generation initiatives.
been sufficiently resolved beginning in FY 2009 to remove
the material weakness.
                                                                   Inspector General Act Amendments
The USPTO continues to coordinate closely with the OIG
throughout the year, as well as review annual assessments          The Inspector General Act, as amended, requires semi-
with the OIG, to gain additional insight and ensure compli-        annual reporting on IG audits and related activities, as well
ance with requirements.                                            as any requisite agency follow-up. The report is required
                                                                   to provide information on the overall progress on audit
                                                                   follow-up and internal management controls, statistics on
Agency’s Financial Management                                      audit reports with disallowed costs, and statistics on audit
Systems Strategy                                                   reports with funds put to better use. The USPTO did not
                                                                   have audit reports with disallowed costs or funds put to
The USPTO’s Consolidated Financial System (CFS) provides           better use in FY 2011.
support for financial management, fee collections, procure-
ment, and travel management functions to the USPTO. CFS            The USPTO’s follow-up actions on audit findings and recom-
leverages several Commercial-off-the-shelf (COTS)/                 mendations are essential to improving the effectiveness and
Government-off-the-shelf (GOTS) products, including a core         efficiency of our programs and operations. As of September
financial and acquisition system (Momentum Financials), an         30, 2011, management had resolved the one recommenda-
eTravel system (FedTraveler), a budget execution and               tion outstanding from a report issued in FY 2009 (ATL-9999-
compensation projection system (Corporate Planning Tool            9-3418: “International Intellectual Property Institute (IIPI),
using the Cognos Planning tool), a cost accounting system          DC, Audit of MOU No. 2006-069-039”).
(Activity Based Information System built using the Profitability
and Cost Management tool), and a data warehouse                    Two new audit reports were issued during FY 2011 (OIG-11-
(Enterprise Data Warehouse accessed using the Business             014-A: “Stronger Management Controls Are Needed Over
Objects tool). Additionally, CFS includes an internally            USPTO’s Projection of Patent Fee Collections” and OIG-11-
developed fee collection system (Revenue Accounting and            033-A: “Patent End-to-End Planning and Oversight Need to
Management (RAM)), an imaging system (Office of Finance            Be Strengthened to Reduce Development Risk”). For details
Imaging System built using the Documentum tool), and an            on these audits, refer to page 50. Three recommendations
internally developed application to automate the transit           were outstanding as of September 30, 2011.
subsidy program (Transit Subsidy System).




54 	                                                          Performance and accountability Report: Fiscal Year 2011
                                                                                           M anagement ’ s D iscussion and A nalysis




                                        Status of IG Act Amendment Audit Recommendations
                                                       as of September 30, 2011
 Report for                                                                                                                              Completion
               Status                     Recommendation                                              Action Plan
 Fiscal Year                                                                                                                               Date
  FY 2009      Closed   IIPI should ensure that independent personnel                The USPTO will ensure expenditures received         March 2011
                        are documenting the review of bank and other                 from IIPI have proper documentation, are
                        reconciliations.                                             certified by the Office of Intellectual Property,
                                                                                     Policy, and Enforcement that services or
                                                                                     goods were received, and are submitted to
                                                                                     the Office of Finance for payment.
  FY 2011      Closed   The Chief Financial Officer (CFO) should establish           The USPTO has developed a manual for fee            March 2011
                        and implement written policies and procedures for            collection forecasts, and has documented
                        developing fee collection forecasts.                         roles, responsibilities, and underlying compo-
                                                                                     nents used with fee collection forecasts.
  FY 2011      Closed   The CFO should report annually on the variances              The USPTO has reported variances, trends,           March 2011
                        between projected and actual specific patent                 and causes included as appendixes one and
                        fee collections, including the potential causes for          two in the FY 2012 President’s Budget.
                        significant variances and possible trends to consider.
  FY 2011      Closed   The Commissioner for Patents should establish and            The USPTO has developed standard proce-             August 2011
                        implement written policies and procedures for the            dures and definitions for the patent produc-
                        patent production model.                                     tion model development portions of the fee
                                                                                     forecasting process documentation manual.
  FY 2011      Open     Before development starts on the next (second)               The report was issued on September 29,                 To be
                        release of PE2E, the USPTO Director should direct the        2011. The action plan will be developed in          determined
                        appropriate USPTO officials to improve PE2E planning         the first quarter of FY 2012.
                        by developing:
                        a)	 A description and schedule of releases based on
                            prioritized high-level requirements for the entire
                            project, and
                        b)	 High-level designs for the service architecture for
                            the entire project.
  FY 2011      Open     The USPTO Director should direct the appropriate             The report was issued on September 29,                 To be
                        USPTO officials to update the current acquisition plan       2011. The action plan will be developed in          determined
                        before seeking contractor support for future PE2E            the first quarter of FY 2012.
                        releases. The plan should describe:
                        a)	 The strategy for acquiring contracting resources
                            that includes the overall acquisition approach, the
                            process for acquiring, and how it will motivate
                            contractor performance, and
                        b)	 How USPTO will manage risks to avoid
                            development delays, overcome limited resources
                            for soliciting and administering multiple contractors,
                            and successfully manage multiple contractors.
  FY 2011      Open     The USPTO Director should direct the appropriate             Report was issued on September 29, 2011.               To be
                        USPTO officials to improve oversight of                      The action plan will be developed in the first      determined
                        PE2E by:                                                     quarter of FY 2012.
                        a)	 Updating USPTO oversight procedures for PE2E by
                            establishing
                            •	 the key milestone oversight review schedule,
                            •	 criteria for evaluating project progress at
                                oversight reviews, and
                            •	 thresholds for convening special oversight
                                reviews
                        b)	 Seeking independent expert advice on technical
                            and project management for input into milestone
                            reviews and defining the rules of engagement for
                            independent reviewers, including when advice will
                            be sought and access given to project artifacts and
                            personnel.




www.uspto.gov	                                                                                                                                    55
Management’s D iscussion and A nalysis




OMB Financial Management Indicators

The OMB prescribes the use of quantitative indicators to monitor improvements in financial management. The USPTO
tracks other financial performance measures as well. The table below shows the USPTO’s performance during FY 2011
against performance targets established internally and by OMB and the government-wide Metric Tracking System (MTS).


                                                                                      FY 2011                    FY 2011
                       Financial Performance Measure
                                                                                       Target                  Performance
 Percentage of Timely Vendor Payments (MTS)                                             98%                        100%
 Percentage of Payroll by Electronic Transfer (OMB)                                     90%                        100%
 Percentage of Treasury Agency Locations Fully Reconciled (OMB)                         95%                        100%
 Timely Reports to Central Agencies (OMB)                                               95%                        100%
 Audit Opinion on FY 2011 Financial Statements (OMB)                                 Unqualified                Unqualified
 Material Weaknesses Reported by OIG (OMB)                                              None                       None
 Timely Posting of Inter-Agency Charges (USPTO)                                       30 days                     25 days
 Average Processing Time for Travel Payments (USPTO)                                   8 days                     6 days


Prompt Payment Act                                                Debt Collection Improvement Act

The Prompt Payment Act requires Federal agencies to               The Debt Collection Improvement Act prescribes standards for
report on their efforts to make timely payments to vendors,       the administrative collection, compromise, suspension, and
including interest penalties for late payments. In FY 2011,       termination of Federal agency collection actions, and referral to
the USPTO did not pay interest penalties on 99.9 percent          the proper agency for litigation. Although the Act has no material
of the 6,472 vendor invoices processed, representing              effect on the USPTO since it operates with minimal delinquent
payments of approximately $522.1 million. Of the                  debt, all debt more than 180 days old has been transferred to
12 invoices that were not processed in a timely manner,           the U.S. Department of the Treasury for cross-servicing.
the USPTO was required to pay interest penalties on
6 invoices, and was not required to pay interest penalties
on 6 invoices, where the interest was calculated at less          Biennial Review of Fees
than $1. The USPTO paid only $1 in interest penalties for
every million dollars disbursed in FY 2011. Virtually all         The Chief Financial Officers Act of 1990 requires a biennial
recurring payments were processed by EFT in accordance            review of agency fees, rents, and other charges imposed
with the EFT provisions of the Debt Collection Improvement        for services and things of value it provides to specific bene-
Act of 1996.                                                      ficiaries as opposed to the American public in general.
                                                                  The objective of the review is to identify such activities and
                                                                  to begin charging fees, where permitted by law, and to
Civil Monetary Penalty Act                                        periodically adjust existing fees to reflect current costs or
                                                                  market value so as to minimize general taxpayer subsidy of
There were no Civil Monetary Penalties assessed by the            specialized services or things of value (such as rights or
USPTO during FY 2011.                                             privileges) provided directly to identifiable non-Federal
                                                                  beneficiaries. The USPTO is a fully fee-funded agency
                                                                  without subsidy of general taxpayer revenue. The USPTO
                                                                  uses Activity Based Costing (ABC) to calculate the cost of




56 	                                                       Performance and accountability Report: Fiscal Year 2011
                                                                            M anagement ’ s D iscussion and A nalysis




activities performed for each fee, and uses this information     by regulation previously set by statute, the USPTO has
to evaluate and inform when setting fees. When appro-            taken steps to begin developing a new fee structure based
priate, fees are adjusted to be consistent with the legisla-     on ABC models, historical cost analyses of activities
tive requirement to recover full cost of the goods or services   supporting fees, conducting fee analyses such as cost-
provided to the public.                                          obligation-revenue comparisons, economic and elasticity
                                                                 analyses, and developing business case studies. Plans are
In anticipation of the new authority recently passed on          under-way to implement the new fee structure in
September 16, 2011 (AIA, Pub. L. No. 112-29) to set fees         FY 2013.




www.uspto.gov	                                                                                                         57
Financial Discussion and Analysis

          Financial Highlights


          T
                he USPTO received an unqualified (clean) audit opinion from the independent
                public accounting firm of KPMG LLP on its FY 2011 financial statements, provided
                in the Financial Section of this report. This is the 19th consecutive year that the
          USPTO received a clean opinion. Our unqualified audit opinion provides independent
          assurance to the public that the information presented in the USPTO financial state-
          ments is fairly presented, in all material respects, in conformity with accounting prin-
          ciples generally accepted in the United States of America. In addition, KPMG LLP
          reported no material weaknesses or significant deficiencies in the USPTO’s internal
          control, and no instances of non-compliance with laws and regulations affecting the
          financial statements. Refer to the Other Accompanying Information section for the
          Summary of Financial Statement Audit and Management Assurances.

          The summary financial highlights presented in this section provide an analysis of the
          information that appears in the USPTO’s FY 2011 financial statements. The USPTO
          financial management process ensures that management decision-making informa-
          tion is dependable, internal controls over financial reporting are effective, and that
          compliance with laws and regulations is maintained. The issuance of these financial
          statements is a component of the USPTO’s objective to continually improve the
          accuracy and usefulness of its financial management information.




58 	                            Performance and accountability Report: Fiscal Year 2011
                                                                              M anagement ’ s D iscussion and A nalysis




Balance Sheet and Statement of Changes                            together with amounts obligated and held on deposit,
in Net Position                                                   represent 89.1 percent of the Fund Balance with Treasury.

At the end of FY 2011, the USPTO’s consolidated Balance           The other major asset is property, plant, and equipment.
Sheet presents total assets of $1,853.5 million, total liabili-   The net balance of this asset has increased by $2.0 million
ties of $1,251.2 million, and a net position of $602.3            during the past four years, with the acquisition values of
million.                                                          property, plant, and equipment increasing by $185.5 million.
                                                                  Investments in IT software and software in development
Total assets increased 14.0 percent over the last four years,     from FY 2007 to FY 2009 increased $45.5 million, in conjunc-
resulting largely from the increase in Fund Balance with          tion with enhancing the existing e-government capabilities
Treasury. The decrease in Fund Balance with Treasury              in areas such as e-filing, application information retrieval,
during FY 2009 is a result of the decrease in fee income.         data and image capture, and Web-based search systems.
The following graph shows the changes in assets during            This increase slowed to only $6.8 million in FY 2010 as the
this period.                                                      USPTO chose to stop modifications to existing, outdated
                                                                  systems. Instead, the USPTO is beginning to completely
                                                                  re-invent our IT systems from end-to-end, which will lead to
                                                                  future increases in IT hardware, software, and software in
                                                                  development values. This was evidenced by an increase in
                                                                  FY 2011 of $70.8 million for IT equipment.

                                                                  Total liabilities increased from $1,135.6 million at the end of
                                                                  FY 2010 to $1,251.2 million at the end of FY 2011, repre-
                                                                  senting an increase of $115.6 million, or 10.2 percent. The
                                                                  following graph shows the composition of liabilities during
                                                                  the past five years.




Fund Balance with Treasury is the single largest asset on
the Balance Sheet and represents 88.0 percent of total
assets at the end of FY 2011. Over half of the Fund Balance
with Treasury represents fees the USPTO has collected,
but has not been authorized to spend through the annual
appropriation process – this includes temporarily unavail-
able fees of $790.1 million and unavailable special receipt
funds under OBRA of $233.5 million, which total $1,023.6
million in unavailable fees. This asset is also comprised of
unpaid obligated funds of $325.0 million, other funds held
on deposit for customers of $104.9 million, and unobligated
funds of $177.7 million.

The unavailable special receipt funds and the temporarily
unavailable funds require Congressional appropriation
before they will be available for USPTO’s use. These funds,


www.uspto.gov	                                                                                                               59
Management’s D iscussion and A nalysis




The USPTO’s deferred revenue is the largest liability on the
Balance Sheet. The liability for deferred revenue is calcu-
lated by analyzing the process for completing each service
provided. The percent incomplete based on the inventory
of pending work is applied to fee collections to estimate
the amount for deferred revenue liability.

FY 2011 resulted in an increase to the deferred revenue
liability of $71.4 million, or 9.2 percent from FY 2010. The
deferred revenue liability for FY 2011 includes unearned
patent and trademark fees, as well as undeposited checks.
The unearned patent fees represented 92.3 percent of this
liability. During FY 2007 through FY 2008, the deferred
revenue liability increased $74.1 million, or 9.6 percent.
These increases were followed by decreases to the                  In FY 2011, unearned patent fees increased 9.8 percent, a
deferred revenue liability in FY 2009 and FY 2010, for a           temporary increase as a result of the COPA initiative to
cumulative decrease of $74.1 million, or 8.7 percent.              clean up the older cases in the pending backlog and more
The following graph depicts the composition of the deferred        strictly manage its inventory in a FIFO inventory environ-
revenue liability, in addition to the change in this liability     ment. During FY 2007 and FY 2008, unearned patent fees
during each of the past five years.                                increased 12.2 percent, with the majority of the increase
                                                                   occurring during FY 2007. The increase during FY 2007
Deferred revenue at the USPTO is largely impacted by the           was consistent with the increase in first action pendency
change in patent and trademark filings, changes in the first       of 11.9 percent. In FY 2009 and FY 2010, unearned patent
action pendency rates, and changes in fee rates. Increases         fees decreased 4.6 percent and 4.2 percent, respectively.
in patent and trademark filings, first action pendency rates,      As a result of process improvements and increased effi-
and fee rates result in increases in deferred revenue.             ciencies combined with decreased patent filings in FY 2009
                                                                   that accompanied the economic downturn, the USPTO
The following table depicts the changes in the filings and         was able to make progress in reducing the existing
pendencies during the past five years.                             inventory. This was evidenced by the Patent organization


Filings and Pendencies                                           FY 2007     FY 2008     FY 2009      FY 2010     FY 2011
Patent Filings                                                   468,330     496,886     486,499      510,060     536,6041
Percentage Change in Patent Filings                               5.1%        6.1%        (2.1)%       4.8%         5.2%

Patent First Action Pendency (months)                             25.3         25.6        25.8         25.7        28.0
Percentage Change in Patent First Action Pendency                11.9%        1.2%         0.8%        (0.4)%       8.9%
Total Patent Pendency (months)                                    31.9         32.2        34.6         35.3        33.7
Percentage Change in Total Patent Pendency                        2.6%        0.9%         7.5%        2.0%        (4.5)%

Trademark Filings                                                394,368     401,392     352,051      368,939     398,667
Percentage Change in Trademark Filings                           11.2%        1.8%        (12.3)%      4.8%         8.1%

Trademark First Action Pendency (months)                           2.9         3.0          2.7         3.0          3.1
Percentage Change in Trademark First Action Pendency             (39.6)%      3.4%        (10.0)%      11.1%        3.3%
Total Trademark Average Pendency (months)                         13.4         11.8        11.2         10.5        10.5
Percentage Change in Total Trademark Average Pendency            (13.5)%     (11.9)%      (5.1)%       (6.2)%        –%
1	 Preliminary   data




60 	                                                        Performance and accountability Report: Fiscal Year 2011
                                                                                 M anagement ’ s D iscussion and A nalysis




disposing of 22.9 percent and 13.6 percent in FY 2010 and
FY 2009, respectively, more applications than were
disposed of during the preceding year. Despite overall
increases in Patent applications from FY 2007 through
FY 2010, first action pendency had remained fairly constant
as a result of increased Patent staffing and increased focus
on workload.

Deferred revenue associated with the patent process is
expected to resume decreasing. In the FY 2012 President’s
Budget, the number of patent applications filed from
FY 2012 through FY 2016 is expected to gradually increase,
with first action pendency decreasing to 10.3 months by             Statement of Net Cost
FY 2016 and total pendency at 18.8 months by FY 2016.
                                                                    The Statement of Net Cost presents the USPTO’s results of
The pendency decreases will result in patent deferred
                                                                    operations by the following responsibility segments – Patent,
revenue decreases.
                                                                    Trademark, and Intellectual Property Policy, Protection and
                                                                    Enforcement Worldwide. The following table presents the
The deferred revenue associated with the trademark                  total USPTO’s results of operations for the past five fiscal
process increased in FY 2011. Trademark deferred revenue            years. In FY 2011, the USPTO generated a net income of
increased by $1.8 million, or 2.9 percent, from FY 2010,            $88.3 million due to the continued increase of maintenance
with an overall 7.4 percent decrease over the past four             fees received, offset by decreased revenue recognition of
years. The FY 2011 increase was consistent with trademark           previously collected deferred revenue. During FY 2007,
first action pendency increasing to 3.1 months and the              FY 2008, and FY 2009 the USPTO’s operations resulted in a
increase in trademark applications, with total trademark            net cost of $33.9 million, $30.4 million, and $54.8 million,
average pendency remaining constant at 10.5 months.                 respectively. In FY 2010, the USPTO generated a net income
Estimates included in the FY 2012 President’s Budget                of $94.7 million due to the increased maintenance fees
project the pendencies to remain constant in the upcoming           received and revenue recognition of previously deferred
years.                                                              revenue collected as we work off the backlog.

The Statement of Changes in Net Position presents the               The Statement of Net Cost compares fees earned to costs
changes in the financial position of the USPTO due to               incurred during a specific period of time. It is not neces-
results of operations and unexpended appropriations.                sarily an indicator of net income or net cost over the life of
The movement in net position is the result of the net               a patent or trademark. Net income or net cost for the fiscal
income or net cost for the year. The change in the net              year is dependent upon work that has been completed
position during the past five years is presented in the             over the various phases of the production life cycle. The net
following graph.                                                    income calculation is based on fees earned during the fiscal
                                                                    year being reported, regardless of when those fees were
The increase in net position from $492.3 million at the end         collected. Maintenance fees also play a large part in
of FY 2010 to $602.3 million at the end of FY 2011, or 22.3         whether a total net income or net cost is recognized.
percent, is attributable largely to the results of operations.      Maintenance fees collected in FY 2011 are a reflection of


Net (Cost)/Income (Dollars in Millions)                          FY 2007       FY 2008       FY 2009       FY 2010       FY 2011
Earned Revenue                                                   $	1,735.7     $	1,862.2     $	1,927.1     $	2,101.7     $2,236.4
Program Cost                                                     	 (1,769.6)   	 (1,892.6)   	 (1,981.9)   	 (2,007.0)   (2,148.1)
Net (Cost) /Income                                               $	 (33.9)     $	 (30.4)     $	 (54.8)     $	   94.7     $   88.3




www.uspto.gov	                                                                                                                  61
Management’s D iscussion and A nalysis




patent issue levels 3.5, 7.5, and 11.5 years ago, rather than     Earned revenue totaled $2,236.4 million for FY 2011, an
a reflection of patents issued in FY 2011. Therefore, main-       increase of $134.7 million, or 6.4 percent, over FY 2010
tenance fees can have a significant impact on matching            earned revenue of $2,101.7 million. Of revenue earned
costs and revenue.                                                during FY 2011, $375.8 million related to fee collections that
                                                                  were deferred for revenue recognition in prior fiscal years,
During FY 2011, the number of patent filings increased by         $819.3 million related to maintenance fees collected during
5.2 percent over the prior year, resulting in an incease in       FY 2011, which were considered earned immediately,
patent deferred revenue and a decrease in earned revenue.         $1,035.8 million related to work performed for fees collected
This shift in focus was evidenced by the Patent organiza-         during FY 2011, and $5.5 million were not fee-related.
tion disposing of 3.5 percent less applications than were
disposed of during FY 2010.                                       For fees collected and earned during FY 2011, there was
                                                                  an increase of $38.5 million over these same fees earned
During FY 2011, with the number of trademark applications         during FY 2010. This increase can primarily be attributed
increasing by 8.1 percent over the prior year, the Trademark      to $33.1 million in earned patent issue fees, $5.9 million in
organization was able to continue to address the existing         trademark application, $1.9 million in trademark post-regis-
inventory and maintain pendency between 2.5 and 3.5               tration fees, $4.5 million in trademark statement of use,
months during FY 2011. The Trademark organization was             and $10.9 million in fees considered earned immediately,
able to do this while recognizing a slight increase in deferred   offset by a decrease of $10.4 million in earned patent filing
revenue and corresponding decrease in revenue earned.             fees and $6.8 million in patent appeal fees.

                                                                  Patent
Earned Revenue
                                                                  Traditionally, the major components of earned revenue
                                                                  derived from patent operations are maintenance fees, initial
The USPTO’s earned revenue is derived from the fees
                                                                  application fees for filing, search, and examination, and issue
collected for patent and trademark products and services.
                                                                  fees. These fees account for approximately 85 percent of
Fee collections are recognized as earned revenue when
                                                                  total patent income. The following chart depicts the rela-
the activities to complete the work associated with the fee
                                                                  tionship among the most significant patent fee types.
are completed. The earning process is the same for all
collections even through a certain portion of the fees may
                                                                  Patent maintenance fees are the largest source of earned
not be made available to the USPTO for spending.
                                                                  revenue by fee type. During FY 2011, maintenance fees
Temporarily unavailable fee collections occur when the
                                                                  collected increased $146.2 million, or 21.7 percent, from
USPTO is not appropriated the authority to spend all fees
                                                                  FY 2010. A significant portion of this increase was due to
collected during a given year. During FY 2011, the USPTO
                                                                  early renewals that were paid prior to the implementation
collected $208.9 million in fee collections that were desig-
                                                                  of the 15 percent surcharge on September 26, 2011.
nated as temporarily unavailable.




62 	                                                         Performance and accountability Report: Fiscal Year 2011
                                                                                          M anagement ’ s D iscussion and A nalysis




 Patent Renewal Rates*                                                   FY 2007        FY 2008        FY 2009        FY 2010       FY 2011**
 First Stage                                                              90.1%          83.1%          80.3%          99.4%          101.3%
 Second Stage                                                             71.4%          73.7%          63.5%          71.2%           80.6%
 Third Stage                                                              48.5%          49.2%          45.4%          50.0%           60.0%
 * Note: the First Stage refers to the end of the 3rd year after the initial patent is issued; the Second Stage refers to the end of the 7th
 year after the initial patent is issued; and the Third Stage refers to the end of the 11th year after the initial patent is issued. For example,
 in FY 2011, 101.3 percent of the patents issued three years ago were renewed, 80.6 percent of the patents issued seven years ago were
 renewed, and 60.0 percent of the patents issued 11 years ago were renewed.
 ** Note: Due to the implementation of the 15 percent fee surcharge on September 26, 2011, the FY 2011 renewal rates include some
 early renewals that would have otherwise been renewed in FY 2012.


Since these fees are recognized immediately as earned
revenue, any fluctuations in the rates of renewal have a
significant impact on the total earned revenue of the USPTO.
To some extent, renewals recoup costs incurred during the
initial patent process. As shown above, the renewal rates
for all three stages of maintenance fees increased this
year.

Application fee revenue earned upon filing increased from
$95.0 million in FY 2010 to $102.8 million in FY 2011
(increase of 8.2 percent), with the number of applications
increasing from 510,060 to 536,604 over the same period
(increase of 5.2 percent). The FY 2012 President’s Budget
projects a 4.4 percent increase in patent applications filed
beginning in FY 2012 and increasing through FY 2016,                       Earned revenue for trademark applications increased from
which will contribute to a renewed growth in budgetary                     $112.5 million in FY 2010 to $125.4 million in FY 2011, with
resources, as well as earned fee revenue.                                  the number of trademarks registered increasing from
                                                                           221,090 to 237,586 over the same period, increases of
Earned issue fee revenue increased from $364.5 million in                  11.5 percent and 7.5 percent, respectively. The FY 2012
FY 2010 to $397.2 million in FY 2011, with the number of                   President’s Budget projects that trademark applications
patents issued increasing from 223,127 to 244,430 over                     filed will continue to increase, which will contribute to the
the same period, an increase of 9.0 percent and 4.8 percent,               continued growth in budgetary resources, as well as earned
respectively. These increases are in line with the increases               fee revenue.
in the patent allowance rate. The FY 2012 President’s
Budget projects that patents issued will increase an average               Trademark registration can be a recurring source of revenue.
of 4.3 percent each fiscal year through FY 2016, which will                To some extent, renewal fees recoup costs incurred during
result in inceases in maintenance fees in future years.                    the initial examination process. As shown below, the
                                                                           renewal rates for trademarks have remained fairly stable
Trademark                                                                  over the last five years, indicating continued earned revenue
                                                                           from this source. Further, in the FY 2012 President’s
Trademark fees are comprised of application filing, renewals,              Budget, earned revenue from trademark renewals is
services, and TTAB fees. Additional fees are charged for                   expected to continue in the future.
intent-to-use filed applications, as additional requirements
must be met for registration. The following chart depicts
the relationship among the most significant trademark fee
types.




www.uspto.gov	                                                                                                                                 63
Management’s D iscussion and A nalysis




 Trademark Renewal Rates                                            FY 2007       FY 2008       FY 2009        FY 2010      FY 20111
 Renewals                                                            28.6%         28.9%         29.3%          29.3%         27.9%
 Note: the renewals occur every 10th year for trademarks registered after November 15, 1989. For trademarks issued or renewed before
 November 15, 1989, renewal will occur after the 20th year and the renewal will be for a ten-year period. For example, in FY 2011, 27.9
 percent of the trademarks granted ten and 20 years ago were renewed.
 1	   Preliminary data



Program Costs

Program costs totaled $2,148.1 million for the year ended
September 30, 2011, an increase of $141.1 million, or 7.0
percent, over FY 2010 program costs of $2,007.0 million.
The USPTO’s most significant program cost is personnel
services and benefits, which comprise approximately 70
percent of USPTO’s total program costs. Any significant
change or fluctuation in staffing or pay rate directly impacts
the change in total program costs from year-to-year.
Total personnel services and benefits costs for the year
ended September 30, 2011, were $1,514.0 million, an
increase of $114.6 million, or 8.2 percent, over FY 2010
personnel services and benefits costs of $1,399.4 million.
This change was predominantly the result of a net increase
of 703 personnel, from 9,507 at the end of FY 2010 to
10,210 at the end of FY 2011.

The USPTO directs maximum resources to the priority
functions of patent and trademark examination, as well as
IP policy, protection, and enforcement worldwide.
For FY 2011, costs directly attributable to the Patent,
Trademark, and IP protection business areas represent
83.9 percent of total USPTO costs. The remaining costs,
representing support costs, are allocated to the business
areas using ABC accounting. Allocated costs increased
12.9 percent over the past year in line with increased IT
investments.

Patent
Total costs for the Patent business unit increased $380.3
million, 24.8 percent, from FY 2007 through FY 2011.
The Patent organization’s most significant program costs
relate to personnel services, and account for 109.0 percent
of the increase in total cost of Patent operations during the
past four years. Patent personnel costs for the year ended
September 30, 2011, were $1,281.6 million, an increase of             costs represent 15.3 percent of the Patent program costs
$109.4 million, or 9.3 percent, over FY 2010 personnel                for FY 2011. From FY 2007 through FY 2008, contractual
costs of $1,172.2 million. Rent, communications, and                  costs increased in line with the overall increase in Patent
utilities, printing and reproduction, and contractual service         costs due to increases in the number of patents issued and



64 	                                                            Performance and accountability Report: Fiscal Year 2011
                                                                          M anagement ’ s D iscussion and A nalysis




increased spending on indexing and scanning documents         and are a function of the volume of applications processed
for the electronic file wrapper, offset by minor decreases    in each product area.
to printing and reproduction. From FY 2009 through
FY 2011, contractual costs decreased in line with the         Trademark
budget cuts implemented agency-wide.
                                                              Total costs for the Trademark business unit decreased $12.7
Patent costs were predominantly spread over two patent        million, 6.2 percent, from FY 2007 through FY 2011.
products: utility patents and 371 filings (an international   The Trademark organization’s most significant program
application designated to the U.S. that has entered the       costs relate to personnel services, and account for most of
national stage). The cost percentages presented are based     the increase in total cost of Trademark operations during
on direct and indirect costs allocated to patent operations   the past four years. This increase of $12.3 million was




www.uspto.gov	                                                                                                        65
Management’s D iscussion and A nalysis




offset by other cost increases and decreases. Contractual       total cost for IP Protection operations. The next largest
services have decreased $13.7 million over the past four        cost associated with the policy, protection, and enforce-
years, which represents the majority of the total Trademark     ment of IP worldwide is contractual services, which include
cost change over the past four years, as a result of being      joint project agreements. These costs were incurred in
able to rely more on automated tools, rather than contrac-      line with the Strategic Goal 3 activities discussed on pages
tors. Cost allocated to the Trademark organization decreased    31 to 37.
over the past four years, but increased over the past year in
line with increased IT investments.
                                                                Statement of Budgetary Resources
The Intent-to-Use cost includes costs related to examining
both the application and the additional intent to use disclo-   During FY 2011, total budgetary resources available for
sures. The overall cost percentages presented below are         spending was 8.2 percent over the amount available in the
based on both direct costs and indirect costs allocated to      preceding year, with a 30.3 percent increase over the past
trademark operations and are a function of the volume of        five fiscal years. The increase in budgetary resources
applications processed in each product area.                    available for use is depicted by the graph below.

Intellectual Property Policy, Protection, and
Enforcement Worldwide
Total costs for IP Protection increased $10.9 million, or
34.0 percent, from FY 2007 through FY 2011. The most
significant program costs for IP Protection in FY 2011 relate
to personnel services, and account for 40.5 percent of the




                                                                Through FY 2008, the increase in available budgetary
                                                                resources was used to fund the increased cost of addi-
                                                                tional human capital to address the backlog of patent appli-
                                                                cations. In FY 2009, the increase in available budgetary
                                                                resources minimally covered inflationary increases and
                                                                was $200 million less than planned for. As a result, budget
                                                                reductions and cost-savings measures were implemented.




66 	                                                       Performance and accountability Report: Fiscal Year 2011
                                                                            M anagement ’ s D iscussion and A nalysis




However, while fee collections were showing a rebound at
the beginning of FY 2010, the USPTO was operating under
a smaller appropriation that was based on the FY 2009
financial picture with lower than average fee collections.
This was a result of the slower economy and actual collec-
tions in FY 2009. The lack of enactment of the 15 percent
increase on certain patent fees as proposed in the FY 2011
President’s Budget resulted in an appropriation $241.3
million less than planned for and requested in the FY 2011
President’s Budget. As we are an Agency funded entirely
by user fees, this affects our operations significantly.

As the economy has begun showing signs of recovering,
the Patent and Trademark application filings have also been
slowly recovering.

The USPTO was provided appropriation authority to spend
anticipated fee collections in FY 2011 for an amount up to
$2,090.0 million. This was less than the amount of total
fees collected in FY 2011. When spending authority is less
than fee collections, the additional fee collections are
temporarily unavailable. As a result of the AIA, the USPTO
was provided with the authority to collect additional offset-
ting collections beginning September 26, 2011 of (1) a 15
percent interim surcharge on certain patent fees that will
continue until each fee is adjusted by regulation and (2)
fees paid by patent applicants to request expedited, priori-
tized examination. This authority provided the USPTO with
$4.8 million of additional budgetary resources. However,        maintenance fees are one of the largest sources of
after the enactment of the AIA, there was a rush on fee         budgetary resources and are recognized immediately as
payments during the 10 days from enactment to the fee           earned revenue, any fluctuations in the rates of renewal
increase effective date of September 26, 2011. As a result,     have a significant impact on the total resources available to
during FY 2011, the USPTO collected an additional $208.9        the USPTO. To some extent, renewals recoup costs
million in fees that were temporarily unavailable for           incurred during the initial patent process. As shown on
spending.                                                       page 63, the renewal rates for all three stages of mainte-
                                                                nance fees increased during FY 2011. The renewal rates
The following charts present the source of funds made           have rebounded as the economy rebounds.
available to the USPTO in FY 2011, and the use of such
funds representing FY 2011 total obligations incurred, as       As defined earlier, temporarily unavailable fee collections
reflect on the Statement of Budgetary Resources.                occur when the USPTO is not appropriated the authority to
                                                                spend all fees collected during a given year. During FY 2011,
USPTO operations rely on patent maintenance fees to fund        the USPTO collected $208.9 million in fee collections that
a portion of the work being completed each fiscal year.         were designated as temporarily unavailable. As a result,
During FY 2011, maintenance fees collected increased            the $581.2 million in temporarily unavailable fee collections
$146.2 million, or 21.7 percent, from FY 2010. However, a       at the end of FY 2010 increased to $790.1 million at the
large part of the increase in maintenance fees were paid        end of FY 2011.
during the 10 days before the 15 percent surcharge increase
– making a lot of the increase unavailable for spending. As




www.uspto.gov	                                                                                                           67
Management’s D iscussion and A nalysis




Temporarily Unavailable Fee Collections (Dollars in Millions)     FY 2007        FY 2008       FY 2009       FY 2010       FY 2011
Fiscal year fee collections                                       $	1,783.2      $	1,879.3     $	1,874.2     $	2,068.5     $	2,298.9
Fiscal year collections appropriated                              	 (1,771.0)    	 (1,879.3)   	 (1,874.2)   	 (2,016.0)   	 (2,090.0)
Fiscal year unavailable collections                               $	    12.2     $		–          $		–          $	    52.5    $	 208.9
Prior year collections unavailable                                	    516.5     	   528.7     	   528.7     	    528.7    	   581.2
Subtotal                                                          $	 528.7       $	 528.7      $	 528.7      $	 581.2      $	 790.1
Special fund unavailable receipts                                 	    233.5     	   233.5     	   233.5     	    233.5    	   233.5
Cumulative temporarily unavailable fee collections                $	 762.2       $	 762.2      $	 762.2      $	 814.7      $	1,023.6



The above chart illustrates amounts of fees that Congress              adding or subtracting differences in revenue and expense
has appropriated to the USPTO for spending over the past               transactions (appearing on the Balance Sheet and Statement
five fiscal years, as well as the cumulative unavailable fee           of Net Cost) resulting from transactions that occur from
collections.                                                           one year to the next. These adjustments are made because
                                                                       non-cash items are included in preparing the net income/
These cumulative unavailable fee collections remain in the             cost (Statement of Net Cost) and total assets and liabilities
USPTO’s general fund account at the U.S. Department of                 (Balance Sheet). Since not all transactions involve actual
the Treasury (Treasury) until appropriated for use by                  cash items, many items have to be adjusted when calcu-
Congress. In addition to these annual restrictions, collec-            lating cash flow.
tions of $233.5 million are unavailable in accordance with
the OBRA of 1990, and deposited in a special fund receipt              The USPTO receives fees for its primary activities of issuing
account at the Treasury. Effective in FY 2012, all additional          patents and registering trademarks and chooses to include
unavailable fee collections will be deposited in a new fee             information on the sources and amounts of cash provided
reserve fund created by the AIA. It is anticipated that fee            to assist report users in understanding its operating perfor-
collections in the fee reserve fund will be appropriated for           mance. While the fees received are an increase in cash
use by Congress.                                                       flow, they may not necessarily be available for spending
                                                                       based on budgetary restrictions. Over half of the Fund
As the USPTO returns to financial health, the Agency will              Balance with Treasury represents fees the USPTO has
use the new authority in the AIA to set fees so that we are            collected, but has not been authorized to spend through
able to manage patent and trademark revenue fluctuations               the annual appropriation process – this includes cumulative
and properly align fees in a timely, fair, and consistent              temporarily unavailable fees of $790.1 million and unavail-
manner.                                                                able special receipt funds under OBRA of $233.5 million,
                                                                       which total $1,023.6 million in unavailable fees. Cash flow
Statement of Cash Flows                                                is determined by looking at three components by which
                                                                       cash enters and leaves the USPTO: operations, investing,
The Statements of Cash Flow, while not a required financial            and financing.
statement, are audited and are presented for purposes of
additional analysis. The Cash Flow statement records the               Historically at the USPTO, cash flow adjustments to opera-
company’s cash transactions (the inflows and outflows)                 tional activities result in an increase to net income.
during the given period. The document provides aggregate               Depreciation and Accrued Payroll, Leave, and Benefits
data regarding all cash inflows received from both its                 operate similarly, as the accrued expenses that do not
ongoing operations and external investment sources, as                 affect the cash flow are adjusted for, thereby increasing
well as all cash outflows that pay for business activities             net income. Deferred revenue is also a significant factor,
and investments during the period. Cash flow is calculated             as the USPTO has received the fees, but not completed all
by making certain adjustments to net income/cost by                    of the work; in a year when the deferred revenue liability




68 	                                                            Performance and accountability Report: Fiscal Year 2011
                                                                                   M anagement ’ s D iscussion and A nalysis




 Composition of USPTO Cash Flow (Dollars in Millions)          FY 2007         FY 2008      FY 2009       FY 2010       FY 2011
 Cash Flow from Operations
    Net Income/(Cost)                                          $	 (33.9)      $	 (30.4)     $	 (54.8)     $	 94.7      $	 88.3
 Operating Adjustments
    Depreciation                                               $	 61.7        $	 67.6       $	 63.3       $	 59.1      $	 52.7
    Accrued Payroll, Leave, and Benefits                             19.2           25.2         11.1        43.6          47.2
    Deferred Revenue                                                 53.6           20.4         (48.2)      (25.9)        71.4
    Other Adjustments                                                 2.3           11.3         (15.1)      (17.3)        20.0
       Total Adjustments                                       $	 136.8       $	 124.5      $	 11.1       $	 59.5      $	 191.3
       Net Cash Provided/(Used) by Operating Activities        $	 102.9       $	 94.1       $	 (43.7)     $	 154.2     $	 279.6
 Net Cash Used in Investing Activities
    Property, Plant, and Equipment                             $	 (101.8)     $	 (67.2)     $	 (65.0)     $	 (27.6)    $	 (84.9)
 Financing Activities
    Non-Expenditure Transfer                                   $		–           $	    (1.0)   $	    (2.0)   $		–         $		–
    Accounting Standard Change                                 		–            		–                (11.9)   		–          		–
       Net Cash Used in Investing                              $		–           $	    (1.0)   $	 (13.9)     $		–         $		–
       Activities
 Net Cash Provided/(Used)                                      $	     1.1     $	 25.9       $	 (122.6)    $	 126.6     $	 194.7


decreases, such as FY 2010, net income increases without            Adjustments to financing-type activities are infrequent at the
a corresponding increase in the cash flow; the increase to          USPTO. Non-expenditure transfers at the USPTO are the
net income is removed for determining cash flow.                    movement of appropriated fee collections to other federal
Other adjustments is predominantly comprised of changes             governmental entities, without an impact to net income/
in accounts payable balances; in a year when the overall            cost. In addition, due to the implementation of Statement
liability balance decreases, then a reader can conclude that        of Federal Financial Accounting Standard (SFFAS) 31,
an increased amount of cash was disbursed, thereby                  Accounting for Fiduciary Activities, in FY 2009, the presenta-
requiring a reduction to net income/cost; alternately, in a         tion of fiduciary funds were removed from the Balance
year when the overall liability balance increases, a reader         Sheet and are therefore reflected as a decrease of cash.
can conclude that a lesser amount of cash was disbursed.

The investment of property, plant, and equipment is a cash          Limitation on Financial Statements
transaction that has not been accounted for in net income/
cost. This investment reduces net income/cost further for           The principal financial statements included in this report have
calculating cash flow. Investments decreased in FY 2010             been prepared by USPTO management to report the financial
as the USPTO chose to refocus IT investing modifications.           position and results of operations of the USPTO, pursuant to
Instead, the USPTO is beginning to completely re-invent             the requirements of 31 U.S.C. §3515(b). While the state-
our IT systems from end-to-end, which resulted in increases         ments have been prepared from the books and records of the
beginning in FY 2011 in IT software and software in devel-          USPTO in accordance with GAAP for federal entities and the
opment values. In addition, the USPTO began deploying               formats prescribed by OMB in OMB Circular A-136 (revised),
ULs Agency-wide in FY 2011, replacing outdated desktop              the statements are in addition to the financial reports used to
computers and work-at-home laptops.                                 monitor and control budgetary resources, which are prepared
                                                                    from the same books and records. The statements should be
                                                                    read with the understanding that they are for a component of
                                                                    the U.S. Government, a sovereign entity.




www.uspto.gov	                                                                                                                    69
Management’s D iscussion and A nalysis




Management Responsibilities

USPTO management is responsible for the fair presenta-
tion of information contained in the principal financial state-
ments, in conformity with GAAP, the requirements of OMB
Circular A-136, and guidance provided by the DOC.
Management is also responsible for the fair presentation of
the USPTO’s performance measures in accordance with
OMB requirements. The quality of the USPTO’s internal
control rests with management, as does the responsibility
for identifying and complying with pertinent laws and
regulations.




70 	                                                         Performance and accountability Report: Fiscal Year 2011
Financial Section
Message from the
Chief Financial Officer


             I
                am pleased to present the USPTO’s
                FY 2011 financial information. For the
                19th consecutive year we have received
             an unqualified opinion on the Agency’s
             financial statements. Along with the
             unqualified opinion, the auditors reported
             no material weaknesses or significant
             deficiencies in the design and operation
             of the USPTO’s system of internal
             control over financial reporting. Also,
             the auditors reported that our financial
             system complies with federal financial
             systems requirements. Finally, for the
             ninth consecutive year, the Association
             of Government Accountants awarded the
             USPTO the Certificate of Excellence in Accountability Reporting for our FY 2010
             Performance and Accountability Report, clearly demonstrating our excellence
             in integrating performance and accountability reporting.

             The financial planning challenges of fiscal years 2009 and 2010 continued
             into FY 2011. Implementation of the USPTO 2010-2015 Strategic Plan was
             predicated on enactment of the FY 2011 President’s Budget, which included a
             proposed 15 percent interim patent fee surcharge. However, the USPTO’s final
             FY 2011 appropriation did not include this surcharge. As a result, the USPTO
             operated at a level that was about 10 percent below its FY 2011 requirements.
             This resulted in the need to limit or postpone the implementation of many
             strategic plan initiatives, such as hiring additional patent examiners to reduce
             patent pendency and backlog, opening our first field office, and investing in
             information technology.

             In our 2010-2015 Strategic Plan, we identified funding authority to support
             agency performance objectives as a significant challenge in accomplishing
             our vision and mission. To address this challenge, we have proposed the
             establishment of a sustainable funding model that spans multiple years. Such
             a funding model would provide the USPTO with authority to set fees at the
             rates necessary to recover the cost of operations, spend the fees collected




72 	                       Performance and accountability Report: Fiscal Year 2011
                                                                                                         F i n a n ci a l Sec ti on




to support the Agency’s objectives, and the ability to adapt      collected and available to the agency in FY 2012 as originally
and manage Agency funding and spending as needs and               expected. The USPTO continues to adjust our FY 2012
workload demands change, thereby protecting the Agency            plans to account for this change.
against unforeseen disruptions in revenue.
                                                                  Toward this end, we have already begun making advances
The USPTO continues to work with the Administration               in other areas of our sustainable funding model. During
and Congress to identify a funding model that is agile            FY 2011, even faced with funding challenges, we main-
and employs a tolerance for variables and the inherent            tained an operating reserve to manage multi-year plans
characteristics of forecasting workload demand, operations        and undertake long-term strategies for improvement in a
requirements, and resulting fee estimates. Recently, the          financially viable way. This operating reserve is helping the
Congress passed – and the President signed into law – the         USPTO to adapt to the changing FY 2012 funding outlook
AIA (Pub. L. No. 112-29). The Act gives the USPTO, for the        while continuing to focus scarce resources on the Adminis-
first time, the authority to set its fees by rule. In addition,   tration’s goals to reduce patent pendency and the applica-
the Act authorizes the USPTO to implement a 15 percent            tion backlog.
surcharge on most patent fees to provide for additional
financial resources in the interim until the USPTO exercises      Our talented and committed employees continue to display
its fee setting authority and develops a new fee structure        great dedication toward producing a high standard of
that will provide better alignment of fees with the cost of       financial management at the USPTO. We look forward to
operations over the long term. Further, to address our            the future with confidence as we continue to support the
stakeholder’s concerns about unavailable fee collections,         strategic direction of the USPTO by working as a trusted
the Act creates the Patent and Trademark Fee Reserve              partner within the organization and providing sound advice
Fund. Going forward, all fees that the Agency collects            to enable informed program and financial decision-making
above our appropriated spending authority will be deposited       into FY 2012.
in this Fee Reserve Fund, and will be available for spending
to the extent provided for by annual appropriations acts.

The AIA was a huge step towards helping the USPTO
to achieve financial stability. However, due to the mid-
September timing of enactment, the Agency experienced                                     Anthony P. Scardino
an unanticipated surge in fee collections during the final                                Chief Financial Officer
two weeks of the fiscal year, as stakeholders rushed to pay                               November 4, 2011
fees in advance of the 15 percent surcharge taking effect.
Unfortunately, this surge in fees collected was all in excess
of our FY 2011 appropriation and therefore unavailable for
expenditure. Additionally, these same fees were originally
included in our FY 2012 projections. They will now not be




www.uspto.gov	                                                                                                                 73
       Principal Financial Statements
       and Related Notes




                Members of the FY 2011 Performance and Accountability Report Team. From top left:
                Roger Williams, David Fitzpatrick, Mark Krieger; middle row: Maureen Brown,
                Jennifer Jacobs; front: Kim Kenney, Kelly Boudreau.




74 	                                 Performance and accountability Report: Fiscal Year 2011
                                                                                                                F i n a n ci a l Sec ti on




U n i t e d S tat e s PATENT AND TRADEMAR K OFFICE
CONSOLIDATED BALANCE S H EETS

As of September 30, 2011 and 2010

(Dollars in Thousands)                                                                        2011               2010

ASSETS
	 Intragovernmental:
		 Fund Balance with Treasury (Note 2)                                                    $ 1,631,206       $ 1,436,432
		     Accounts Receivable (Note 3)                                                                  296                608
		     Other Assets - Advances and Prepayments (Note 6)                                             2,053             2,988
	   Total Intragovernmental                                                                   1,633,555          1,440,028

	   Cash (Note 4)                                                                                   3,091             3,199
	   Accounts Receivable, Net (Note 3)                                                                138                150
	   Property, Plant, and Equipment, Net (Note 5)                                                  206,628          174,397
	   Other Assets - Advances and Prepayments (Note 6)                                               10,085            10,179
	   Total Assets                                                                          $ 1,853,497       $ 1,627,953

LIABILITIES
	   Intragovernmental:
		     Accounts Payable                                                                   $         5,631   $         4,732
		     Accrued Payroll and Benefits                                                                15,247            12,974
		     Accrued Workers’ and Unemployment Compensation                                               1,869             1,878
		     Customer Deposit Accounts (Note 7)                                                           6,170             5,823
	   Total Intragovernmental                                                                        28,917            25,407

	   Accounts Payable                                                                               80,009            65,382
	   Accrued Payroll and Benefits                                                                  111,903            94,473
	   Accrued Leave                                                                                  76,806            71,018
	   Customer Deposit Accounts (Note 7)                                                             99,414            96,481
	   Deferred Revenue (Note 9)                                                                     845,782          774,388
	   Actuarial Liability (Note 10)                                                                   8,406             8,299
	   Contingent Liability (Note 12)                                                            	        —                200
	   Total Liabilities (Note 8)                                                            $ 1,251,237       $ 1,135,648

NET POSITION
	   Cumulative Results of Operations – Earmarked Funds (Note 14)                          $       602,260   $      492,305
	   Total Net Position                                                                    $       602,260   $      492,305
Total Liabilities and Net Position                                                        $ 1,853,497       $ 1,627,953

The accompanying notes are an integral part of these consolidated financial statements.




www.uspto.gov	                                                                                                                        75
Fin ancial Section




       U n i t e d S tat e s PATENT AND TRADEMAR K OFFICE
       CONSOLIDATED STATEMENTS OF NET COST

       For the years ended September 30, 2011 and 2010

       (Dollars in Thousands)                                                                        2011              2010

       Strategic Goal 1: Optimize Patent
       	 Quality and Timeliness
       	   Total Program Cost                                                                    $   1,913,354     $   1,777,871
       	   Total Program Earned Revenue                                                              (2,005,269)       (1,887,538)
       	   Net Program Income                                                                           (91,915)        (109,667)


       Strategic Goal 2: Optimize Trademark
       	 Quality and Timeliness
       	   Total Program Cost                                                                          191,760           182,565
       	   Total Program Earned Revenue                                                               (231,105)         (214,144)
       	   Net Program Income                                                                           (39,345)          (31,579)


       Strategic Goal 3: Provide Domestic and Global Leadership to Improve
       	 Intellectual Property Policy, Protection and Enforcement Worldwide
       	 Total Program Cost                                                                             42,983            46,502
       Net Income from Operations (Notes 14 and 15)                                              $      (88,277)   $      (94,744)

       TOTAL ENTITY
       	   Total Program Cost (Notes 16 and 17)                                                  $    2,148,097    $    2,006,938
       	   Total Earned Revenue                                                                      (2,236,374)       (2,101,682)
       Net Income from Operations (Notes 14 and 15)                                              $      (88,277)   $      (94,744)

       The accompanying notes are an integral part of these consolidated financial statements.




76 	                                                                Performance and accountability Report: Fiscal Year 2011
                                                                                                                 F i n a n ci a l Sec ti on




U n i t e d S tat e s PATENT AND TRADEMAR K OFFICE
CONSOLIDATED STATEMENTS OF C H AN G ES IN NET P OSITION

For the years ended September 30, 2011 and 2010

(Dollars in Thousands)                                                                         2011               2010
                                                                                          Earmarked Funds   Earmarked Funds

CUMULATIVE RESULTS OF OPERATIONS
	   Beginning Balances                                                                     $   492,305       $   375,794
Other Financing Sources:
	 Imputed Financing                                                                             21,678             21,767
Total Financing Sources                                                                         21,678             21,767
Net Income from Operations                                                                      88,277             94,744
Net Change                                                                                     109,955           116,511
Cumulative Results of Operations                                                           $   602,260       $   492,305

Net Position, End of Year                                                                  $   602,260       $   492,305

The accompanying notes are an integral part of these consolidated financial statements.




www.uspto.gov	                                                                                                                         77
Fin ancial Section




            U n i t e d S tat e s PATENT AND TRADEMAR K OFFICE
            CO m b i n e d STATEMENTS OF BUD G ETARY RESOURCES

            For the years ended September 30, 2011 and 2010

            (Dollars in Thousands)                                                                    2011               2010

            BUDGETARY RESOURCES
            	 Unobligated Balance - Brought Forward, October 1                                   $      222,674      $     118,692
            	 Recoveries of Prior Year Unpaid Obligations                                                15,165             19,796
            	 Budget Authority		
            		 Spending Authority from Offsetting Collections:
            			 Earned:
            				 Collected                                                                            2,236,213          2,101,227
            				 Customer Receivables and Refund Payables                                                   575                248
            		 Change in Unfilled Customer Orders - Advance Received                                     72,829            (25,788)
            		 Total Spending Authority from Offsetting Collections                                   2,309,617           2,075,687
            	 Temporarily not Available Pursuant to Public Law		                                       (208,856)            (52,543)
            Total Budgetary Resources                                                            $    2,338,600      $    2,161,632

            STATUS OF BUDGETARY RESOURCES
            	 Obligations Incurred - Reimbursable                                                $    2,160,895      $   1,938,958
            	 Unobligated Balance:
            		 Apportioned for Current Year		                                                           177,705            222,674
            Total Status of Budgetary Resources                                                  $    2,338,600      $   2,161,632

            CHANGE IN OBLIGATED BALANCE
            	 Obligated Balance, Net
            		 Unpaid Obligations, Brought Forward, October 1                                    $      297,047      $     331,250
            		 Customer Receivables and Refund Payables,
            			 Brought Forward, October 1                                                                   277                525
            	   Total Unpaid Obligated Balance Brought Forward, Net                                     297,324            331,775

            	 Obligations Incurred, Net                                                                2,160,895          1,938,958
            		 Gross Outlays                                                                          (2,117,449)        (1,953,365)
            		 Recoveries of Prior Year Unpaid Obligations, Actual                                        (15,165)          (19,796)
            		 Change in Customer Receivables and Refund Payables                                            (575)             (248)
            	   Total Unpaid Obligated Balance, Net, Current Year                                        27,706             (34,451)

            	 Obligated Balance, Net, End of Year
            		 Unpaid Obligations                                                                       325,328            297,047
            		 Uncollected Customer Receivables and Unpaid Refund Payables                                 (298)               277
            	   Total Unpaid Obligated Balance, Net, End of Year                                 $      325,030      $     297,324

            NET OUTLAYS
            	 Gross Outlays                                                                      $     2,117,449     $    1,953,365
            	 Offsetting Collections                                                                  (2,309,042)        (2,075,439)
            Net Collections                                                                      $     (191,593)     $    (122,074)

            The accompanying notes are an integral part of these consolidated financial statements.



78 	                                                           Performance and accountability Report: Fiscal Year 2011
                                                                                                               F i n a n ci a l Sec ti on




U n i t e d S tat e s PATENT AND TRADEMAR K OFFICE
CONSOLIDATED STATEMENTS OF CAS H FLO W S ( INDIRECT MET H OD )

For the years ended September 30, 2011 and 2010

(Dollars in Thousands)                                                                         2011              2010

CASH FLOWS FROM OPERATING ACTIVITIES
	 Net Income from Operations		                                                            $     88,277     $        94,744
	 Adjustments Affecting Cash Flow:
		 Imputed Financing from Cost Absorbed by Others                                               21,678              21,767
		 Decrease/(Increase) in Accounts Receivable                                                      324                (320)
		 Decrease/(Increase) in Advances and Prepayments                                               1,029                (105)
		 Increase/(Decrease) in Accounts Payable                                                      15,526             (20,074)
		 Increase in Accrued Payroll and Benefits                                                     19,703              18,203
		 Increase in Accrued Leave and Workers' and Unemployment Compensation                          5,779               3,613
		 Increase in Customer Deposit Accounts                                                         3,280               4,226
		 Increase/(Decrease) in Deferred Revenue                                                      71,394             (25,868)
		 Decrease in Contingent Liability                                                               (200)             (1,200)
		 Increase in Actuarial Liability                                                                 107                 202
		 Depreciation, Amortization, or Loss on Asset Dispositions                                    52,695              59,083
	   Total Adjustments                                                                          191,315              59,527
Net Cash Provided by Operating Activities                                                      279,592             154,271

CASH FLOWS FROM INVESTING ACTIVITIES
	 Purchases of Property and Equipment                                                           (84,926)           (27,678)
Net Cash Used in Investing Activities                                                           (84,926)           (27,678)

Net Cash Provided by Operating and Investing Activities                                   $    194,666     $ 	 126,593

Fund Balance with Treasury and Cash, Beginning of Year                                        1,439,631         	1,313,038

Net Cash Provided by Operating and Investing Activities                                   $    194,666     $ 	 126,593

Fund Balance with Treasury and Cash, End of Year                                          $   1,634,297    $     1,439,631

The accompanying notes are an integral part of these consolidated financial statements.




www.uspto.gov	                                                                                                                       79
Fin ancial Section




U n i t e d S t a t e s P ATENT AND TRADEMAR K OFFICE
NOTES TO FINANCIAL STATEMENTS

As of and for the years ended September 30, 2011 and 2010

NOTE 1 . S u m m a r y o f S i g n i f i c a n t A c c o u n t i n g P o l i c i e s

Reporting Entity
The United States Patent and Trademark Office (USPTO) is an agency of the United States within the U.S. Department of
Commerce. The USPTO administers the laws relevant to patents and trademarks and advises the Secretary of Commerce,
the President of the United States, and the Administration on patent, trademark, and copyright protection, and trade-related
aspects of intellectual property.

These financial statements include the USPTO’s three core business activities – granting patents, registering trademarks,
and intellectual property policy, protection, and enforcement – that promote the use of intellectual property rights as a
means of achieving economic prosperity. These activities give innovators, businesses, and entrepreneurs the protection
and encouragement they need to turn their creative ideas into tangible products, and also provide protection for their
inventions and trademarks.

These financial statements report the accounts for salaries and expenses (13X1006), special fund receipts (135127), customer
deposits from the public and other federal agencies (13X6542), Patent Cooperation Treaty collections (13X6538), and the
Madrid Protocol Collections (13X6554) that are under the control of the USPTO. The federal budget classifies the USPTO
under the Other Advancement of Commerce (376) budget function. The USPTO does not have custodial responsibility, nor
does it have lending or borrowing authority. The USPTO does not transact business among its own operating units, and
therefore, no intra-entity eliminations are necessary.

The USPTO is not subject to federal, state, or local income taxes. Accordingly, no provision for income taxes is recorded.

Basis of Presentation
As required by the Chief Financial Officers’ Act of 1990 and 31 United States Code (U.S.C.) §3515(b), the accompanying
financial statements present the financial position, net cost of operations, budgetary resources, and cash flows for the
USPTO’s core business activities. The books and records of the USPTO serve as the source of this information.

These financial statements were prepared in accordance with accounting principles generally accepted in the United States
(GAAP) and the form and content for entity financial statements specified by the Office of Management and Budget (OMB) in
Circular A-136, Financial Reporting Requirements, as amended, as well as the accounting policies of the USPTO. Therefore, they
may differ from other financial reports submitted pursuant to OMB directives for the purpose of monitoring and controlling the
use of the USPTO’s budgetary resources. The GAAP for federal entities are the standards prescribed by the Federal Accounting
Standards Advisory Board, which is the official body for setting the accounting standards of the federal government.

Throughout these financial statements, assets, liabilities, revenues, and costs have been classified according to the type of
entity with which the transactions are associated. Intra-governmental assets and liabilities are those from or to other federal
entities. Intra-governmental earned revenues are collections or accruals of revenue from other federal entities and intra-
governmental costs are payments or accruals to other federal entities.

Allocation transfers are legal delegations by one department of its authority to obligate budget authority and outlay funds to
another department. A separate fund account (allocation account) is created in the U.S. Treasury as a subset of the parent
fund account for tracking and reporting purposes. All allocation transfers of balances are credited to this account, and
subsequent obligations and outlays incurred by the child entity are charged to this allocation account as they execute the
delegated activity on behalf of the parent entity.



80 	                                                        Performance and accountability Report: Fiscal Year 2011
                                                                                                              F i n a n ci a l Sec ti on




NOTE 1 . S u m m a r y o f S i g n i f i c a n t A c c o u n t i n g P o l i c i e s (Continued)

Generally, all financial activity related to these allocation transfers (e.g., budget authority, obligations, and outlays) is reported
in the financial statements of the parent entity, from which the underlying legislative authority, appropriations, and budget
apportionments are derived. The USPTO does not receive any allocation transfers.

Basis of Accounting
Transactions are recorded on the accrual basis of accounting, as well as on a budgetary basis. Accrual accounting allows for
revenue to be recognized when earned and expenses to be recognized when goods or services are received, without regard to
the receipt or payment of cash. Budgetary accounting allows for compliance with the requirements for and controls over the
use of federal funds. The accompanying financial statements are presented on the accrual basis of accounting.

Earmarked Funds
Statement of Federal Financial Accounting Standard (SFFAS) 27, Identifying and Reporting Earmarked Funds, requires
separate identification of the earmarked funds on the Consolidated Balance Sheets (Net Position section), Consolidated
Statements of Changes in Net Position, and further disclosures in a footnote (Note 14).

Earmarked funds are financed by specifically identified revenues, which remain available over time. These specifically
identified revenues are required by statute to be used for designated activities, benefits, or purposes, and must be
accounted for separately from the government’s general revenues. At the USPTO, earmarked funds include the salaries
and expenses fund (13X1006) and the special fund receipts (135127).

Fiduciary Activities
SFFAS 31, Accounting for Fiduciary Activities, requires that fiduciary activities not be recognized on the financial statements,
but will be reported on schedules in the notes to the financial statements. Additional details are provided in Note 19.

Fiduciary cash and other assets are not assets of the federal government. Fiduciary activities are the collection or receipt,
and the management, protection, accounting, and disposition by the federal government of cash or other assets in which
non-federal individuals or entities have an ownership interest that the federal government must uphold. At the USPTO,
fiduciary activities are recorded in the Patent Cooperation Treaty fund (13X6538) and the Madrid Protocol fund (13X6554).

Use of Estimates
The preparation of financial statements in conformity with GAAP requires management to make estimates and assumptions
that affect the reported amounts of assets and liabilities and the disclosure of contingent assets and liabilities as of the date
of the financial statements and the reported amounts of revenues and expenses during the reporting period. Actual results
could differ from these estimates.

Revenue and Other Financing Sources
The USPTO’s fee rates are established by law and, consequently, in some instances may not represent full cost or
market price. Since FY 1993, the USPTO’s funding has been primarily through the collection of user fees. Fees that are
remitted with initial applications and requests for other services are recorded as exchange revenue when received, with
an adjustment to defer revenue for services that have not been performed. All amounts remitted by customers without a
request for service are recorded as liabilities in customer deposit accounts until services are ordered.

The USPTO also receives some financial gifts and gifts-in-kind. All such transactions are included in the consolidated Gifts
and Bequests Fund financial statements of the U.S. Department of Commerce. These gifts are not of significant value
and are not reflected in the USPTO’s financial statements. Most gifts-in-kind are used for official travel to further attain
the USPTO mission and objectives.



www.uspto.gov	                                                                                                                      81
Fin ancial Section




NOTE 1 . S u m m a r y o f S i g n i f i c a n t A c c o u n t i n g P o l i c i e s (Continued)


Entity/Non-Entity
Assets that an entity is authorized to use in its operations are termed entity assets, while assets that are held by an entity
and are not available for the entity’s use are termed non-entity assets. Most of the USPTO’s assets are entity assets and
are available to carry out the mission of the USPTO, as appropriated by Congress, with the exception of a portion of the
Fund Balance with Treasury and cash. Additional details are provided in Note 7.

Fund Balance with Treasury
The USPTO deposits fees collected in commercial bank accounts maintained by the Treasury’s Financial Management
Service (FMS). All moneys maintained in these accounts are transferred to the Federal Reserve Bank on the next business
day following the day of deposit. In addition, many customer deposits are wired directly to the Federal Reserve Bank.
All banking activity is conducted in accordance with the directives issued by the FMS. Treasury processes all disbursements.
Additional details are provided in Note 2.

Accounts Receivable
Accounts receivable balances are established for amounts owed to the USPTO from its customers. The USPTO’s
accounts receivable balances are comprised of amounts due from former employees for the reimbursement of education
expenses and other benefits, amounts due from foreign intellectual property offices for the reimbursement of services
provided, amounts due from other federal agencies for the reimbursement of services provided, and other revenue-
related receivables. This balance in accounts receivable remains as a very small portion of the USPTO’s assets, as the
USPTO requires payment prior to the provision of goods or services during the course of its core business activities.
Additional details are provided in Note 3.

Advances and Prepayments
On occasion, the USPTO prepays amounts in anticipation of receiving future benefits. Although a payment has been made,
an expense is not recorded until goods have been received or services have been performed. The USPTO has prepayments
and advances with non-governmental, as well as governmental vendors. Additional details are provided in Note 6.

Cash
The USPTO’s cash balance primarily consists of checks, electronic funds transfer, and credit card payments for deposits
that are in transit and have not been credited to the USPTO’s Fund Balance with Treasury. The cash balance also consists
of undeposited checks for fees that were not processed at the Balance Sheet date due to the lag time between receipt and
initial review. All such undeposited check amounts are considered to be cash equivalents. Cash is also held outside the
Treasury to be used as imprest funds. Additional details are provided in Note 4.




82 	                                                       Performance and accountability Report: Fiscal Year 2011
                                                                                                        F i n a n ci a l Sec ti on




NOTE 1 . S u m m a r y o f S i g n i f i c a n t A c c o u n t i n g P o l i c i e s (Continued)


Property, Plant, and Equipment, Net
The USPTO’s capitalization policies are summarized below:
Classes of Property,                              Capitalization Threshold                 Capitalization Threshold for
Plant, and Equipment                              for Individual Purchases                       Bulk Purchases
IT Equipment                                       $50 thousand or greater                   $250 thousand or greater
Software                                           $50 thousand or greater                   $250 thousand or greater
Software in Progress                               $50 thousand or greater                   $250 thousand or greater
Furniture                                          $50 thousand or greater                   $  50 thousand or greater
Equipment                                          $50 thousand or greater                   $250 thousand or greater
Leasehold Improvements                             $50 thousand or greater                         Not applicable

Costs capitalized are recorded at actual historical cost. Depreciation is expensed on a straight-line (SL) basis over the
estimated useful life of the asset with the exception of leasehold improvements, which are depreciated over the remaining
life of the lease or over the useful life of the improvement, whichever is shorter. Additional details are provided in Note 5.

Contractor costs for developing custom internal use software are capitalized when incurred for the design, coding, and
testing of the software. Software in progress is not amortized until placed in service.

Property, plant, and equipment acquisitions that do not meet the capitalization criteria are expensed upon receipt.

Workers’ Compensation
Claims brought by USPTO employees for on-the-job injuries fall under the Federal Employees’ Compensation Act (FECA)
administered by the U.S. Department of Labor (DOL). The DOL bills each agency annually as its claims are paid, but
payment on these bills is deferred approximately two years to allow for funding through the budget process.

Unemployment Compensation
USPTO employees who lose their jobs through no fault of their own may receive unemployment compensation benefits
under the unemployment insurance program administered by the DOL. The DOL bills each agency quarterly as its claims
are paid.

Annual, Sick, and Other Leave
Annual leave and compensatory time are accrued as earned, with the accrual being reduced when leave is taken.
An adjustment is made each fiscal quarter to ensure that the balances in the accrued leave accounts reflect current pay
rates. No portion of this liability has been obligated. To the extent current year funding is not available to pay for leave
earned but not taken, funding will be obtained from future financing sources. Sick leave and other types of non-vested
leave are expensed as used.

Employee Retirement Systems and Post-Employment Benefits
USPTO employees participate in either the Civil Service Retirement System (CSRS) or the Federal Employees Retirement
System (FERS). The FERS was established by the enactment of Pub. L. No. 99-335. Pursuant to this law, the FERS and
Social Security automatically cover most employees hired after December 31, 1983. Employees who had five years of
federal civilian service prior to 1984 and who are rehired after a break in service of more than one year may elect to join the
FERS and Social Security system or be placed in the CSRS offset retirement system.




www.uspto.gov	                                                                                                                83
Fin ancial Section




NOTE 1 . S u m m a r y o f S i g n i f i c a n t A c c o u n t i n g P o l i c i e s (Continued)


The USPTO’s financial statements do not report CSRS or FERS assets, accumulated plan benefits, or liabilities applicable
to its employees. The reporting of such amounts is the responsibility of the U.S. Office of Personnel Management
(OPM), who administers the plans. While the USPTO reported no liability for future payments to employees under these
programs, the federal government is liable for future payments to employees through the OPM who administers these
programs. The USPTO financial statements recognize a funded expense and an imputed cost for the USPTO’s share of the
costs to the federal government of providing pension, post-retirement health, and post-retirement life insurance benefits
to all eligible USPTO employees. The USPTO’s appropriation requires full funding of the present costs, as determined by
the OPM, of post-retirement benefits for the Federal Employees Health Benefit Program (FEHB), the Federal Employees
Group Life Insurance Program (FEGLI), and pensions under the CSRS. While ultimate administration of any post-retirement
benefits or retirement system payments will continue to be administered by the OPM, the USPTO is responsible for the
payment of the present value associated with these costs calculated using the OPM factors. Any difference between
the OPM factors for funding purposes and the OPM factors for reporting purposes is recognized as an imputed cost.
Additional details are provided in Note 13.

For the years ended September 30, 2011 and 2010, the USPTO made current year contributions through agency payroll
contributions and quarterly supplemental payments to OPM equivalent to approximately 18.8 percent and 18.2 percent
of the employee’s basic pay for those employees covered by CSRS, based on OPM cost factors. For the years ended
September 30, 2011 and 2010, the USPTO made current year contributions through agency payroll contributions and
quarterly supplemental payments to OPM equivalent to approximately 11.7 percent and 11.2 percent of the employee’s
basic pay for those employees covered by FERS, based on OPM cost factors, respectively.

All employees are eligible to contribute to a Thrift Savings Plan. For those employees participating in the FERS, a Thrift
Savings Plan is automatically established, and the USPTO makes a mandatory contribution to this plan equal to one percent
of the employees’ compensation. In addition, the USPTO makes matching contributions ranging from one to four percent
of the employees’ compensation for FERS-eligible employees who contribute to their Thrift Savings Plans. No matching
contributions are made to the Thrift Savings Plans for employees participating in the CSRS. Employees participating in the
FERS are also covered under the Federal Insurance Contributions Act (FICA), for which the USPTO contributes a matching
amount to the Social Security Administration.

Deferred Revenue
Deferred revenue represents fees that have been received by the USPTO for requested services that have not been
substantially completed. Two types of deferred revenue are recorded. The first type results from checks received,
accompanied by requests for services, which were not yet deposited due to the lag time between receipt and initial
review. The second type of deferred revenue relates primarily to fees for applications that have been partially processed.
The deferred revenue calculation is a complex accounting estimate, dependent upon numerous business and administrative
processes, workloads, and inventories. Additional details are provided in Note 9.

Environmental Cleanup
The USPTO does not have any liabilities for environmental cleanup.




84 	                                                     Performance and accountability Report: Fiscal Year 2011
                                                                                                        F i n a n ci a l Sec ti on




NOTE 2 .            Fund Balance with Treasury

As of September 30, 2011 and 2010, Fund Balance with Treasury consisted of the following:

(Dollars in Thousands)                                              2011                                  2010

Fund Balances by Treasury Fund Type:
	   Special Funds                                               $    233,529                        $       233,529
	   General Funds                                                   1,292,820                             1,101,228
	   Deposit Funds                                                    104,857                                101,675
Total Fund Balance with Treasury                                $   1,631,206                       $     1,436,432

Status of Fund Balance with Treasury:
	   Obligated Balance Not Yet Disbursed                         $    325,030                        $       297,324
	   Unobligated Balance Available                                    177,705                                222,674
	   Temporarily Not Available Pursuant to Public Law                 790,085                                581,230
	   Non-Budgetary Fund Balance with Treasury                         338,386                                335,204
Total Fund Balance with Treasury                                $   1,631,206                       $     1,436,432

No discrepancies exist between the Fund Balance reflected in the general ledger and the balance in the Treasury accounts.

As of September 30, 2011 and 2010, the Non-Budgetary Fund Balance with Treasury includes surcharge receipts of
$233,529 thousand and non-entity customer deposit accounts of $104,857 thousand and $101,675 thousand, respectively.



NOTE 3 .            A c c o u n t s R e c e i va b l e , N e t

As of September 30, 2011 and 2010, USPTO accounts receivables consisted of the following:

(Dollars in Thousands)                                                     2011
                                                  Accounts            Allowance for              Accounts
                                                 Receivable,          Uncollectible             Receivable,
                                                   Gross                Accounts                   Net
Intragovernmental                                $       296           $ 	        —             $           296

With the Public                                  $       336           $        (198)           $           138


(Dollars in Thousands)                                                     2010
                                                  Accounts            Allowance for              Accounts
                                                 Receivable,          Uncollectible             Receivable,
                                                   Gross                Accounts                   Net
Intragovernmental                                $       608           $ 	        —             $           608

With the Public                                  $       385           $        (235)           $           150




www.uspto.gov	                                                                                                                85
Fin ancial Section




NOTE 4 .          Ca s h

As of September 30, 2011 and 2010, cash consisted of the following:

(Dollars in Thousands)                                      2011                   2010
Deposits in Transit                                     $        2,790         $     2,747
Undeposited Collections                                            301                    451
Imprest Funds                                               	       —                       1
Total                                                   $        3,091         $     3,199




NOTE 5 .          P r o p e r t y, P LANT , a n d E q u i p m e n t , NET

As of September 30, 2011, property, plant, and equipment, net consisted of the following:

(Dollars in Thousands)
                                        Depreciation/           Service                         Accumulated
Classes of Property, Plant,             Amortization              Life    Acquisition           Depreciation/       Net Book
and Equipment                             Method                (Years)     Value               Amortization         Value
IT Equipment                                  SL                  3-5     $   362,755           $    269,654    $     93,101
Software                                      SL                  3-5         294,365                263,549          30,816
Software in Progress                          —                   —            14,573               	     —           14,573
Furniture                                     SL                  5-7          15,579                 13,005           2,574
Equipment                                     SL                  3-8          13,461                 13,210             251
Leasehold Improvements                        SL                 5-20          99,747                 34,434          65,313
Total Property, Plant, and Equipment                                      $   800,480           $   593,852     $    206,628

As of September 30, 2010, property, plant, and equipment, net consisted of the following:

(Dollars in Thousands)
                                        Depreciation/           Service                         Accumulated
Classes of Property, Plant,             Amortization              Life    Acquisition           Depreciation/       Net Book
and Equipment                             Method                (Years)     Value               Amortization         Value
IT Equipment                                  SL                  3-5     $   291,893           $    249,092    $     42,801
Software                                      SL                  3-5         280,916                246,359          34,557
Software in Progress                          —                   —            22,763               	     —           22,763
Furniture                                     SL                  5-7          23,265                 18,433           4,832
Equipment                                     SL                  3-8          13,738                 12,405           1,333
Leasehold Improvements                        SL                 5-20          97,218                 29,107          68,111
Total Property, Plant, and Equipment                                      $   729,793           $   555,396     $    174,397




86 	                                                        Performance and accountability Report: Fiscal Year 2011
                                                                                                           F i n a n ci a l Sec ti on




NOTE 6 .          Other Assets

As of September 30, 2011 and 2010, other assets consisted of the following:

(Dollars in Thousands)                                       2011                           2010
Intragovernmental
	   Advances and Prepayments                             $     2,053                    $     2,988
With the Public
	 Advances and Prepayments                                    10,085                         10,179
Total                                                    $    12,138                    $    13,167

The largest governmental prepayments include the USPTO deposit accounts held with the U.S. Government Printing
Office (GPO) to facilitate recurring transactions and the U.S. Postal Service for postage. Deposit accounts held with the
GPO as of September 30, 2011 and 2010 were $750 thousand and $1,436 thousand, respectively. Deposit accounts held
with the U.S. Postal Service as of September 30, 2011 and 2010 were $576 thousand and $880 thousand, respectively.

The largest prepayments with the public as of September 30, 2011 and 2010 were $5,898 and $6,005 thousand for various
hardware and software maintenance agreements; $1,201 thousand and $1,136 thousand for various library and online
database subscriptions; and $2,871 thousand and $2,870 thousand for various joint project agreements with the National
Inventors Hall of Fame, the International Intellectual Property Institute, the World Intellectual Property Organization (WIPO),
the Light Years IP, the Innovators Network Foundation, and the Institute for Policy Innovation, respectively. Travel advances
to personnel as of September 30, 2011 and 2010 were $2 thousand and $6 thousand, respectively.



NOTE 7 .          Entity and Non-Entity Assets

Non-entity assets are amounts held on deposit for the convenience of the USPTO’s customers.

Customers have the option of maintaining a deposit account at the USPTO to facilitate the order process. Customers
can draw from their deposit account when they place an order and can replenish their deposit account as desired.
Funds maintained in customer deposit accounts are not available for the USPTO use until an order has been placed.
Once an order has been placed, the funds are reclassified to entity funds.

As of September 30, 2011 and 2010, entity and non-entity assets consisted of the following:

(Dollars in Thousands)                                                  2011                                2010
Fund Balance with Treasury:
	   Intragovernmental Deposit Accounts                              $          6,170                   $           5,823
	   Customer Deposit Accounts with the Public                                 98,687                              95,852
Total Fund Balance with Treasury                                             104,857                             101,675

Cash:
	   Customer Deposit Accounts with the Public                           	        727                        	        629
Total Non-Entity Assets                                                      105,584                             102,304
Total Entity Assets                                                         1,747,913                           1,525,649
Total Assets                                                        $       1,853,497                  $        1,627,953




www.uspto.gov	                                                                                                                   87
Fin ancial Section




NOTE 8 . L i a b i l i t i e s C ov e r e d a n d N o t C ov e r e d b y B u d g e ta r y R e s o u r c e s

The USPTO records liabilities for amounts that are likely to be paid as the direct result of events that have already occurred.
The USPTO considers liabilities covered by three types of resources: realized budgetary resources; unrealized budgetary
resources that become available without further Congressional action; and cash and Fund Balance with Treasury. Realized
budgetary resources include obligated balances funding existing liabilities and unobligated balances as of September 30,
2011. Unrealized budgetary resources are amounts that were not available for spending through September 30, 2011, but
become available for spending on October 1, 2011 once apportioned by the OMB. In addition, cash and Fund Balance with
Treasury cover liabilities that will never require the use of a budgetary resource. These liabilities consist of deposit accounts,
refunds payable to customers for fee overpayments, and undeposited collections.

Liabilities not covered by budgetary resources include Accrued Workers’ Compensation, Accounts Payable, Accrued Payroll
and Benefits, Accrued Leave, Deferred Revenue, Actuarial Liability, and Contingent Liability. Although future appropriations
to fund these liabilities are probable and anticipated, Congressional action is needed before budgetary resources can be
provided.

As of September 30, 2011 and 2010, liabilities covered and not covered by budgetary resources were as follows:

(Dollars in Thousands)                                                                  2011                     2010

Liabilities Covered by Resources
	 Intragovernmental:
		 Accounts Payable                                                                 $       5,631        $          4,732
		 Accrued Payroll and Benefits                                                            15,247                  12,974
		 Accrued Unemployment Compensation                                                           79                     186
		 Customer Deposit Accounts                                                                6,170                   5,823
	   Total Intragovernmental                                                                27,127                  23,715

	   Accounts Payable                                                                       79,923                  65,382
	   Accrued Payroll and Benefits                                                           70,900                  58,114
	   Customer Deposit Accounts                                                              99,414                  96,481
	   Deferred Revenue                                                                      178,006                 223,125
Total Liabilities Covered by Resources                                              $     455,370        $        466,817

Liabilities Not Covered by Resources
	 Intragovernmental:
		 Accrued Workers’ Compensation                                                    $       1,790        $          1,692
	   Total Intragovernmental                                                                 1,790                   1,692

	   Accounts Payable                                                                           86            	         —
	   Accrued Payroll and Benefits	                                                          41,003                  36,359
	   Accrued Leave                                                                          76,806                  71,018
	   Deferred Revenue                                                                      667,776                 551,263
	   Actuarial Liability                                                                     8,406                   8,299
	   Contingent Liability                                                                	      —                      200
Total Liabilities Not Covered by Resources                                          $     795,867        $        668,831
Total Liabilities                                                                   $   1,251,237        $       1,135,648




88 	                                                         Performance and accountability Report: Fiscal Year 2011
                                                                                                          F i n a n ci a l Sec ti on




NOTE 9 .         Deferred Revenue

As of September 30, 2011, deferred revenue consisted of the following:

(Dollars in Thousands)                                       Patent            Trademark                  Total
	   Unearned Fees                                        $    780,623          $     64,858           $     845,481
	   Undeposited Checks                                            271                    30                     301
Total Deferred Revenue                                   $    780,894          $     64,888           $     845,782

As of September 30, 2010, deferred revenue consisted of the following:

(Dollars in Thousands)                                       Patent            Trademark                  Total
	   Unearned Fees                                        $    710,807          $     63,130           $     773,937
	   Undeposited Checks                                            403                    48                     451
Total Deferred Revenue                                   $    711,210          $     63,178           $     774,388




NOTE 1 0 .         Ac t ua r i a l L i a b i l i t y

The FECA provides income and medical cost protection to covered federal civilian employees injured on the job and for
those who have contracted a work-related occupational disease, and beneficiaries of employees whose death is attributable
to a job-related injury or occupational disease. Claims incurred for benefits under the FECA for the USPTO’s employees are
administered by the DOL and are paid ultimately by the USPTO.

The DOL estimated the future workers compensation liability by applying actuarial procedures developed to estimate
the liability for FECA benefits. The actuarial liability estimates for FECA benefits include the expected liability for death,
disability, medical, and miscellaneous costs for approved compensation cases, plus a component for incurred but not
reported claims. The actuarial liability is updated annually.

The DOL method of determining the liability uses historical benefit payment patterns for a specific incurred period to
predict the ultimate payments for that period. Consistent with past practice, these projected annual benefit payments
have been discounted to present value using the OMB’s economic assumptions for ten-year Treasury notes and bonds.
Interest rate assumptions utilized for discounting were as follows:

                                          2011                                2010
                                     3.54% in year 1,                    3.65% in year 1,
                                     4.03% in year 2,                    4.30% in year 2,
                                      and thereafter                      and thereafter

Based on information provided by the DOL, the U.S. Department of Commerce estimated the USPTO’s liability as of September
30, 2011 and 2010 was $8,406 thousand and $8,299 thousand, respectively.




www.uspto.gov	                                                                                                                  89
Fin ancial Section




NOTE 1 1 .         Leases

Operating Leases:
The General Services Administration (GSA) negotiates long-term office space leases and levies rent charges, paid by the
USPTO, approximate to commercial rental rates. These operating lease agreements for the USPTO’s office buildings
expire at various dates between FY 2014 and FY 2024. During the years ended September 30, 2011 and 2010, the USPTO
paid $89,762 thousand and $91,876 thousand, respectively, to the GSA for rent.

Under existing commitments, the future minimum lease payments as of September 30, 2011 are as follows:

                 Fiscal Year                                       (Dollars in Thousands)
                 2012                                                   $	 67,479
                 2013                                                      67,630
                 2014                                                      65,720
                 2015                                                      64,827
                 2016                                                      63,341
                 Thereafter                                               452,828
                 Total Future Minimum Lease Payments                    $	 781,825


The commitments shown above relate primarily to the operating lease for the USPTO headquarters in Alexandria, Virginia,
beginning in FY 2004 and extending to FY 2024. The operating lease commitments for the USPTO offices in Shirlington,
Virginia are also included above, which will expire in FY 2019.



NOTE 1 2 .         Commitments and Contingencies

The USPTO is a party to various routine administrative proceedings, legal actions, and claims brought by or against it,
including threatened or pending litigation involving labor relations claims, some of which may ultimately result in settlements
or decisions against the federal government.

As of September 30, 2011, management expects it is reasonably possible that approximately $83,726 thousand may be owed
for awards or damages involving labor relations claims. As of September 30, 2010, management expects it is reasonably
possible that approximately $85,612 thousand may be owed for awards or damages involving labor relations claims.

As of September 30, 2011, the USPTO was not subject to any suits where adverse outcomes are probable. The USPTO
was subject to suits where adverse outcomes were probable and claims were $200 thousand as of September 30, 2010.

For the years ended September 30, 2011 and 2010, the USPTO was not required to make any payments to the Judgment
Fund.

As of September 30, 2011 and 2010, the USPTO did not have any major long-term commitments.




90 	                                                        Performance and accountability Report: Fiscal Year 2011
                                                                                               F i n a n ci a l Sec ti on




NOTE 1 3 .         P o s t- e m p loy m e n t B e n e f i t s

For the years ended September 30, 2011 and 2010, the post-employment benefit expenses were as follows:

(Dollars in Thousands)                          2011                                        2010
                                 Funded        Imputed        Total          Funded        Imputed          Total

CSRS                         $    12,446   $      2,801   $    15,247    $    12,610   $      3,435     $    16,045
FERS                             112,076         12,890       124,966         96,424         15,711         112,135
FEHB                              51,387          3,233        54,620         48,253          2,621          50,874
FEGLI                                172       	     —            172            160       	     —              160
FICA                              71,170       	     —         71,170         66,811       	     —           66,811
Total Cost                   $   247,251   $     18,924   $   266,175    $   224,258   $     21,767     $   246,025




www.uspto.gov	                                                                                                       91
Fin ancial Section




NOTE 1 4 .                  Earmarked Funds

Earmarked funds are financed by specifically identified revenues, which remain available over time. These specifically
identified revenues are required by statute to be used for designated activities, benefits, or purposes, and must be
accounted for separately from the government’s general revenues. At the USPTO, earmarked funds include the salaries
and expenses fund and the special fund receipts. Non-entity funds, as disclosed in Note 7, are not earmarked funds and
are therefore excluded from the below amounts.

The following tables provide the status of the USPTO’s earmarked funds as of and for the years ended September 30,
2011 and 2010.

(Dollars in Thousands)                                       Salaries and            Surcharge      Total Earmarked
                                                            Expenses Fund              Fund              Funds
Balance Sheet as of September 30, 2011	
    	   Fund Balance with Treasury                           $   1,292,820       $        233,529    $   1,526,349
    	   Cash                                                         2,364            	        —             2,364
    	   Accounts Receivable, Net                                       434            	        —               434
    	   Other Assets                                               218,766            	        —           218,766
    	   Total Assets                                         $   1,514,384       $        233,529    $   1,747,913

    	   Total Liabilities                                    $   1,145,653       $ 	           —     $   1,145,653
    	   Cumulative Results of Operations                           368,731                233,529          602,260
    	   Total Liabilities and Net Position                   $   1,514,384       $        233,529    $   1,747,913

Statement of Net Cost For the Year
Ended September 30, 2011
    	   Total Program Cost                                   $   2,148,097       $ 	           —     $   2,148,097
    	   Less Earned Revenue                                      (2,236,374)          	        —         (2,236,374)

	       Net Income from Operations                           $      (88,277)     $ 	           —     $      (88,277)

Statement of Changes in Net Position
For the Year Ended September 30, 2011
	        Net Position, Beginning of Year                     $     258,776       $        233,529    $     492,305
	        Other Financing Sources:
		             Imputed Financing                                    21,678            	        —            21,678
	        Net Income from Operations                                 88,277            	        —            88,277
	        Change in Net Position                                    109,955            	        —           109,955
	        Net Position, End of Year                           $     368,731       $        233,529    $     602,260




92 	                                                   Performance and accountability Report: Fiscal Year 2011
                                                                                                        F i n a n ci a l Sec ti on




NOTE 1 4 .                  E a r m a r k e d F u n d s (Continued)

(Dollars in Thousands)                                         Salaries and              Surcharge        Total Earmarked
                                                              Expenses Fund                Fund                Funds
Balance Sheet as of September 30, 2010	
    	   Fund Balance with Treasury                              $   1,101,228        $        233,529        $   1,334,757
    	   Cash                                                            2,570             	        —                 2,570
    	   Accounts Receivable, Net                                          758             	        —                    758
    	   Other Assets                                                  187,564             	        —               187,564
    	   Total Assets                                            $   1,292,120        $        233,529        $   1,525,649

    	   Total Liabilities                                       $   1,033,344        $ 	           —         $   1,033,344
    	   Cumulative Results of Operations                              258,776                 233,529              492,305
    	   Total Liabilities and Net Position                      $   1,292,120        $        233,529        $   1,525,649

Statement of Net Cost For the Year
Ended September 30, 2010
    	   Total Program Cost                                      $   2,006,938        $ 	           —         $   2,006,938
    	   Less Earned Revenue                                         (2,101,682)           	        —             (2,101,682)

	       Net Income from Operations                              $     (94,744)       $ 	           —         $     (94,744)

Statement of Changes in Net Position
For the Year Ended September 30, 2010
	        Net Position, Beginning of Year                        $     142,265        $        233,529        $     375,794
	        Other Financing Sources:
		             Imputed Financing                                       21,767             	        —                21,767
	        Net Income from Operations                                    94,744             	        —                94,744
	        Change in Net Position                                       116,511             	        —               116,511
	        Net Position, End of Year                              $     258,776        $        233,529        $     492,305

The Salaries and Expenses Fund contains moneys used for the administering of the laws relevant to patents and trademarks
and advising the Secretary of Commerce, the President of the United States, and the Administration on patent, trademark,
and copyright protection, and trade-related aspects of intellectual property. This fund is used for the USPTO’s three core
business activities – granting patents, registering trademarks, and intellectual property policy, protection, and enforcement
– that promote the use of intellectual property rights as a means of achieving economic prosperity. These activities give
innovators, businesses, and entrepreneurs the protection and encouragement they need to turn their creative ideas into
tangible products, and also provide protection for their inventions and trademarks. The USPTO may use moneys from this
account only as authorized by Congress via appropriations.

The Surcharge Fund was created through the Patent and Trademark Office Surcharge provision in the Omnibus Budget
Reconciliation Act (OBRA) of 1990 (Section 10101, Pub. L. No. 101-508). This required that the USPTO impose a surcharge
on certain patent fees and set in statute the amounts of money that the USPTO should deposit in a special fund receipt
account at the U.S. Department of the Treasury. This surcharge expired at the end of FY 1998. The USPTO may use
moneys from this account only as authorized by Congress, and only as made available by the issuance of a Treasury
warrant.




www.uspto.gov	                                                                                                                 93
Fin ancial Section




NOTE 1 5 . I n t r ag o v e r n m e n ta l C o s t s a n d E xc h a n g e R e v e n u e

Total intragovernmental costs and exchange revenue, by Strategic Goal, for the years ended September 30, 2011 and
2010 were as follows:

(Dollars in Thousands)                                                                              2011
                                                                     Patent             Trademark          Intellectual        Total
                                                                                                             Property
                                                                                                            Protection

Strategic Goal 1: Optimize Patent
	 Quality and Timeliness
	 Intragovernmental Gross Cost                               $         406,294      $ 	­—              $ 	­—              $     406,294
	 Gross Cost with the Public                                         1,507,060        	­—                	­—                  1,507,060
		     Total Program Cost                                            1,913,354          	­—                 	­—               1,913,354

	   Intragovernmental Earned Revenue                                      (7,572)       	­—                 	­—                    (7,572)
	   Earned Revenue from the Public                                   (1,997,697)        	­—                 	­—               (1,997,697)
		     Total Program Earned Revenue                                  (2,005,269)        	­—                 	­—               (2,005,269)
		     Net Program Income                                    $          (91,915)    $ 	­—              $ 	­—              $      (91,915)

Strategic Goal 2: Optimize Trademark
	 Quality and Timeliness
	 Intragovernmental Gross Cost                               $ 	              —     $       40,719     $ 	­—              $      40,719
	 Gross Cost with the Public                                   	              —            151,041       	­—                    151,041
		     Total Program Cost                                        	            —            191,760          	­—                 191,760

	   Intragovernmental Earned Revenue                             	            —                (488)        	­—                     (488)
	   Earned Revenue from the Public                               	            —            (230,617)        	­—                 (230,617)
		     Total Program Earned Revenue                              	            —            (231,105)        	­—                 (231,105)
		     Net Program Income                                    $ 	              —     $       (39,345)   $ 	­—              $      (39,345)

Strategic Goal 3: Provide Domestic and Global Leadership
	 to Improve Intellectual Property Policy, Protection and
	 Enforcement Worldwide
	 Intragovernmental Gross Cost                               $ 	              —     $ 	­—              $         9,127    $        9,127
	 Gross Cost with the Public                                   	              —       	­—                       33,856            33,856
		     Total Program Cost                                        	            —         	­—                     42,983            42,983
Net (Income)/Cost from Operations                            $          (91,915)    $ 	     (39,345)   $        42,983    $      (88,277)

Total Entity
	 Total Program Cost (Notes 16 and 17)                       $        1,913,354     $       191,760    $     42,983       $    2,148,097
	 Total Earned Revenue                                               (2,005,269)           (231,105)        	­—               (2,236,374)
Net (Income)/Cost from Operations                            $          (91,915)    $       (39,345)   $        42,983    $      (88,277)




94 	                                                        Performance and accountability Report: Fiscal Year 2011
                                                                                                               F i n a n ci a l Sec ti on




NOTE 15 . I n t ragove rnm e ntal Costs and Exc hange Rev enue (Continued)


(Dollars in Thousands)                                                                          2010
                                                                Patent              Trademark          Intellectual          Total
                                                                                                         Property
                                                                                                        Protection

Strategic Goal 1: Optimize Patent
	 Quality and Timeliness
	 Intragovernmental Gross Cost                              $         377,272   $ 	­—              $ 	­—               $       377,272
	 Gross Cost with the Public                                        1,400,599     	­—                	­—                     1,400,599
		    Total Program Cost                                            1,777,871        	­—                 	­—                 1,777,871

	   Intragovernmental Earned Revenue                            	    (8,652)         	­—                 	­—               	     (8,652)
	   Earned Revenue from the Public                              	(1,878,886)         	­—                 	­—               	(1,878,886)
		    Total Program Earned Revenue                              	(1,887,538)         	­—                 	­—               	(1,887,538)
		    Net Program Income                                    $ 	 (109,667)       $ 	­—              $ 	­—               $ 	 (109,667)

Strategic Goal 2: Optimize Trademark
	 Quality and Timeliness
	 Intragovernmental Gross Cost                              $ 	           —     $       38,741     $ 	­—               $       38,741
	 Gross Cost with the Public                                  	           —            143,824       	­—                      143,824
		    Total Program Cost                                        	         —            182,565           	­—                  182,565

	   Intragovernmental Earned Revenue                            	         —          	     (723)         	­—               	     (723)
	   Earned Revenue from the Public                              	         —          	 (213,421)         	­—               	 (213,421)
		    Total Program Earned Revenue                              	         —          	 (214,144)         	­—               	 (214,144)
		    Net Program Income                                    $ 	           —     $ 	     (31,579)   $ 	­—               $ 	     (31,579)

Strategic Goal 3: Provide Domestic and Global Leadership
	 to Improve Intellectual Property Policy, Protection and
	 Enforcement Worldwide
	 Intragovernmental Gross Cost                              $ 	           —     $ 	­—              $         9,868     $        9,868
	 Gross Cost with the Public                                  	           —       	­—                       36,634             36,634
		    Total Program Cost                                        	         —          	­—                    46,502             46,502
Net (Income)/Cost from Operations                           $ 	 (109,667)       $ 	     (31,579)   $        46,502     $ 	     (94,744)

Total Entity
	 Total Program Cost (Notes 16 and 17)                      $     1,777,871     $       182,565    $      46,502       $     2,006,938
	 Total Earned Revenue                                          	(1,887,538)         	 (214,144)         	­—               	(2,101,682)
Net (Income)/Cost from Operations                           $ 	 (109,667)       $ 	     (31,579)   $        46,502     $ 	     (94,744)


Intragovernmental expenses relate to the source of the goods or services, not the classification of the related revenue.




www.uspto.gov	                                                                                                                       95
Fin ancial Section




NOTE 1 6 .            Program Costs

Program costs consist of both costs related directly to the individual business lines and overall support costs allocated
to the business lines. All costs are assigned to specific programs. Total program or operating costs for the years ended
September 30, 2011 and 2010 by cost category were as follows:

(Dollars in Thousands)                                                                       2011

                                                                        Direct             Allocated         Total

Personnel Services and Benefits                                      $	 1,411,130     $	
                                                                                       102,855           $	 1,513,985
Travel and Transportation                                                   1,726          591                  2,317
Rent, Communications, and Utilities                                        82,185       31,282                113,467
Printing and Reproduction                                                  90,510          366                 90,876
Contractual Services                                                      155,394      140,174                295,568
Training                                                                      716          845                  1,561
Maintenance and Repairs                                                     3,792       31,795                 35,587
Supplies and Materials                                                     33,030          903                 33,933
Equipment not Capitalized                                                   1,866        5,960                  7,826
Insurance Claims and Indemnities                                              282     	­—                         282
Depreciation, Amortization, or Loss on Asset Dispositions                  21,219       31,476                 52,695
Total Program Costs                                                  $	 1,801,850     $	     346,247     $	 2,148,097


(Dollars in Thousands)                                                                       2010

                                                                        Direct             Allocated         Total

Personnel Services and Benefits                                      $	 1,303,805     $	      95,599     $	 1,399,404
Travel and Transportation                                                   1,877                720            2,597
Rent, Communications, and Utilities                                        86,042             28,887          114,929
Printing and Reproduction                                                  77,742                309           78,051
Contractual Services                                                      181,474            113,850          295,324
Training                                                                      569                846            1,415
Maintenance and Repairs                                                     4,145             35,727           39,872
Supplies and Materials                                                      9,736                961           10,697
Equipment not Capitalized                                                   1,309              3,860            5,169
Insurance Claims and Indemnities                                              308                 89              397
Depreciation, Amortization, or Loss on Asset Dispositions                  33,269             25,814           59,083
Total Program Costs                                                  $	 1,700,276     $	     306,662     $	 2,006,938


The unfunded portion of personnel services and benefits for the years ended September 30, 2011 and 2010 was $10,638
thousand and $13,149 thousand, respectively.




96 	                                                        Performance and accountability Report: Fiscal Year 2011
                                                                                                           F i n a n ci a l Sec ti on




NOTE 17 . Pro gra m Co st s by Category and Responsibility Seg m e n t

The program costs for the years ended September 30, 2011 and 2010 by cost category and business line were as follows:

(Dollars in Thousands)                                                                     2011
                                                                 Patent      Trademark            Intellectual          Total
                                                                                                    Property
                                                                                                   Protection

Direct Costs
	 Personnel Services and Benefits                              $	1,281,576   $	 112,142       $	
                                                                                               17,412              $	1,411,130
	 Travel and Transportation                                            306          114         1,306                    1,726
	 Rent, Communications, and Utilities                               72,679        7,135         2,371                   82,185
	 Printing and Reproduction                                         90,208          300             2                   90,510
	 Contractual Services                                             129,991       10,700        14,703                  155,394
	 Training                                                             372          318            26                      716
	 Maintenance and Repairs                                            1,947        1,791            54                    3,792
	 Supplies and Materials                                            31,707        1,056           267                   33,030
	 Equipment not Capitalized                                          1,428          374            64                    1,866
	 Insurance Claims and Indemnities                                     282   	­—              	­—                          282
   Depreciation, Amortization, or Loss on Asset Dispositions        17,726        3,290           203                   21,219
Subtotal Direct Costs                                          $	1,628,222   $	 137,220       $	      36,408       $	1,801,850

Allocated Costs
	 Automation                                                   $	 145,308    $	   31,915      $	       1,288       $	 178,511
	 Resource Management                                             139,824         22,625               5,287          167,736
Subtotal Allocated Costs                                       $	 285,132    $	   54,540      $	       6,575       $	 346,247

Total Program Costs                                            $	1,913,354   $	 191,760       $	      42,983       $	2,148,097


The unfunded portion of personnel services and benefits for the year ended September 30, 2011 was $10,638 thousand.




www.uspto.gov	                                                                                                                   97
Fin ancial Section




NOTE 17. Program Costs by Category and Responsibility Segment (Continued)

(Dollars in Thousands)                                                                      2010
                                                                  Patent      Trademark            Intellectual      Total
                                                                                                     Property
                                                                                                    Protection

Direct Costs
	 Personnel Services and Benefits                               $	1,172,190   $	 111,862       $	      19,753     $	1,303,805
	 Travel and Transportation                                             195          105                1,577           1,877
	 Rent, Communications, and Utilities                                76,690        6,725                2,627          86,042
	 Printing and Reproduction                                          77,611          119                   12          77,742
	 Contractual Services                                              160,082       10,671               10,721         181,474
	 Training                                                              306          225                   38             569
	 Maintenance and Repairs                                             2,274        1,777                   94           4,145
	 Supplies and Materials                                              9,183          336                  217           9,736
	 Equipment not Capitalized                                             880          384                   45           1,309
	 Insurance Claims and Indemnities                                      292           16       	           —              308
   Depreciation, Amortization, or Loss on Asset Dispositions         28,848        4,081                  340          33,269
Subtotal Direct Costs                                           $	1,528,551   $	 136,301       $	      35,424     $	1,700,276

Allocated Costs
	 Automation                                                    $	 131,047    $	   25,176      $	       2,640     $	 158,863
	 Resource Management                                              118,273         21,088               8,438        147,799
Subtotal Allocated Costs                                        $	 249,320    $	   46,264      $	      11,078     $	 306,662

Total Program Costs                                             $	1,777,871   $	 182,565       $	      46,502     $	2,006,938


The unfunded portion of personnel services and benefits for the year ended September 30, 2010 was $13,149 thousand.




98 	                                                           Performance and accountability Report: Fiscal Year 2011
                                                                                                       F i n a n ci a l Sec ti on




NOTE 1 8 .         B u d g e ta r y R e s o u r c e s

Total budgetary resources are primarily comprised of Congressional authority to spend current year fee collections.
In FY 2011, the USPTO was appropriated up to $2,090,000 thousand for fees collected during the fiscal year. In FY 2010,
the USPTO was appropriated up to $1,887,000 thousand for fees collected during the fiscal year. However, as FY 2010
progressed, fee collections exceeded the anticipated amounts. As a result, the USPTO was issued a supplemental
appropriation (Pub. L. No. 111-224) in FY 2010, thereby increasing the available amount of fee collections for use to
$2,016,000 thousand. For the year ended September 30, 2011, the USPTO collected $177,182 thousand more than the
amount apportioned through September 30, 2011 (over-collections of fees of $208,856 thousand and under-collections of
other budgetary resources of $31,674 thousand). For the year ended September 30, 2010, the USPTO collected $46,082
thousand more than the amount apportioned through September 30, 2010 (over-collections of fees of $52,543 thousand
and under-collections of other budgetary resources of $6,461 thousand).

The USPTO receives an apportionment of Category A funds from OMB, which apportions budgetary resources by fiscal
quarter. The USPTO does not receive any Category B funds, or those exempt from apportionment.

Permanent Indefinite Appropriations

Permanent indefinite appropriations are open-ended; that is, the dollar amount is unknown at the time the authority is
granted. These appropriations are available for specific purposes without current year action by Congress. In addition to
the appropriation of fee collections mentioned above, the USPTO received a permanent indefinite appropriation in the
America Invents Act (Pub. L. No. 112-29). The permanent indefinite appropriation is comprised of offsetting collections
for (1) a 15 percent interim surcharge on certain patent fees that will continue until each fee is adjusted by regulation and
(2) fees paid by patent applicants to request expedited, prioritized examination. These offsetting collections are deposited
in the salaries and expenses (13X1006) no year fund. For the year ended September 30, 2011, the USPTO collected
$4,801 thousand in accordance with the permanent indefinite appropriation.

Funding Limitations

Pursuant to the Patent and Trademark Office Fee Fairness Act of 1999 (35 U.S.C. §42(c)), all fees available to the Director
under section 31 of the Trademark Act of 1946 are used only for the processing of trademark registrations and for other
activities, services, and materials relating to trademarks, as well as to cover a proportionate share of the administrative
costs of the USPTO.

In addition, the FY 2009 appropriation language restricted from obligation $5,000 thousand of offsetting collections until
“the USPTO has completed a comprehensive review of the assumptions behind the patent examiner expectancy goals
and adopted a revised set of expectancy goals for patent examination”. These restricted funds were released and made
available in the third quarter of FY 2011.

The total temporarily unavailable fee collections pursuant to Public Law as of September 30, 2011 are $1,023,614 thousand.
Of this amount, certain USPTO collections of $233,529 thousand were withheld in accordance with the OBRA of 1990, and
deposited in a special fund receipt account at the U.S. Department of the Treasury.

Undelivered Orders

In addition to the future lease commitments discussed in Note 11, the USPTO is obligated for the purchase of goods
and services that have been ordered, but not yet received. Total undelivered orders for all of the USPTO’s activities
were $165,684 thousand and $169,709 thousand as of September 30, 2011 and 2010, respectively. Of these amounts,
$153,546 thousand and $156,542 thousand, respectively, were unpaid.




www.uspto.gov	                                                                                                               99
Fin ancial Section




NOTE 1 9 .          F i d u c i a ry Ac t i v i t i e s

Fiduciary activities are the collection or receipt, and the management, protection, accounting, and disposition by the federal
government of cash or other assets in which non-federal individuals or entities have an ownership interest that the federal
government must uphold. Fiduciary cash and other assets are not assets of the federal government and accordingly are
not recognized on the proprietary financial statements.

The Patent Cooperation Treaty authorized the USPTO to collect patent filing and search fees on behalf of the WIPO, EPO,
Korean Intellectual Property Office, and the Australian Patent Office from U.S. citizens requesting an international patent.
The Madrid Protocol Implementation Act authorized the USPTO to collect trademark application fees on behalf of the
International Bureau of the WIPO from U.S. citizens requesting an international trademark.

Schedule of Fiduciary Activity
For the years ended September 30, 2011 and 2010
                                                                  2011                                           2010
                                                Patent                         Total           Patent                           Total
                                              Cooperation     Madrid         Fiduciary       Cooperation     Madrid           Fiduciary
(Dollars in Thousands)                          Treaty        Protocol         Funds           Treaty        Protocol           Funds

Fiduciary Net Assets, Beginning of Year       $     9,452     $       576    $    10,028     $     9,134     $       452      $ 	 9,586
Contributions                                     131,755          14,551        146,306         121,679           9,923        	131,602
Disbursements To and on Behalf of
   Beneficiaries                                  (128,343)       (14,789)       (143,132)       (121,361)       	 (9,799)     	(131,160)
Increase/(Decrease) in Fiduciary Net Assets         3,412            (238)         3,174             318             124       	    442
Fiduciary Net Assets, End of Year             $    12,864     $      338     $    13,202     $     9,452     $       576      $ 	 10,028


Fiduciary Net Assets
As of September 30, 2011 and 2010
                                                                  2011                                           2010
                                                Patent                         Total           Patent                           Total
                                              Cooperation     Madrid         Fiduciary       Cooperation     Madrid           Fiduciary
(Dollars in Thousands)                          Treaty        Protocol         Funds           Treaty        Protocol           Funds
Cash and Cash Equivalents                     $    12,864     $      338     $    13,202     $     9,452     $          576   $ 10,028
Total Fiduciary Net Assets                    $    12,864     $      338     $    13,202     $     9,452     $          576   $ 10,028




100 	                                                             Performance and accountability Report: Fiscal Year 2011
                                                                                                    F i n a n ci a l Sec ti on




NOTE 2 0 .         R e c o n c i l i a t i o n o f N e t C o s t o f Op e r a t i o n s t o B u d g e t

Most entity transactions are recorded in both budgetary and proprietary accounts. However, because different accounting
bases are used for budgetary and proprietary accounting, some transactions may appear in only one set of accounts.
The following reconciliation provides a means to identify the relationships and differences that exist between the
aforementioned budgetary and proprietary accounts.

The reconciliation of net cost of operations to budget for the years ended September 30, 2011 and 2010 is as follows:

(Dollars in Thousands)                                                                       2011               2010

RESOURCES USED TO FINANCE ACTIVITIES
	 Budgetary Resources Obligated:
		   Obligations Incurred                                                                $   2,160,895      $    1,938,958
		   Spending Authority from Offsetting Collections and Recoveries                           (2,324,782)        (2,095,483)
		   Net Obligations                                                                          (163,887)          (156,525)
		 Other Resources
			 Imputed Financing from Cost Absorbed by Others                                              21,678             21,767
Total Resources Used to Finance Activities                                                    (142,209)          (134,758)

RESOURCES USED TO FINANCE ITEMS NOT PART OF THE NET COST OF OPERATIONS
	 Change in Budgetary Resources Obligated for Goods, Services and Benefits
		 Ordered but not yet Provided                                                                  4,025              22,840
	 Resources that Fund Costs Recognized in Prior Periods                                           (200)             (1,363)
	 Budgetary Offsetting Collections that do not Affect Net Cost of Operations                    71,600             (26,161)
	 Resources that Finance the Acquisition of Assets Capitalized on the Balance Sheet            (84,926)            (27,678)
Total Resources Used to Finance Items not Part of the Net Cost of Operations                    (9,501)            (32,362)

COMPONENTS OF NET COST OF OPERATIONS THAT WILL NOT REQUIRE OR
	 GENERATE RESOURCES IN THE CURRENT PERIOD
	 Components Requiring or Generating Resources in Future Periods:
		 Costs that will be Funded by Resources in Future Periods                                     10,725             13,148
		 Net Increase in Revenue Receivables not Generating
			 Resources until Collected                                                                       (30)                (28)
		 Total Components of Net Cost of Operations that will Require or Generate
			 Resources in Future Periods                                                                 10,695             13,120
	 Components not Requiring or Generating Resources:
		 Depreciation, Amortization, or Loss on Asset Dispositions                                    52,695             59,083
		 Other Costs that will not Require Resources                                                      43                173
		 Total Components of Net Cost of Operations that will not Require or
			 Generate Resources                                                                          52,738             59,256
Total Components of Net Cost of Operations that will not Require or Generate
	 Resources in the Current Period                                                               63,433             72,376
Net Income from Operations                                                               $     (88,277)     $      (94,744)




www.uspto.gov	                                                                                                          101
Fin ancial Section




102 	                Performance and accountability Report: Fiscal Year 2011
Independent
Auditors’ Report
In de pe nd ent Aud i to r S ’ R ep o r t




                 November 9, 2011

                 MEMORANDUM FOR:                David Kappos
                                                Under Secretary of Commerce for Intellectual Property and
                                                 Director of the U.S. Patent and Trademark Office




                 FROM:                          Todd J. Zinser

                 SUBJECT:                       FY 2011 Financial Statements
                                                Final Report No. OIG-12-006-A

                 I am pleased to provide you with the attached audit report, which presents an unqualified opinion
                 on the U.S. Patent and Trademark Office’s fiscal year 2011 financial statements. KPMG LLP, an
                 independent public accounting firm, performed the audit in accordance with U.S. generally
                 accepted government auditing standards and Office of Management and Budget Bulletin 07-04,
                 Audit Requirements for Federal Financial Statements, as amended.

                 In its audit of USPTO, KPMG found

                 •   that the financial statements were fairly presented in all material respects and in conformity
                     with U.S. generally accepted accounting principles;

                 •   no deficiencies in internal control over financial reporting that were considered to be a
                     material weakness, as defined in the report; and

                 •   no instances of reportable noncompliance with applicable laws, regulations, and contracts.

                 My office oversaw the audit performance. We reviewed KPMG’s report and related
                 documentation, and made inquiries of its representatives. Our review disclosed no instances
                 where KPMG did not comply, in all material respects, with generally accepted government
                 auditing standards. However, our review cannot be construed as an audit in accordance with
                 these standards; it was not intended to enable us to express—nor do we express—any opinion on
                 USPTO’s financial statements, conclusions about the effectiveness of internal controls, or
                 conclusions on compliance with laws, regulations, and contracts. KPMG is solely responsible for
                 the attached audit report, dated November 4, 2011, and the conclusions expressed in the report.

                 If you wish to discuss the contents of this report, please call me at (202) 482-4661, or Ann C.
                 Eilers, Principal Assistant Inspector General for Audit and Evaluation, at (202) 482-2754.




104 	                                                            Performance and accountability Report: Fiscal Year 2011
                                                                                      I n d e p e n d e n t Au d i torS’ Report




             We appreciate the cooperation and courtesies USPTO extended to KPMG and my staff during
             the audit.



             Attachment


             cc:   Scott B. Quehl, Chief Financial Officer and Assistant Secretary for Administration
                   Anthony P. Scardino, Chief Financial Officer, USPTO




www.uspto.gov	                                                                                                           105
In de pe nd ent Aud i to r S ’ R ep o r t

                                            KPMG LLP
                                            2001 M Street, NW
                                            Washington, DC 20036-3389




                                                     Independent Auditors’ Report


            Inspector General, U.S. Department of Commerce and
            Under Secretary of Commerce for Intellectual Property and
              Director of the U.S. Patent and Trademark Office:

            We have audited the accompanying consolidated balance sheets of the United States Patent and Trademark
            Office (USPTO) as of September 30, 2011 and 2010, and the related consolidated statements of net cost
            and changes in net position, and combined statements of budgetary resources for the years then ended
            (hereinafter referred to as “consolidated financial statements”). The objective of our audits was to express
            an opinion on the fair presentation of these consolidated financial statements. In connection with our fiscal
            year 2011 audit, we also considered the USPTO’s internal control over financial reporting and tested the
            USPTO’s compliance with certain provisions of applicable laws, regulations, and contracts that could have
            a direct and material effect on these consolidated financial statements.

            Summary
            As stated in our opinion on the consolidated financial statements, we concluded that the USPTO’s
            consolidated financial statements referred to above, are presented fairly, in all material respects, in
            conformity with U.S. generally accepted accounting principles.

            Our consideration of internal control over financial reporting was not designed to identify all deficiencies
            in internal control over financial reporting that might be deficiencies, significant deficiencies, or material
            weaknesses. We did not identify any deficiencies in internal control over financial reporting that we
            consider to be material weaknesses as defined in the Internal Control Over Financial Reporting section of
            this report.

            The results of our tests of compliance with certain provisions of laws, regulations, and contracts disclosed
            no instances of noncompliance or other matters that are required to be reported herein under Government
            Auditing Standards and OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
            amended.

            The following sections discuss our opinion on the USPTO’s consolidated financial statements; our
            consideration of the USPTO’s internal control over financial reporting; our tests of the USPTO’s
            compliance with certain provisions of applicable laws, regulations, and contracts; and management’s and
            our responsibilities.

            Opinion on the Financial Statements
            We have audited the accompanying consolidated balance sheets of the United States Patent and Trademark
            Office as of September 30, 2011 and 2010, and the related consolidated statements of net cost and changes
            in net position, and the combined statements of budgetary resources for the years then ended.




                                            KPMG LLP is a Delaware limited liability partnership,
                                            the U.S. member firm of KPMG International Cooperative
                                            (“KPMG International”), a Swiss entity.




106 	                                                                   Performance and accountability Report: Fiscal Year 2011
                                                                                               I n d e p e n d e n t Au d i torS’ Report




            United States Patent and Trademark Office
            Independent Auditors’ Report
            November 4, 2011
            Page 2 of 5


            In our opinion, the consolidated financial statements referred to above present fairly, in all material
            respects, the financial position of the United States Patent and Trademark Office as of September 30, 2011
            and 2010, and its net costs, changes in net position, and budgetary resources for the years then ended, in
            conformity with U.S. generally accepted accounting principles.

            The information in the Management’s Discussion and Analysis and Required Supplementary Information
            section is not a required part of the consolidated financial statements, but is supplementary information
            required by U.S. generally accepted accounting principles. We have applied certain limited procedures,
            which consisted principally of inquiries of management regarding the methods of measurement and
            presentation of this information. However, we did not audit this information and, accordingly, we express
            no opinion on it.

            Our audits were conducted for the purpose of forming an opinion on the consolidated financial statements
            taken as a whole. The consolidated statements of cash flow for the years ended September 30, 2011 and
            2010 are presented for purposes of additional analysis of the consolidated financial statements and are not a
            required part of the consolidated financial statements. The consolidated statements of cash flow for the
            years ended September 30, 2011 and 2010 have been subjected to the auditing procedures applied in the
            audit of the consolidated financial statements and, in our opinion, are fairly stated, in all material respects,
            in relation to the consolidated financial statements taken as a whole. The information in the Message from
            the Under Secretary of Commerce for Intellectual Property and Director of the USPTO section, the
            Message from the Chief Financial Officer section, and the Other Accompanying Information section are
            presented for purposes of additional analysis and are not required as part of the consolidated financial
            statements. This information has not been subjected to auditing procedures and, accordingly, we express no
            opinion on it.

            Internal Control Over Financial Reporting
            A deficiency in internal control exists when the design or operation of a control does not allow
            management or employees, in the normal course of performing their assigned functions, to prevent, or
            detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
            of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
            the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

            Our consideration of internal control over financial reporting was for the limited purpose described in the
            Responsibilities section of this report and was not designed to identify all deficiencies in internal control
            over financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our
            fiscal year 2011 audit, we did not identify any deficiencies in internal control over financial reporting that
            we consider to be material weaknesses, as defined above.

            Exhibit I presents the status of the prior year significant deficiency.

            We noted certain additional matters that we have reported to management of the USPTO in a separate
            letter.




www.uspto.gov	                                                                                                                    107
In de pe nd ent Aud i to r S ’ R ep o r t




              United States Patent and Trademark Office
              Independent Auditors’ Report
              November 4, 2011
              Page 3 of 5


              Compliance and Other Matters
              The results of our tests of compliance described in the Responsibilities section of this report disclosed no
              instances of noncompliance or other matters that are required to be reported herein under Government
              Auditing Standards or OMB Bulletin No. 07-04.

                                                              *******

              Responsibilities
              Management’s Responsibilities. Management is responsible for the consolidated financial statements;
              establishing and maintaining effective internal control; and complying with laws, regulations, and contracts
              applicable to the USPTO.

              Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2011 and 2010
              consolidated financial statements of the USPTO based on our audits. We conducted our audits in
              accordance with auditing standards generally accepted in the United States of America; the standards
              applicable to financial audits contained in Government Auditing Standards, issued by the Comptroller
              General of the United States; and OMB Bulletin No. 07-04. Those standards and OMB Bulletin No. 07-04
              require that we plan and perform the audits to obtain reasonable assurance about whether the consolidated
              financial statements are free of material misstatement. An audit includes consideration of internal control
              over financial reporting as a basis for designing audit procedures that are appropriate in the circumstances,
              but not for the purpose of expressing an opinion on the effectiveness of the USPTO’s internal control over
              financial reporting. Accordingly, we express no such opinion.

              An audit also includes:

                   Examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
                    financial statements;
                   Assessing the accounting principles used and significant estimates made by management; and
                   Evaluating the overall consolidated financial statement presentation.
              We believe that our audits provide a reasonable basis for our opinion.

              In planning and performing our fiscal year 2011 audit, we considered the USPTO’s internal control over
              financial reporting by obtaining an understanding of the USPTO’s internal control, determining whether
              internal controls had been placed in operation, assessing control risk, and performing tests of controls as a
              basis for designing our auditing procedures for the purpose of expressing our opinion on the consolidated
              financial statements, but not for the purpose of expressing an opinion on the effectiveness of the USPTO’s
              internal control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of
              the USPTO’s internal control over financial reporting. We did not test all internal controls relevant to
              operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

              As part of obtaining reasonable assurance about whether the USPTO’s fiscal year 2011 consolidated
              financial statements are free of material misstatement, we performed tests of the USPTO’s compliance
              with certain provisions of laws, regulations, and contracts, noncompliance with which could have a direct
              and material effect on the determination of the consolidated financial statement amounts, and certain
              provisions of other laws and regulations specified in OMB Bulletin No. 07-04. We limited our tests of




108 	                                                           Performance and accountability Report: Fiscal Year 2011
                                                                                           I n d e p e n d e n t Au d i torS’ Report




            United States Patent and Trademark Office
            Independent Auditors’ Report
            November 4, 2011
            Page 4 of 5


            compliance to the provisions described in the preceding sentence, and we did not test compliance with all
            laws, regulations, and contracts applicable to the USPTO. However, providing an opinion on compliance
            with laws, regulations, and contracts was not an objective of our audit and, accordingly, we do not express
            such an opinion.

                                              ______________________________

            This report is intended solely for the information and use of the USPTO management, U.S. Department of
            Commerce management, the U.S. Department of Commerce Office of Inspector General and is not
            intended to be and should not be used by anyone other than these specified parties.




            November 4, 2011




www.uspto.gov	                                                                                                                109
In de pe nd ent Aud i to r S ’ R ep o r t




           United States Patent and Trademark Office
           Independent Auditors’ Report
           November 4, 2011
           Page 5 of 5

           Exhibit I – Status of Prior Year Significant Deficiency




                       Reported                            Prior Year                    Fiscal Year 2011
                        Issue                           Recommendation                        Status
            Financial Management Systems Need Improvement
            Weaknesses in general           The USPTO should monitor actions to ensure        Closed
            controls were identified in     effective implementation of our
            four FISCAM review areas.       recommendations.




110 	                                                        Performance and accountability Report: Fiscal Year 2011
Other Accompanying
Information
Inspector General’s Top
Management Challenges
Facing the USPTO


         E
             ach year, the Inspector General provides the management challenges for the
             DOC in accordance with the provisions of the Reports Consolidation Act of 2000
             (Pub. L. No. 106-531). The IG’s statement of management challenges can be
         found below.

         The USPTO is responsible for resolving several elements within the first Department-
         wide management challenge – Effectively Promote Exports, Stimulate Economic
         Growth, and Create Jobs. Reducing the patent application backlog, improving
         processing times, and effectively implementing patent reform will help to support
         the Departments’ overarching goals of advancing economic growth and promoting
         trade and job creation. Long waits for application decisions could negatively impact
         innovation, economic development, and job growth. An additional USPTO element is
         related to improving regulatory reviews to protect and promote public interests – the
         USPTO is responsible for incorporating cost-benefit analyses as a part of our patent
         and trademark regulatory process.

         The USPTO has begun taking action towards implementing initiatives to improve
         administrative and acquisition operational efficiencies, actions taken in line with
         the second Department-wide challenge to reduce costs and improve operations to
         optimize resources for a decade of constrained budgets.

         The USPTO is also responsible for strengthening and enhancing information
         technology security on its infrastructure in support of resolving the third Department-
         wide management challenge.

         In addition, improvements have been identified for long-term technical and acquisition
         planning of the PE2E project. PE2E is the largest, most complex multi-year IT investment
         USPTO has undertaken in several years. These improvements will help support the
         delivery of cost savings and efficiencies on major IT investments, a component of the
         overall Department-wide management challenge of managing acquisition and contract
         operations more effectively to obtain quality goods and services in a manner most
         beneficial to taxpayers.




112 	                         Performance and accountability Report: Fiscal Year 2011
                 Ot h e r Ac c o m pa n yi n g I n f ormati on




www.uspto.gov	                                           113
Other Acco mpany i ng I nf o r mat i o n




114 	                                      Performance and accountability Report: Fiscal Year 2011
                 Ot h e r Ac c o m pa n yi n g I n f ormati on




www.uspto.gov	                                           115
Other Acco mpany i ng I nf o r mat i o n




116 	                                      Performance and accountability Report: Fiscal Year 2011
                 Ot h e r Ac c o m pa n yi n g I n f ormati on




www.uspto.gov	                                           117
Other Acco mpany i ng I nf o r mat i o n




118 	                                      Performance and accountability Report: Fiscal Year 2011
                 Ot h e r Ac c o m pa n yi n g I n f ormati on




www.uspto.gov	                                           119
Other Acco mpany i ng I nf o r mat i o n




120 	                                      Performance and accountability Report: Fiscal Year 2011
                 Ot h e r Ac c o m pa n yi n g I n f ormati on




www.uspto.gov	                                           121
Other Acco mpany i ng I nf o r mat i o n




122 	                                      Performance and accountability Report: Fiscal Year 2011
                 Ot h e r Ac c o m pa n yi n g I n f ormati on




www.uspto.gov	                                           123
Other Acco mpany i ng I nf o r mat i o n




124 	                                      Performance and accountability Report: Fiscal Year 2011
                 Ot h e r Ac c o m pa n yi n g I n f ormati on




www.uspto.gov	                                           125
Other Acco mpany i ng I nf o r mat i o n




126 	                                      Performance and accountability Report: Fiscal Year 2011
                 Ot h e r Ac c o m pa n yi n g I n f ormati on




www.uspto.gov	                                           127
Other Acco mpany i ng I nf o r mat i o n




128 	                                      Performance and accountability Report: Fiscal Year 2011
                 Ot h e r Ac c o m pa n yi n g I n f ormati on




www.uspto.gov	                                           129
Other Acco mpany i ng I nf o r mat i o n




130 	                                      Performance and accountability Report: Fiscal Year 2011
                 Ot h e r Ac c o m pa n yi n g I n f ormati on




www.uspto.gov	                                           131
Other Acco mpany i ng I nf o r mat i o n




132 	                                      Performance and accountability Report: Fiscal Year 2011
                 Ot h e r Ac c o m pa n yi n g I n f ormati on




www.uspto.gov	                                           133
Other Acco mpany i ng I nf o r mat i o n




134 	                                      Performance and accountability Report: Fiscal Year 2011
                 Ot h e r Ac c o m pa n yi n g I n f ormati on




www.uspto.gov	                                           135
Other Acco mpany i ng I nf o r mat i o n




136 	                                      Performance and accountability Report: Fiscal Year 2011
                 Ot h e r Ac c o m pa n yi n g I n f ormati on




www.uspto.gov	                                           137
Other Acco mpany i ng I nf o r mat i o n




138 	                                      Performance and accountability Report: Fiscal Year 2011
                 Ot h e r Ac c o m pa n yi n g I n f ormati on




www.uspto.gov	                                           139
Other Acco mpany i ng I nf o r mat i o n




140 	                                      Performance and accountability Report: Fiscal Year 2011
                 Ot h e r Ac c o m pa n yi n g I n f ormati on




www.uspto.gov	                                           141
Other Acco mpany i ng I nf o r mat i o n




142 	                                      Performance and accountability Report: Fiscal Year 2011
                 Ot h e r Ac c o m pa n yi n g I n f ormati on




www.uspto.gov	                                           143
Other Acco mpany i ng I nf o r mat i o n




144 	                                      Performance and accountability Report: Fiscal Year 2011
                 Ot h e r Ac c o m pa n yi n g I n f ormati on




www.uspto.gov	                                           145
Other Acco mpany i ng I nf o r mat i o n




146 	                                      Performance and accountability Report: Fiscal Year 2011
                 Ot h e r Ac c o m pa n yi n g I n f ormati on




www.uspto.gov	                                           147
Other Acco mpany i ng I nf o r mat i o n




148 	                                      Performance and accountability Report: Fiscal Year 2011
                 Ot h e r Ac c o m pa n yi n g I n f ormati on




www.uspto.gov	                                           149
Other Acco mpany i ng I nf o r mat i o n




150 	                                      Performance and accountability Report: Fiscal Year 2011
Improper Payments Information
Act (IPIA) of 2002, as amended


I
   PIA of 2002, as amended by the Improper Payments Elimination and Recovery Act
   (IPERA) of 2010, requires agencies to annually estimate and report on improper
   payments and agency actions to reduce them to the President and Congress. A review
of all programs and activities that the USPTO administers is performed annually to assist in
identifying and reporting erroneous or improper payments. The USPTO has not identified
any significant problems with improper payments. However, the USPTO recognizes the
importance of maintaining adequate internal controls to ensure the accuracy and integrity
of payments made by the agency, and the USPTO maintains a strong commitment to
continuous improvement in the overall disbursement management process. The USPTO
has implemented procedures to detect and prevent improper payments. For FY 2012 and
beyond, the USPTO will continue its efforts to ensure the integrity of its disbursements.

The USPTO annually conducts an assessment of the effectiveness of internal control over
financial reporting, in compliance with OMB Circular A-123, Management’s Responsibility
for Internal Control. Furthermore, the FY 2010 assessment included a review of internal
controls over disbursement processes, which indicated that current internal controls over
disbursement processes are sound.

The USPTO completes an annual improper payments risk assessment covering all of its
programs/activities as required by OMB Circular A-123, Appendix C. These improper
payments risk assessments of the entity’s programs/activities also include assessments
of the corporate control and procurement environment. The improper payments program/
activity risk assessment has revealed no risk-susceptible programs.

The results of the USPTO assessments revealed no risk-susceptible programs, and
demonstrated that, overall, the USPTO has strong internal controls over disbursement
processes, the amount of improper payments by the USPTO is immaterial, and the risk
of improper payments is low. An estimated improper payment rate, accordingly, was
deemed not necessary.

During FY 2011, the USPTO did not have any erroneous payments that exceeded the ten
million dollar threshold. The USPTO continuously seeks to identify overpayments and
erroneous payments by reviewing (1) credit memos and refund checks issued by vendors
or customers and (2) undelivered electronic payments returned by financial institutions.

During FY 2008, the USPTO initiated an internal recovery audit program. Under this
program, a letter similar to that sent by our recovery audit contractor is sent to vendors
on a rotational basis. This program excludes grants, travel payment, purchase card
transactions, inter-agency agreements, government bills of lading, and gift and bequest
transactions. This program continued through FY 2011. There were no items identified
as recoverable.




 www.uspto.gov	                                                                                151
Other Acco mpany i ng I nf o r mat i o n




                  Improper Payment Reduction Outlook (Dollars in Millions)
                        FY 2010                       FY 2011                FY 2012     FY 2013       FY 2014
              Outlays   Improper Improper   Outlays   Improper   Improper    Estimated   Estimated     Estimated
                        Payment Payment               Payment    Payment      Outlays     Outlays       Outlays
  Program                Percent  Dollars              Percent    Dollars
 Patent       $	1,730    0.01%    $	0.02    $	1,886    0.00%     $	     –    $	2,410     $	2,496       $	2,712
 Trademark    	   178    0.01%    	   –     	 189      0.00%     		          	   242     	    250      	   272
                                                                 	 –
 Intellectual 	    45    0.01%    	   –     	   42     0.00%     		          	    54     	     56      	    61
 Property                                                        	 –
 Total        $	1,953    0.01%    $	0.02    $	2,117    0.00%     $	     –    $	2,706     $	2,802       $	3,045



During FY 2005, the USPTO entered into an agreement
                                                                       FY 2005 Summary of Recovery Audit Effort
with the DOC to use an existing contract for recovery
                                                                                             (Dollars in Millions)
audit services. The audit was limited to closed obligations
greater than $0.1 million. Further excluded were grants,              Amount subject to review                       $	 159.4
travel payments, purchase card transactions, inter-agency             # of invoices                                  	 4,433
agreements, government bills of lading, and gift and                  Actual amount reviewed                          $	 107.3
bequest transactions.                                                 # of invoices                                  	     985

The audit was completed in FY 2006 and resulted in three          In FY 2011, the USPTO continued its reporting procedures
invoices that were identified as recoverable improper             to senior management and to the DOC on improper
payments, which are statistically insignificant. The improper     payments, identifying the nature and magnitude of any
payments identified of $0.1 million were recovered during         improper payments, along with any necessary control
FY 2006. Accordingly, no recovery audit services were             enhancements to prevent further occurrences of the types
conducted from FY 2007 through FY 2011.                           of improper payments identified.




152 	                                                       Performance and accountability Report: Fiscal Year 2011
Summary of Financial Statement
Audit and Management Assurances

Table 1. – Summary of Financial Statement Audit
Audit Opinion                Unqualified
Restatement                  No
    Material Weaknesses          Beginning Balance        New          Resolved       Consolidated      Ending Balance
	    NONE                                0                 0               0               0                      0
Total Material Weaknesses                0                 0               0               0                      0

Table 2. – Summary of Management Assurances
                 Effectiveness of Internal Control over Financial Reporting (FMFIA § 2)
Statement of Assurance       Unqualified
    Material Weaknesses         Beginning Balance    New        Resolved    Consolidated   Reassessed     Ending Balance
	    NONE                               0             0            0              0             0                     0
Total Material Weaknesses               0             0            0              0             0                     0
                      Effectiveness of Internal Control over Operations (FMFIA § 2)
Statement of Assurance       Unqualified
    Material Weaknesses         Beginning Balance    New        Resolved    Consolidated   Reassessed     Ending Balance
	    NONE                               0             0            0              0             0                     0
Total Material Weaknesses               0             0            0              0             0                     0
            Conformance with Financial Management System Requirements (FMFIA § 4)
Statement of Assurance       Systems conform to financial management system requirements
    Non-Conformances            Beginning Balance    New        Resolved    Consolidated   Reassessed     Ending Balance
	    NONE                               0             0            0              0             0                     0
Total Non-Conformances                  0             0            0              0             0                     0
              Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                                       Agency                           Auditor
Overall Substantial Compliance                                             Yes                           Yes
1. System Requirements                                                     Yes                           Yes
2. Accounting Standards                                                    Yes                           Yes
3. USSGL at Transaction Level                                              Yes                           Yes




www.uspto.gov	                                                                                                            153
        The Nature of the Training
        Provided to USPTO Examiners


                A
                        chieving organizational excellence demands a high performance workforce
                        that delivers high quality work products and provides customer service
                        excellence. Training is a critical component in achieving consistently high
                quality products and services. Patent examiners and trademark examining attorneys
                received extensive legal, technical, and automation training in FY 2011. The USPTO
                has a comprehensive training program for new patent examiners and trademark
                examining attorneys, embedding a well-established curriculum including initial legal
                training, automation training, and training in examination practice and procedure.
                Automation training is provided to all examiners as new systems are deployed
                and existing systems are enhanced. New technology-specific legal and technical
                training was conducted throughout the examining operations. This specific training
                either focuses on practices particular to a technology or was developed to address
                training needs identified through patent and trademark examination reviews or staff
                requests.

                The USPTO training staff works with the Patent and Trademark organizations to
                address specific training concerns and serve as consultants to design specific internal
                programs to fit the education needs of each business unit. Training is reviewed and
                evaluated on an ongoing basis to ensure it is up-to-date and that coursework reflects
                developments and changes that have taken place in the industry. In FY 2011, the
                Agency was forced to reduce training opportunities in response to patent funding
                shortfalls.




                www.uspto.gov	                                                    154
154 	                                Performance and accountability Report: Fiscal Year 2011
                                                                                          Ot h e r Ac c o m pa n yi n g I n f ormati on




                                          PATENT EXAMINER TRAINING

  U.S. Patent Training              Training in the Academy
  Academy
                                    Two training programs: Intellectual Property Experienced Examiner Training and an
  –	 Mandatory training for first
                                    Entry Level Two-phase, a 12-month program.
  year examiners
                                    ■■   Intellectual Property Experienced Examiner Training Curriculum
                                         This training included enhanced instruction in automation, including classes in
                                         more than a dozen specialized applications used in patent examination, multiple
                                         search systems, databases and commonly used office applications, areas such
                                         as: Classification Systems, Searching (classification, text), Claim Interpretation,
                                         Advanced Text Searching, training on Technology Center (TC) Specific tools such
                                         as STN and Dialog, Writing an Effective Examiner’s Answer, Appeal Procedure
                                         and Practice (Appeal Conference and Pre-Conference; Prevent Administrative
                                         Remand).

                                    ■■   Entry Level Two-Phased 12-Month New Examiner Training Curriculum
                                         The legal and procedural training includes enhanced instruction in areas such
                                         as: Classification Systems, Searching (classification, text), Claim Interpretation,
                                         and Advanced Text Searching, Writing an Effective Examiner’s Answer, Appeal
                                         Procedure and Practice (Appeal Conference and Pre-Conference; Prevent
                                         Administrative Remand).

                                         Technical training includes: Introduction to examining applications in specific
                                         areas of technology, the current state of specific technologies, ongoing
                                         technology topics, etc.

                                         Automation training includes classes in more than a dozen specialized
                                         applications used in patent examination, multiple search systems, databases,
                                         and commonly-used office applications.

                                         Life skills training includes: time management, ethics training, stress
                                         management, balancing quality and production, professionalism, benefits and
                                         financial planning basics, balancing work and personal life, diversity training and
                                         negotiating conflict.

                                    Individual Development Plan

                                    The Academy training program includes creating an Individual Development
                                    Plan (IDP) for each examiner. The IDP is composed of formal training courses,
                                    development assignments, and on-the-job training. The IDP is designed to assist
                                    the examiner from day one, through the first 24 months of employment. When
                                    the examiner graduates from the Academy, and is transferred to a TC, the IDP will
                                    continue to enable the examiner to acquire the competencies essential to perform
                                    assigned duties and to prepare for further development.




www.uspto.gov	                                                                                                                    155
Other Acco mpany i ng I nf o r mat i o n




                                              PATENT EXAMINER TRAINING (Continued)

          Programs for all Examiners            Legal Practice and Procedure Training

                                                ■■   Examiner Refresher Training
                                                     Courses developed to enhance examiners’ knowledge and skills in procedural
                                                     and legal topics pertaining to patent examination. Participants may enroll in
                                                     one or more courses in consultation with their supervisor.

                                                ■■   Legal Lecture Series
                                                     Training offered periodically to examiners based on major court decisions and
                                                     office policies.

                                                ■■   In-House Patent Law and Evidence Course
                                                     Training for Examiners on authoritative court decisions on statutory issues
                                                     under 35 U.S.C. §§ 101, 102, 103, and 112 and the handling of evidence
                                                     during the examination of applications.

                                                ■■   Negotiating in the Patent Examination Process
                                                     An interactive lecture and workshop designed to teach the fundamentals of
                                                     negotiating issues which arise during the patent examination process utilizing
                                                     effective collaborative communication skills.

                                                ■■   Continuing Education Series
                                                     Training for patent examiners to enhance their technical and legal knowledge
                                                     in the examination of patent applications.

                                                     Courses Offered:
                                                     ■■ Non-Duty Hours Legal Studies Program (Budget Dependent)*
                                                     ■■ Non-Duty Hours Technical Training Program (Budget Dependent)*
                                                     ■■ Examiner Education Program (Budget Dependent)*
                                                     ■■ Technology Center Specific Technological Training (Budget Dependent)*
                                                     ■■ Updated Automation Tools Training (in coordination with Office
                                                        of Patent Information Management)
                                                     ■■ Brown Bag Informational Seminars
                                                     ■■ Patent Administrative Professional Training
                                                     ■■ Patent Examiner’s Initial Training for Non-Examiners
                                                     ■■ Legal Secretaries and Administrators Conference


          *	   These programs remained suspended during FY 2011 due to budget constraints.




156 	                                                            Performance and accountability Report: Fiscal Year 2011
                                                                                      Ot h e r Ac c o m pa n yi n g I n f ormati on




                                   TRADEMARK EXAMINING ATTORNEY TRAINING

     In FY 2011 the Trademark organization prepared, using data gathered from the results of quality reviews that were
     analyzed, the content of on-line e-learning training materials for trademark examining attorneys. Live and Web cast
     Training Sessions and Modules were developed and released covering the following list of topics.

          ■■   Trademark Manual of Examining Procedures (TMEP) Seventh Edition – Training
          ■■   American Intellectual Property Law Association Legal Lecture – Ethics in Trademark Prosecution
          ■■   Section 2(f) Training
          ■■   Review of Recent Federal Court Cases Regarding Trademarks, Trade Dress, and Dilution
          ■■   Industry training on trademark issues in the Communications industry sponsored by the International Trademark
               Association
          ■■   Model/Grade Exam Guide Training
          ■■   Examiner-Led Degree of Stylization Workshop

     Law Office Presentations and Computer-Based Training (CBT) Modules were developed and released covering the
     following list of topics.

          ■■ TMEP Seventh Edition – Highlights CBT
          ■■ Class 16 Examining Marks Used on Publications
          ■■ Section 2(f) CBT


     Two Exam Guides and One Exam Note was published:

          ■■ Examination Note 11-01 – Suspending Action on Section 44(d) Applications
          ■■ Examination Guide 1-11 – Section 2(a) Deceptiveness for Class 5 Goods
          ■■ Examination Note 11-02 – Life After a Non-final Action: An Examination Processing Guide
          ■■ Examination Guide 2-11 – Examination Procedures for Marks with Model and Grade Designations
          ■■ Examination Note 11-03 – TEAS Applications with Matter Other than an Individual Attorney Name in the
             Attorney “Name” Field

     Other Guidance covering the following topics was also published and released.

          ■■   TMEP Seventh Edition
          ■■   TMEP Seventh Edition – Additional Training Materials
          ■■   TMEP Seventh Edition – Follow-up Questions & Answers
          ■■   Transcript of TMEP Seventh Edition Highlights CBT
          ■■   Highlights for TMEP Seventh Edition
          ■■   Section 2(f) CBT – Follow-Up Questions & Answers
          ■■   Section 2(a) Deceptiveness – Follow-Up Questions & Answers
          ■■   Trade Dress Training – Follow-Up Questions & Answers
          ■■   Conditional Functionality Refusal – Excellent First Action
          ■■   Identification of Goods and Services Requirement Writing and Samples




www.uspto.gov	                                                                                                                 157
        FY 2011 USPTO Workload Tables


                Index of Tables                                                                       Page
                Table 1     Summary of Patent Examining Activities                                     159
                Table 2     Patent Applications Filed                                                  160
                Table 3     Patent Applications Pending Prior to Allowance                             161
                Table 4     Patent Pendency Statistics                                                 162
                Table 5     Summary of Total Pending Patent Applications                               162
                Table 6     Patents Issued                                                             163
                Table 7     Patent Applications Filed by Residents of the United States                164
                Table 8     Patents Issued to Residents of the United States                           165
                Table 9     United States Patent Applications Filed by Residents of Foreign Countries 166
                Table 10    Patents Issued by the United States to Residents of Foreign Countries      168
                Table 11    Utility Patents Issued to Small Entities                                   169
                Table 12    Statutory Invention Registrations Published                                170
                Table 13    United States Government Agency Patents                                    170
                Table 14A Ex Parte Reexamination                                                       171
                Table 14B Inter Partes Reexamination                                                   171
                Table 15    Summary of Contested Patent Cases                                          172
                Table 16    Summary of Trademark Examining Activities                                  173
                Table 17    Trademark Applications Filed for Registration and Renewal and Trademark 174
                            Affidavits Filed
                Table 18    Summary of Pending Trademark Applications                                  175
                Table 19    Trademarks Registered, Renewed, and Published Under Section 12(C)          176
                Table 20    Trademark Applications Filed by Residents of the United States             177
                Table 21    Trademarks Registered to Residents of the United States                    178
                Table 22    Trademark Applications Filed by Residents of Foreign Countries             179
                Table 23    Trademarks Registered to Residents of Foreign Countries                    181
                Table 24    Summary of Contested Trademark Cases                                       183
                Table 25    Actions on Petitions to the Director of the U.S. Patent and Trademark      184
                            Office
                Table 26    Cases in Litigation                                                        185
                Table 27    Patent Classification Activity                                             186
                Table 28    Scientific and Technical Information Center Activity                       186
                Table 29    End of Year Personnel                                                      187
                Table 30A Top 50 Trademark Applicants                                                  188
                Table 30B Top 50 Trademark Registrants                                                 188




158 	                                Performance and accountability Report: Fiscal Year 2011
                                                                                                      Ot h e r Ac c o m pa n yi n g I n f ormati on




                                              SUMMARY OF PATENT EXAMINING ACTIVITIES
       TA B L E 1
                                                       (FY 2007 - FY 2011)
                                                          (PRELIMINARY FOR FY 2011) 1
  Patent Examining Activity                                                           2007          2008          2009          2010           2011

  Applications filed, total1,2                                                       468,330       496,886       486,499       510,060       536,604
  	    Utility3                                                                      439,578       466,258       458,901       479,332       504,089
  	    Reissue                                                                         1,057         1,080         1,035         1,138         1,139
  	    Plant                                                                           1,002         1,331           988         1,013         1,106
  	    Design                                                                         26,693        28,217        25,575        28,577        30,270
  Provisional applications filed2,4                                                  132,459       143,034       134,438       140,561       150,173

  First actions
  	    Design                                                                         29,029        28,756        27,858        26,051        25,042
  	    Utility, Plant, and Reissue                                                   367,953       422,065       469,946       447,485       505,651
  	    PCT/Chapter                                                                    24,741        51,300        20,797        15,574        13,297
  Patent application disposals, total                                                362,227       396,228       487,140       553,549       533,943

  Allowed patent applications, total                                                 195,530       187,607       214,523       264,119       266,580
  	    Design                                                                         25,747        24,735        25,403        23,681        22,683
  	    Utility, Plant, and Reissue                                                   169,783       162,872       189,120       240,438       243,897
  Abandoned, total                                                                   166,690       208,610       272,607       289,419       267,353
  	    Design                                                                          2,661         2,936         3,840         3,101         2,701
  	    Utility, Plant, and Reissue                                                   164,029       205,674       268,767       286,318       264,652
  Statutory invention registration disposals, total                                          7            11            10            11               10

  PCT/Chapter II examinations completed                                                 5,336         2,937         3,468         2,265         3,191
  Applications     published5                                                        302,678       309,194       325,988       338,452       321,115
  Patents    issued2,6                                                               184,376       182,556       190,122       233,127       244,430
  	    Utility                                                                       160,306       154,699       165,213       207,915       221,350
  	    Reissue                                                                           548           662           398           861           969
  	    Plant                                                                             979         1,179         1,096           978           816
  	    Design                                                                         22,543        26,016        23,415        23,373        21,295
  Pendency time of average patent application7                                          31.9          32.2          34.6          35.3          33.7
  Reexamination certificates issued                                                      367           575           698           776           909
  PCT international applications received by USPTO as receiving office                54,214        54,488        47,572        45,701        48,285
  National requirements received by USPTO as designated/elected office                52,339        57,345        57,879        61,587        65,463
  Patents renewed under Pub. L. No. 102-204 8                                        343,894       353,923       304,096       361,668       378,830
  Patents expired under Pub. L. No. 102-204 8                                         67,122        67,127        66,330        79,993        82,146

 1	   FY 2011 filing data are preliminary and will be finalized in the FY 2012 PAR.
 2	   FY 2010 application data has been updated with final end of year numbers.
 3	   Utility patents include chemical, electrical and mechanical applications.
 4	   Provisional applications provided for in Pub. L. No. 103-465.
 5	   Eighteen-month publication of patent applications provided for in the AIPA of 1999, Pub. L. No.106-113.
 6	   Excludes withdrawn numbers. Past years’ data may have been revised from prior year reports.
 7	   Average time (in months) between filing and issuance or abandonment of utility, plant, and reissue applications. This average does not include
      design patents.	
 8	   The provisions of Pub. L. No.102-204 regarding the renewal of patents superseded Pub. L. No. 96-517 and Pub. L. No. 97-247.




www.uspto.gov	                                                                                                                                          159
Other Acco mpany i ng I nf o r mat i o n




                                                           PATENT APPLICATIONS FILED
               TA B L E 2
                                                               (FY 1991 - FY 2011)
                                                          (PRELIMINARY FOR FY 2011) 1
                  Year                  Utility                Design                  Plant     Reissue          Total

                  1991                166,765                 10,368                    414        536          178,083
                  1992                171,623                 12,907                    335        581          185,446
                  1993                173,619                 13,546                    362        572          188,099
                  1994                185,087                 15,431                    430        606          201,554
                  1995                220,141                 15,375                    516        647          236,679
                  1996                189,922                 15,160                    557        637          206,276
                  1997                219,486                 16,272                    680        607          237,045
                  1998                238,850                 16,576                    658        582          256,666
                  1999                259,618                 17,227                    759        664          278,268
                  2000                291,653                 18,563                    786        805          311,807
                  2001                324,211                 18,636                    914        956          344,717
                  2002                331,580                 19,706                   1,134       974          353,394
                  2003                331,729                 21,966                    785        938          355,418
                  2004                353,319                 23,457                   1,212       996          378,984
                  2005                381,797                 25,304                   1,288      1,143         409,532
                  2006                417,453                 25,853                   1,204      1,103         445,613
                  2007                439,578                 26,693                   1,002      1,057         468,330
                  2008                466,258                 28,217                   1,331      1,080         496,886
                  2009                458,901                 25,575                    988       1,035         486,499
                  20102               479,332                 28,577                   1,013      1,138         510,060
                  20111               504,089                 30,270                   1,106      1,139         536,604

         1	   FY 2011 data are preliminary and will be finalized in the FY 2012 PAR.
         2	   FY 2010 application data has been updated with final end of year numbers.




160 	                                                                  Performance and accountability Report: Fiscal Year 2011
                                                                                                      Ot h e r Ac c o m pa n yi n g I n f ormati on




                               PATENT APPLICATIONS PENDING PRIOR TO ALLOWANCE 1
       TA B L E 3
                                               (FY 1991 - FY 2011)
                      Year                           Awaiting Action by Examiner                     Total Applications Pending2

                      1991                                        104,086                                          254,507
                      1992                                        112,201                                          269,596
                      1993                                          99,904                                         244,646
                      1994                                        107,824                                          261,249
                      1995                                        124,275                                          298,522
                      1996                                        139,943                                          303,720
                      1997                                        112,430                                          275,295
                      1998                                        224,446                                          379,484
                      1999                                        243,207                                          414,837
                      2000                                        308,056                                          485,129
                      2001                                        355,779                                          542,007
                      2002                                        433,691                                          636,530
                      2003                                        471,382                                          674,691
                      2004                                        528,685                                          756,604
                      2005                                        611,114                                          885,002
                      2006                                        701,147                                       1,003,884
                      2007                                        760,924                                       1,112,517
                      2008                                        771,529                                       1,208,076
                      2009                                        735,961                                       1,207,794
                      2010                                        726,331                                       1,163,751
                      2011                                        690,967                                       1,168,928

 1	   Includes patent applications pending at end of period indicated, and includes utility, reissue, plant, and design applications. Does
      not include allowed applications.
 2	   Applications under examination, including those in preexamination processing.




www.uspto.gov	                                                                                                                                161
Other Acco mpany i ng I nf o r mat i o n




                                                           PATENT PENDENCY STATISTICS
               TA B L E 4
                                                                    (FY 2011)
                                                                                         Average First Action          Total Average
         UPR Pendency Statistics by Technology Center (in months)                            Pendency                    Pendency

         Total UPR Pendency                                                                          28.0                  33.7
         Tech Center 1600 - Biotechnology & Organic Chemistry                                        23.8                  33.6
         Tech Center 1700 - Chemical and Materials Engineering                                       26.0                  34.6
         Tech Center 2100 - Computer Architecture, Software & Information
         Security                                                                                    30.9                  39.6
         Tech Center 2400 - Networks, Multiplexing, Cable & Security                                 33.6                  40.7
         Tech Center 2600 - Communications                                                           31.4                  40.8
         Tech Center 2800 - Semiconductor, Electrical, Optical Systems &
         Components                                                                                  26.5                  29.3
         Tech Center 3600 - Transportation, Construction, Agriculture &
         Electronic Commerce                                                                         26.0                  33.6
         Tech Center 3700 - Mechanical Engineering, Manufacturing &
         Products                                                                                    29.6                  37.4



                                          SUMMARY OF TOTAL PENDING PATENT APPLICATIONS
               TA B L E 5
                                                                          (FY 2011)
                                                                                Utility, Plant and
                                                                                      Reissue             Design         Total Patent
         Stage of Processing                                                     Applications           Applications     Applications

         Pending patent applications, total                                        1,217,134                33,057         1,250,191

         In preexamination processing, total                                           82,176                3,597            85,773

         Under examination, total                                                  1,059,365                23,047         1,082,412
         	    Undocketed                                                              151,113                5,000           156,113
         	    Awaiting first action by examiner                                       436,336               12,745           449,081
         	    Subtotal applications awaiting first action by examiner3                669,625               21,342           690,967
         	    Rejected, awaiting response by applicant                                284,323                4,318           288,641
         	    Amended, awaiting action by examiner                                    143,911                 868            144,779
         	    In interference                                                           2,073                  16              2,089
         	    On appeal, and other1                                                    41,609                 100             41,709

         In post-examination processing, total                                         75,593                6,413            82,006
         	    Awaiting issue fee                                                       50,347                4,476            54,823
         	    Awaiting   printing2                                                     22,005                1,936            23,941
         	    D-10s (secret cases in condition for allowance)                           3,241                   1              3,242

         1	   Includes cases on appeal and undergoing petitions.
         2	   Includes withdrawn cases.
         3	   Subtotal is not included in pending patent applications total.




162 	                                                                   Performance and accountability Report: Fiscal Year 2011
                                                                                Ot h e r Ac c o m pa n yi n g I n f ormati on




                                                          PATENTS ISSUED
       TA B L E 6
                                                        (FY 1991 - FY 2011) 1
          Year                  Utility2               Design           Plant   Reissue               Total

          1991                  91,819                  9,387            318       334              101,858
          1992                  99,406                  9,612            336       375              109,729
          1993                  96,675                  9,946            408       302              107,331
          1994                101,270                  11,138            513       346              113,267
          1995                101,895                  11,662            390       294              114,241
          1996                104,900                  11,346            338       291              116,875
          1997                111,977                  10,331            400       267              122,975
          1998                139,297                  14,419            577       284              154,577
          1999                142,852                  15,480            436       393              159,161
          2000                164,486                  16,718            453       561              182,218
          2001                169,571                  17,179            563       504              187,817
          2002                160,838                  15,096            912       465              177,311
          2003                171,493                  16,525           1,178      394              189,590
          2004                169,295                  16,533            998       343              187,169
          2005                151,077                  13,395            816       195              165,483
          2006                162,509                  19,072           1,106      500              183,187
          2007                160,306                  22,543            979       548              184,376
          2008                154,699                  26,016           1,179      662              182,556
          2009                165,213                  23,415           1,096      398              190,122
          2010                207,915                  23,373            978       861              233,127
          2011                221,350                  21,295            816       969              244,430

 1	   Past years’ data may have been revised from prior year reports.
 2	   Includes chemical, electrical, and mechanical applications.




www.uspto.gov	                                                                                                          163
Other Acco mpany i ng I nf o r mat i o n




                                   PATENT APPLICATIONS FILED BY RESIDENTS OF THE UNITED STATES 1
      TA B L E 7
                                                    (FY 2007 - FY 2011) 2
State/Territory          2007       2008          2009     20102      20113     State/Territory   2007       2008        2009       20102   20113

Total                   247,898 257,818 246,777 254,895               N/A       Nebraska            689        592         504        600    N/A
                                                                                Nevada             1,629      1,996       1,680     1,785    N/A
Alabama                      886        996         912       977      N/A      New Hampshire      1,450      1,564       1,510     1,547    N/A
Alaska                        82         88          95        85      N/A      New Jersey         8,649      9,428       9,622     9,861    N/A
Arizona                   4,486      4,460         3,927    4,024      N/A      New Mexico          960        857         814        863    N/A
Arkansas                     406        420         418       456      N/A      New York          15,518     16,838      15,098 15,279       N/A
California               63,027     66,370        66,132   66,287      N/A      North Carolina     5,841      7,008       5,803     6,053    N/A
Colorado                  4,918      4,898         5,019    5,244      N/A      North Dakota        218        178         207        168    N/A
Connecticut               4,281      4,326         4,009    4,229      N/A      Ohio               8,104      7,791       7,528     8,139    N/A
Delaware                     954        922         904       993      N/A      Oklahoma           1,129      1,048       1,052     1,138    N/A
District of                  250        262         261       261      N/A      Oregon             4,841      4,487       3,911     4,203    N/A
Columbia                                                                        Pennsylvania       7,811      7,951       7,568     8,068    N/A
Florida                   8,184      8,480         7,839    8,624      N/A      Rhode Island        716        740         666        739    N/A
Georgia                   4,818      4,946         5,051    5,214      N/A      South Carolina     1,506      1,585       1,596     1,669    N/A
Hawaii                       294        300         293       267      N/A      South Dakota        198        193         220        224    N/A
Idaho                     2,495      1,905         1,544    1,635      N/A      Tennessee          2,320      2,010       2,034     2,287    N/A
Illinois                  9,323      9,340         8,985    9,278      N/A      Texas             15,886     17,339      15,667 16,568       N/A
Indiana                   3,178      3,345         3,181    3,515      N/A      Utah               2,391      2,516       2,594     2,782    N/A
Iowa                      1,490      1,641         1,481    1,581      N/A      Vermont            1,001      1,309        616        679    N/A
Kansas                    1,475      1,587         1,671    1,678      N/A      Virginia           3,554      3,532       3,402     3,582    N/A
Kentucky                  1,129      1,215         1,132    1,124      N/A      Washington        11,163     12,602      12,619 12,815       N/A
Louisiana                    838        709         795       882      N/A      West Virginia       294        274         300        292    N/A
Maine                        415        411         344       415      N/A      Wisconsin          4,631      4,341       4,054     3,991    N/A
Maryland                  3,840      3,694         3,503    3,551      N/A      Wyoming             198        183         158        198    N/A
Massachusetts            11,218     11,534        11,417   12,376      N/A      Puerto Rico          70         70          82         67    N/A
Michigan                  8,249      8,447         7,881    7,834      N/A      Virgin Islands       10         10          11         13    N/A
Minnesota                 7,997      8,164         7,805    7,852      N/A      U.S. Pacific             3           -          1       1    N/A
Mississippi                  329        320         337       338      N/A        Islands4
Missouri                  2,273      2,335         2,285    2,314      N/A      United States5           2          3           -       1    N/A
Montana                      281        258         239       249      N/A

-	   Represents zero.
1	   Data include utility, plant, design, and reissue applications.
2	   Finalized data for FY 2007 to 2010 provided.
3	   FY 2011 preliminary data should be available January 2012 at www.uspto.gov, and finalized in the FY 2012 PAR.
4	   Represents residents of American Samoa, Guam, and miscellaneous U.S. Pacific Islands.
5	   State/Territory information not available.




164 	                                                                        Performance and accountability Report: Fiscal Year 2011
                                                                                                  Ot h e r Ac c o m pa n yi n g I n f ormati on




                                      PATENTS ISSUED TO RESIDENTS OF THE UNITED STATES 1
       TA B L E 8
                                                  (FY 2010 - FY 2011) 5
 State/Territory                         20104              2011        State/Territory                    20104           2011

 Total                                  115,864           120,178       Nebraska                              235            258
                                                                        Nevada                                612            640
 Alabama                                     492                  460   New Hampshire                         780            793
 Alaska                                       43                   30   New Jersey                          4,164           4,309
 Arizona                                  2,080              2,193      New Mexico                            449            414
 Arkansas                                    210                  205   New York                            7,383           8,026
 California                              28,560             30,397      North Carolina                      2,810           2,908
 Colorado                                 2,380              2,397      North Dakota                          118              80
 Connecticut                              2,024              2,112      Ohio                                3,837           3,850
 Delaware                                    399                  399   Oklahoma                              551            556
 District of Columbia                         85                  103   Oregon                              2,288           2,278
 Florida                                  3,585              3,730      Pennsylvania                        3,689           3,702
 Georgia                                  2,108              2,162      Rhode Island                          340            363
 Hawaii                                      119                  147   South Carolina                        613            748
 Idaho                                    1,125              1,098      South Dakota                           76            108
 Illinois                                 4,237              4,453      Tennessee                             975           1,083
 Indiana                                  1,592              1,600      Texas                               7,618           8,054
 Iowa                                        789                  832   Utah                                1,119           1,117
 Kansas                                      687                  752   Vermont                               618            599
 Kentucky                                    606                  530   Virginia                            1,627           1,731
 Louisiana                                   383                  341   Washington                          5,884           5,227
 Maine                                       196                  213   West Virginia                         131            104
 Maryland                                 1,615              1,674      Wisconsin                           2,170           2,127
 Massachusetts                            5,003              5,466      Wyoming                                79              92
 Michigan                                 4,194              4,202      Puerto Rico                            26              26
 Minnesota                                3,773              4,172      Virgin Islands                          3                 3
 Mississippi                                 180                  166   U.S. Pacific   Islands2                 1     	           -
 Missouri                                 1,110              1,013      United States3                          2                 1
 Montana                                      91                  134

 -	   Represents zero.
 1	   Data include utility, design, plant, and reissue patents.
 2	   Represents residents of American Samoa, Guam, and miscellaneous U.S. Pacific Islands.
 3	   No State indicated in database.
 4	   Finalized data for FY 2010 provided.
 5	   Past year’s data may have been revised from prior year reports.




www.uspto.gov	                                                                                                                            165
Other Acco mpany i ng I nf o r mat i o n




                     	UNITED STATES PATENT APPLICATIONS FILED BY RESIDENTS OF FOREIGN COUNTRIES 1
    TA B L E 9
                     	                      (FY 2007 - FY 2011)
Residence           2007       2008      2009      20102     20113     Residence                 2007      2008      2009      20102     20113
Total               220,432 239,068 239,722 255,165          N/A       Denmark                    1,232     1,654     1,783     1,852     N/A
                                                                       Dominican Republic             7         9         5         7     N/A
Afghanistan                -         -        1         1     N/A      Ecuador                        5         5         9         5     N/A
Albania                    -         -        1          -    N/A      Egypt                         33        53        33        55     N/A
Algeria                   3         1          -        1     N/A      El Salvador                    3          -        1         1     N/A
Andorra                   5         8         5         4     N/A      Estonia                       18        35        36        52     N/A
Anguilla                   -         -        3          -    N/A      Ethiopia                       1          -         -        1     N/A
Antigua & Barbuda         2         1         1         2     N/A      Faroe Islands4                  -         -         -        1     N/A
Argentina               166       139       151       141     N/A      Fiji                            -         -        1          -    N/A
Armenia                   3         9         2         8     N/A      Finland                    2,517     2,782     2,793     2,908     N/A
Australia             3,612     4,194     4,211     4,111     N/A      France                     8,204     9,281     9,726    10,641     N/A
Austria               1,417     1,785     1,713     1,872     N/A      Georgia                       14         5         2         5     N/A
Azerbaijan                1         1         3         5     N/A      Germany                   23,535    26,331    26,855    28,157     N/A
Bahamas                  13        20        16        15     N/A      Ghana                          3         1         3         2     N/A
Bahrain                   1          -        2         5     N/A      Gibraltar                      3         3         7         7     N/A
Bangladesh                 -        1          -        2     N/A      Greece                        86       128       118       138     N/A
Barbados                  6         7         6         8     N/A      Greenland                      3         4          -         -    N/A
Belarus                  15        11         7        11     N/A      Guatemala                      3         2         2         8     N/A
Belgium               1,700     1,748     1,917     2,186     N/A      Guinea                          -         -        1          -    N/A
Belize                     -        4         1          -    N/A      Haiti                          1          -         -        1     N/A
Benin                      -        1          -         -    N/A      Honduras                       1         1         1         1     N/A
Bermuda                   4         8         8         5     N/A      Hungary                      193       203       234       251     N/A
Bolivia                   2         3         4         1     N/A      Iceland                       37        41        49        52     N/A
Bosnia &                  3         6          -        1     N/A      India                      2,280     2,869     2,878     3,696     N/A
  Herzegovina
Brazil                  385       499       497       584     N/A      Indonesia                     37        25        19        27     N/A
British Virgin           11        10        11         3     N/A      Iran                          18        28        29        67     N/A
  Islands
Brunei Darussalam         1          -        1         1     N/A      Iraq                            -        1         1          -    N/A
Bulgaria                 49        83       114        89     N/A      Ireland                      561       740       711       785     N/A
Burkina Faso              1          -         -         -    N/A      Isle of Man4                    -         -         -        2     N/A
Burundi                    -        1          -         -             Israel                     4,114     4,916     4,772     5,119     N/A
Cameroon                  3         1         9         5     N/A      Italy                      3,832     4,273     4,460     4,576     N/A
Canada               10,788    11,436    11,250    12,203     N/A      Jamaica                        4        12        11         3     N/A
Cayman Islands            4         6        10        25     N/A      Japan                     79,725    84,473    86,456    84,842     N/A
Chile                   105        63        65        68     N/A      Jersey4                         -         -         -        9     N/A
China (Hong Kong)     1,447     1,419     1,254     1,267     N/A      Jordan                        12         8        14         5     N/A
China (Macau)             3         5         5         7     N/A      Kazakhstan                     1         2         3         8     N/A
China (People's       4,422     5,148     5,301     8,358     N/A      Kenya                          9         4         4         2     N/A
  Republic)                                                            Korea, Dem. Republic of        1         2         1          -    N/A
Colombia                 27        35        28        53     N/A      Korea, Republic of        23,589    25,507    24,066    26,648     N/A
Costa Rica               33        20        18        28     N/A      Kuwait                        25        18        39        49     N/A
Croatia                  32        39        35        31     N/A      Latvia                        10         6        15        19     N/A
Cuba                     16        38        23        26     N/A      Lebanon                       12        11        17         8     N/A
Cyprus                    5         8        12        18     N/A      Libya                           -         -        1          -    N/A
Czech Republic          129       180       245       279     N/A      Liechtenstein                 26        35        42        40     N/A




166 	                                                                Performance and accountability Report: Fiscal Year 2011
                                                                                                       Ot h e r Ac c o m pa n yi n g I n f ormati on




       TA B L E 9       UNITED STATES PATENT APPLICATIONS FILED BY RESIDENTS OF FOREIGN COUNTRIES1
        C O N T.          	                     (FY 2007 - FY 2011)

 Residence                  2007       2008       2009 20102         20113     Residence                      2007       2008       2009 20102        20113
 Lithuania                      11        13         13        13     N/A      San Marino                          1       -     3      1              N/A
 Luxembourg                    118       102         94        92     N/A      Saudi Arabia                       69     90    153    267              N/A
 Macedonia                       1          -         2          -    N/A      Serbia                             12     16      5     27              N/A
 Madagascar                      1          -          -         -    N/A      Seychelles                           -     1      1      1              N/A
 Malaysia                      378       326        325       387     N/A      Singapore                       1,192 1,376 1,278    1,490              N/A
 Malta                           5        10         11        10     N/A      Slovakia                           32     36     30     42              N/A
 Mauritius                       2         1           -        1     N/A      Slovenia                           53     71     69    111              N/A
 Mexico                        216       269        244       316     N/A      South Africa                      280    319    323    356              N/A
 Moldova                         1         1          1         1     N/A      Spain                           1,080 1,294 1,224    1,470              N/A
 Monaco                         15        16         21        21     N/A      Sri Lanka                           9     16     12     14              N/A
 Morocco                         2        11          6         4     N/A      Sweden                          3,132 3,508 3,610    3,906              N/A
 Namibia                          -        1           -         -    N/A      Switzerland                     3,138 3,681 3,714    4,168              N/A
 Nepal                            -         -         2          -    N/A      Syria Arab Rep                       -     1      2       -             N/A
 Netherlands                 4,249     4,240      4,510     4,639     N/A      Taiwan                         20,447 19,733 17,974 21,282              N/A
 Netherlands                     1         1          4         1     N/A      Thailand                          111    127    116    111              N/A
   Antilles                                                                    Trinidad & Tobago                   4      6      8     12              N/A
 New Zealand                   474       580         579      658     N/A      Tunisia                             7      9      5      5              N/A
 Niger4                           -         -           -       1     N/A      Turkey                             86    103    113    142              N/A
 Nigeria                         5         1           2        7     N/A      Turkmenistan                         -      -     1       -             N/A
 Norway                        662       856         871    1,024     N/A      Turks and Caicos Islands            5      2      1      2              N/A
 Oman                            2         5           4        7     N/A      Ukraine                            35     46     61     67              N/A
 Pakistan                       10        21           7       20     N/A      United Arab Emirates               22     30     54     45              N/A
 Panama                          7        12           6        3     N/A      United Kingdom                  9,185 10,795 11,205 11,852              N/A
 Paraguay                         -        1            -        -    N/A      Uruguay                             8     13     27     16              N/A
 Peru                            9         9           5        8     N/A      Uzbekistan                           -      -     1       -             N/A
 Philippines                    87        72          61       84     N/A      Vanuatu (New Hebrides)               -     4       -     2              N/A
 Poland                        104       122         150      178     N/A      Venezuela                          37     27     32     35              N/A
 Portugal                       66        91          87      113     N/A      Vietnam                             3     13      4     10              N/A
 Qatar                            4           -        4        2     N/A      West Bank/Gaza                        -          -       -        1     N/A
 Romania                        39        47          58       64     N/A      Zimbabwe                             3        2         2          -   N/A
 Russian Federation            443       531         498     600      N/A      Other5                                -          -       -         -   N/A
 Samoa                             -        4          1        2     N/A
 -	   Represents zero.	
 1	   Data include utility, design, plant, and reissue applications. Country listings include possessions and territories of that country unless listed
      separately in the table. Data are subject to minor revisions.
 2	   FY 2010 data are updated and final.
 3 	 FY   2011 preliminary data should be available in January 2012 at www.uspto.gov, and finalized in the FY 2012 PAR.
 4	   Countries/Territories not previously reported.
 5	   Country of origin information not available.




www.uspto.gov	                                                                                                                                        167
   Other Acco mpany i ng I nf o r mat i o n




                              PATENTS ISSUED BY THE UNITED STATES TO RESIDENTS OF FOREIGN COUNTRIES1,3
  TA B L E 1 0
                                                        (FY 2007 - FY 2011) 2
Residence                2007      2008     2009     2010     2011      Residence            2007     2008    2009   2010    2011
Total                    89,760 90,713 96,395 117,263 124,252          El Salvador                -      -      -        1      -
                                                                       Estonia                   10      2      4      11      14
Albania4                       -        -        -        -       1    Ethiopia                   1      -      -         -     -
Algeria                        -        -        -       1         -   Fiji                       1      -      -         -     -
Andorra                       1        1        2        8        4    Finland                  967    894    974 1,223     1,030
Anguilla                      1         -       1         -       1    France                 3,757 3,683 3,836 4,835       5,024
Antigua and Barbuda            -       1         -       1         -   French Polynesia           1      -      1       -       -
Argentina                    52       46       47       60       49    Gabon                      1      -      -       -       -
Armenia                       1        1        1        2        4    Georgia                    7      3      1      2        2
Australia                 1,493    1,485    1,717    1,940    2,213    Germany               10,256 9,794 10,279 12,916 13,021
Austria                     553      572      729      850      916    Ghana                      1      -      -      1        1
Azerbaijan                    2        2         -        -       1    Gibralter                  1      3      1       -       3
Bahamas                       3        5        6        9       12    Greece                    26     25     26     59       57
Bahrain                        -        -        -       1         -   Greenland                  -      -      3       -       -
Bangladesh                     -       1         -        -        -   Guatemala                  -      4      1      2        -
Barbados                      2        2        3        2        2    Honduras                   2      -      -       -       1
Belarus                       7        8        6        7        4    Hungary                   55     68     53     92      103
Belgium                     629      602      677      853      945    Iceland                   20     23     26     22       27
Belize                         -        -       1         -        -   India                    560    650    678 1,076     1,195
Benin                         1         -        -        -        -   Indonesia                 16     21     20      5       10
Bermuda                       6        1         -       2        5    Iran                       4      3      6      7       15
Bolivia                        -       1         -       1        1    Iraq                       -      1      -       -       -
Bosnia and Herzegovina         -        -       2         -        -   Ireland                  174    174    180    259      313
Brazil                      112      131      146      209      232    Israel                 1,218 1,322 1,426 1,828       2,054
British Virgin Islands        1        1        4         -       1    Italy                  1,791 1,890 1,842 2,150       2,322
Brunei Darussalam              -        -       1         -       1    Jamaica                    1      2      4      4        2
Bulgaria                      3       18       31       57       45    Japan                 36,658 35,847 37,879 44,893 47,674
Burkina Faso                   -        -       1         -        -   Jordan                     1      1      1       -       4
Cameroon                      1         -       1        4         -   Kazakhstan                 3      -      2      1        -
Canada                    3,974    4,052    4,361    5,225    5,687    Kenya                      1      2      6      4        1
Cayman Islands               12        2        1        3        4    Korea, Democratic          -      -      -       -       1
Chad                           -       1         -        -        -      People's Rep of4
Chile                        25       19       28       23       30    Korea, Republic of     6,882   8,410   9,401 11,811   12,858
China (Hong Kong)           733      738      576      726      679    Kuwait                     7      12      12     17       23
China (Macau)                  -       2        1        2        6    Kyrgyzstan                 -       1       -      -        -
China (Mainland)          1,139    1,684    2,195    3,059    3,466    Latvia                     2       2       4      5        3
Colombia                      8        9       11       10       15    Lebanon                    2       5       4      5        8
Costa Rica                   14       17       14       13       14    Liechtenstein             14      15      20     18       15
Croatia                      15       14       19        9       18    Lithuania                  9      13       4      7       10
Cuba                          2        6        5        8        4    Luxembourg                58      40      55     50       41
Cyprus                        4        1        2        5        3    Macedonia                  -       -       1      -        1
Czech Republic               39       58       48       79       76    Malaysia                 154     179     173    230      176
Denmark                     494      573      512      706      836    Malta                      1       2       7      3        4
Dominican Republic            2        3        5        3        2    Mauritius                  -       1       -      -        -
Ecuador                       5        3        3        5        1    Mexico                    89      78      82    105      116
Egypt                        10        6        2       14       19    Monaco                    13       9       8      9        8




   168 	                                                             Performance and accountability Report: Fiscal Year 2011
                                                                                                              Ot h e r Ac c o m pa n yi n g I n f ormati on




       TA B L E 1 0                       PATENTS ISSUED BY THE UNITED STATES TO RESIDENTS OF FOREIGN COUNTRIES1,3
        C O N T.                                                    (FY 2007 - FY 2011) 2

 Residence                        2007        2008       2009        2010       2011     Residence                  2007     2008     2009      2010     2011
 Morocco                               1           3          4           1         2    Singapore                    457      426       496       591     692
 Namibia                                -          1           -           -         -   Slovakia                       8       13        13        15      22
 Netherlands                       1,594       1,670      1,634       1,822     1,959    Slovenia                      23       17        27        26      30
 Netherlands Antilles                  1            -          -          1          -   South Africa                 117      111       148       143     134
 New Zealand                         157         180        179         243       238    Spain                        350      386       415      484      528
 Nigeria                               1           1           -           -        1    Sri Lanka                      5        1         6        4        8
 Norway                              285         288        303         414       411    Sweden                     1,298    1,249     1,230    1,509    1,757
 Oman                                   -          2          4           2         3    Switzerland                1,283    1,340     1,428    1,833    1,825
 Pakistan                              4           6          5           2         2    Syrian Arab Rep                1         -         -        -       1
 Panama                                 -          1          3           4         1    Taiwan                     7,569    7,424     7,958    9,202    9,584
 Paraguay                               -           -          -          1          -   Thailand                      29       38        32       58       65
 Peru                                  2           1          8           1         5    Trinidad & Tobago              1         -        3        5        1
 Philippines                          26          22         24          33        37    Tunisia                        1        2          -       2        2
 Poland                               37          64         50          48        61    Turkey                        19       35        32       49       45
 Portugal                             16          30         18          28        34    Turks and Caicos Islands       1        1          -        -        -
 Qatar                                  -          1          1           1         1    Ukraine                       14       16        21       12       13
 Romania                              11          11          7          17        24    United Arab Emirates           5        6        10        7       11
 Russian Federation                  183         186        206         246       311    United Kingdom             4,100    3,882     3,904    4,830    4,925
 Saint Kitts & Nevis                    -          1           -           -         -   Uruguay                        3        3         5        5        4
 Samoa                                 4            -          -          2          -   Vanuatu4                        -        -         -        -       1
 Saudi Arabia                         23          28         20          51        56    Venezuela                     13       19        11       16       19
 Senegal                                -           -          -          1          -   Vietnam                        1         -        2        2         -
 Serbia                                6           2          5           4         5    Zimbabwe                       1         -        4         -        -
 Seychelles                            2           1           -           -         -
 -	 Represents zero.	
 1	    Data includes utility, design, plant, and reissue patents.
 2	    Past years’ data may have been revised from prior year reports to reflect patent withdrawal information that was updated during the year.
       It is not uncommon for the withdrawal status of patents issued in prior years to change.
 3	    Each patent grant is listed under only one country of residence. Country listings include possessions and territories of that country unless
       separately listed in the table.
 4	    Countries/Territories not previously reported.




       TA B L E 1 1
                                                         Utility Patents Issued to Small Entities
                                                                      (FY 2007 - 2011)
  Fiscal Year of Grant                                                         2007           2008            2009              2010               2011

  Percentage Small Entity                                                   22.14%           20.87%           19.76%           19.87%              19.80%
   US origin1                                                               30.38%           28.76%           27.54%           27.76%              27.87%
   Foreign origin1                                                          13.66%           13.06%           12.27%           12.22%              12.16%

  Percentage Large Entity                                                   77.86%           79.13%           80.24%           80.13%              80.19%
   US origin1                                                               69.62%           71.24%           72.46%           72.24%              72.13%
   Foreign origin1                                                          86.34%           86.94%           87.73%           87.78%              87.84%
  1	   Patent origin is based on residence of the first-named inventor.	




www.uspto.gov	                                                                                                                                             169
Other Acco mpany i ng I nf o r mat i o n




             TA B L E 1 2
                                           STATUTORY INVENTION REGISTRATIONS PUBLISHED
                                                          (FY 2007 - 2011)
        Assignee                                                      2007              2008             2009             2010             2011

        Air Force                                                        7                3                 2              -                   1
        Army                                                              -                -                -              -                    -
        Energy                                                            -                -                 -             -                    -
        Navy                                                             4                6                 3              5                   7
        Health & Human Services                                           -                -                -              -                    -
        VA                                                                -                -                 -             -                   1
        USA1,2                                                            -                -                -              -                    -
        Other Than U.S. Government                                      16               12                 4             12                   6
        	    Total                                                      27                21                9              17                  15

        -	 Represents zero.
        1	   United States of America - no agency indicated in database.
        2	   Past year’s data may have been revised from prior year reports.




             TA B L E 1 3                   UNITED STATES GOVERNMENT AGENCY PATENTS 1
                                                         (FY 2007 - FY 2011) 3
        Activity                                  2007              2008             2009              2010             2011             TOTAL

        Agriculture                                 30                27               24                39               44               164
        Air Force                                   33                36               45                51               40               205
        Army                                       155               134              119               136              141               685
        Attorney General                              -                 -                -                1                1                 2
        Commerce                                     2                 3                5                10               15                35
        Energy                                      22                20               17                42               25               126
        EPA                                          9                10                9                 9               12                49
        FCC                                           -                 -                -                 -                -                -
        HEW/HHS                                    116               101              105               128              146               596
        Interior                                     6                 1                4                 4                1                16
        NASA                                        65                72               86                89              106               418
        Navy                                       255               241              230               284              300             1,310
        NSA                                         11                16               15                24               11                77
        NSF                                          1                  -                -                1                 -                2
        Postal Service                              15                19               14                37               25               110
        State Department                              -                 -                -                 -                -                 -
        Transportation                                -                 -                -                1                 -                1
        TVA                                           -                1                 -                1                 -                2
        USA2                                         1                 3                3                 5                3                15
        VA                                           5                 8               10                 9               13                45
        Total                                      726               692              686               871              883             3,858

        -	 Represents zero.
        1	   Data in this table represent utility patents assigned to agencies at the time of patent issue. Data subject to minor revisions.
        2	   United States of America - no agency indicated in database.
        3	   Past years’ data may have been revised from prior year reports to reflect patent withdrawal information that was updated during
             the year. It is not uncommon for the withdrawal status of patents issued in prior years to change.




170 	                                                                  Performance and accountability Report: Fiscal Year 2011
                                                                            Ot h e r Ac c o m pa n yi n g I n f ormati on




   TA B L E 1 4 A                      EX PARTE REEXAMINATION
                                          (FY 2007 - FY 2011)
  Activity                                  2007      2008           2009             2010           2011

  Requests filed, total                     643        680           658              780            759
  	 By patent owner                         124         87            67               63            104
  	 By third party                          519        593           591              717            654
  	 Commissioner ordered                      -          -             -                 -             1

  Determinations on requests, total         594        666           614              662            773
  	 Requests granted:
  		 By examiner                            575        626           574              606            685
  		 By petition                              2          -      		      -               1              6
  	 Requests denied                          17         40            40               55             82

  Requests known to have related            369        316           372              347            349
  litigation

  Filings by discipline, total              643        680           658              780            759
  	 Chemical                                133        138           120              137            143
  	 Electrical                              275        305           335              414            395
  	 Mechanical                              235        237           203              229            221

  -	 Represents zero.




   TA B L E 1 4 B                     INTER PARTES REEXAMINATION
                                           (FY 2007 - FY 2011)
 Activity                                   2007      2008           2009            2010            2011

 Requests filed, total                      126        168           258              281            374

 Determinations on requests, total          119        150           229              231            366
 	 Requests granted:                        118        142           218              224            344
 		 By examiner                             118        142           217              224            342
 		 By petition                                -          -            1                 -             2
 	 Requests denied                            1          8            11                7             22

 Requests known to have related              81        115           220              196            280
 litigation

 Filings by discipline, total               126        168           258              281            374
 	 Chemical                                  30         38            35               45             57
 	 Electrical                                53         67           153              174            216
 	 Mechanical                                43         63            70               62            101

 -	 Represents zero.




www.uspto.gov	                                                                                                      171
Other Acco mpany i ng I nf o r mat i o n




             TA B L E 1 5                        SUMMARY OF CONTESTED PATENT CASES
                                               (Within the USPTO, as of September 30, 2011)
         Item                                                                                       Total

         Ex parte cases
         Appeals
         	 Cases pending as of 9/30/10                                                             17,851
         	 Cases filed during FY 2011                                                              13,740

         	 Disposals during FY 2011, total
         	 Decided, total                                                                           7,551
         		 Affirmed                                                                                3,612
         		 Affirmed-in-Part                                                                        1,045
         		 Reversed                                                                                2,422
         		 Dismissed/Withdrawn                                                                       243
         		 Remanded                                                                                  229

         	   Cases pending as of 9/30/11                                                           24,040


         Rehearings
         	 Cases pending as of 9/30/11                                                                20


         Inter partes cases
         	 Cases pending as of 9/30/10                                                                46
         	 Cases declared or reinstituted during FY 2011                                              64
         	 Inter partes cases, FY 2011 total                                                         110

         	   Cases terminated during FY 2011                                                          51
         	   Cases pending as of 9/30/11                                                              59




172 	                                                      Performance and accountability Report: Fiscal Year 2011
                                                                                                                      Ot h e r Ac c o m pa n yi n g I n f ormati on




         TA B L E 1 6                            SUMMARY OF TRADEMARK EXAMINING ACTIVITIES
                                                             (FY 2007 - FY 2011)
  Item                                                                                           2007             2008             2009            2010              2011

  Applications for Registration:
  	 Applications including Additional Classes                                                    394,368          401,392          352,051          368,939          398,667
  	 Applications Filed                                                                           298,796          302,253          266,939          280,649          301,826

  Disposal of Trademark Applications:
  	 Registrations including Additional Classes                                                   194,327          274,250          241,637          221,090          237,586
  	 Abandonments including Additional Classes                                                    129,200          156,093          189,687          151,027          141,908
  Trademark First Actions including Additional Classes                                           455,802          415,896          372,830          367,027          389,084
  Applications Approved for Publication including Additional Classes                             344,617          345,067          320,246          307,001          323,072

  Certificates of Registration Issued:1
  	 1946 Act Principal Register                                                                    98,564         120,173          102,607            93,238         103,233
  	 Principal Register
  		 ITU-Statements of Use Registered                                                             44,108           81,387           69,920           64,086           66,796
  	 1946 Act Supplemental Register                                                                 7,392            8,344            7,993            7,006            7,632
  Total Certificates of Registration                                                             150,064          209,904          180,520          164,330          177,661

  Renewal of Registration:*
  	 Section 9 Applications Filed                                                                   40,786           42,388           43,953           48,214          49,000
  	 Section 8 Applications Filed**                                                                 40,798           42,395           43,868           48,275          49,037
  	 Registrations Renewed                                                                          47,336           42,159           42,282           46,734          44,873
  Affidavits, Sec. 8/15:
  	 Affidavits Filed                                                                              49,241           68,470           65,322           61,499           65,771
  	 Affidavits Disposed                                                                           55,888           65,222           63,483           58,510           58,341
  Amendments to Allege Use Filed                                                                   9,646            9,140            8,633            7,629            7,647
  Statements of Use Filed                                                                         76,866           96,415           90,493           80,927           86,159
  Notice of Allowance Issued                                                                     172,422          220,333          181,702          169,085          166,035

  Total Active Certificates of Registration                                                   1,380,150        1,497,131        1,547,168        1,614,121        1,719,247

  Pendency - Average Months:
  	 Between Filing and Examiner’s First Action                                                          2.9              3.0              2.7             3.0              3.1
  	 Between Filing, Registration (Use Applications)
  	 Abandonments and NOAs - including suspended and                                                   15.1             13.9             13.5             13.0             12.6
  		 inter partes proceedings
  	 Between Filing, Registration (Use Applications)
  		 Abandonments and NOAs - excluding suspended                                                      13.4             11.8             11.2             10.5             10.5
  			 and inter partes proceedings

  - Represents zero.
  1	    With the exception of Certificates of Registration, Renewal of Registration, Affidavits filed under Section 8/15 and 12(c), the workload count includes extra classes.
  	     “Applications filed” refers simply to the number of individual trademark applications received by the PTO. There are, however, 47 different classes of items in
        which a trademark may be registered. An application must request registration in at least one class, but may request registration in multiple classes. Each class
        application must be individually researched for registerability. “Applications filed, including additional classes” reflects this fact, and therefore more accurately
        reflects the Trademark business workload. With the exception of Certificates of Registration, Renewal of Registration, Affidavits filed under Section 8/15 and
        12(c), the workload count includes extra classes.
  *	    Renewal of registration is required beginning 10 years following registration concurrent with 20 - year renewals coming due.
  **	   Section 8 Affidavit is required for filing a renewal beginning October 30, 1999 (FY 2000) with the implementation of the Trademark Law Treaty.




www.uspto.gov	                                                                                                                                                             173
Other Acco mpany i ng I nf o r mat i o n




              TA B L E 1 7
                                        TRADEMARK APPLICATIONS FILED FOR REGISTRATION
                                         AND RENEWAL AND TRADEMARK AFFIDAVITS FILED
                                                     (FY 1991 - FY 2011)
                       Year                      For Registration                   For Renewal1                 Section 8 Affidavit

                       1991                           120,365                           5,634                            25,763
                       1992                           125,237                           6,355                            20,982
                       1993                           139,735                           7,173                            21,999
                       1994                           155,376                           7,004                            20,850
                       1995                           175,307                           7,346                            23,497
                       1996                           200,640                           7,543                            22,169
                       1997                           224,355                           6,720                            20,781
                       1998                           232,384                           7,413                            33,231
                       1999                           295,165                           7,944                            33,104
                       2000                           375,428                           24,435                           28,920
                       2001                           296,388                           24,174                           33,547
                       2002                           258,873                           34,325                           39,484
                       2003                           267,218                           35,210                           43,151
                       2004                           298,489                           32,352                           41,157
                       2005                           323,501                           39,354                           47,752
                       2006                           354,775                           36,939                           48,444
                       2007                           394,368                           40,786                           49,241
                       2008                           401,392                           42,388                           68,470
                       2009                           352,051                           43,953                           65,322
                       2010                           368,939                           48,214                           61,499
                       2011                           398,667                           49,000                           65,771

         1	   Renewal of registration term changed with implementation of the Trademark Law Reform Act (Pub. L. No. 100-667) beginning
              November 16, 1989 (FY 1990).




174 	                                                              Performance and accountability Report: Fiscal Year 2011
                                                                                                  Ot h e r Ac c o m pa n yi n g I n f ormati on




      TA B L E 1 8                         SUMMARY OF PENDING TRADEMARK APPLICATIONS
                                                           (FY 2011)
 Stage of Processing                                                                   Application Files            Classes

 Pending applications, total                                                                423,836                 586,020

 In preexamination processing                                                                74,783                   93,229

 Under examination, total                                                                   266,173                 379,896
 	 Applications under initial examination                                                    83,649                 122,821
 		 Amended, awaiting action by Examiner                                                     80,661                 118,738
 		 Awaiting first action by Examiner                                                         2,988                   4,083

 	    Intent-To-Use applications pending Use                                                142,385                 198,493

 	 Applications under second examination                                                      8,785                   11,894
 		 Administrative processing of Statements of Use                                               74                       92
 		 Undergoing second examination                                                             2,729                    3,575
 		 Amended, awaiting action by Examiner                                                      5,955                    8,227

 	    Other pending applications1                                                            31,381                   46,688

 In post-examination processing                                                              82,880                 112,895
 (Includes all applications in all phases of publication and issue and registration)

 1	   Includes applications pending before the TTAB, and suspended cases.




www.uspto.gov	                                                                                                                            175
Other Acco mpany i ng I nf o r mat i o n




              TA B L E 1 9              Trademarks Registered, Renewed, and Published
                                                   Under Section 12(c) 1
                                                     (FY 1991 - FY 2011)
               Year            Certificates of Regis. Issued                 Renewed2                  Registrations (Incl. Classes)

               1991                         43,152                              6,416                                 -
               1992                         62,067                              5,733                                 -
               1993                         74,349                              6,182                              86,122
               1994                         59,797                              6,136                              68,853
               1995                         65,662                              6,785                              75,372
               1996                         78,674                              7,346                              91,339
               1997                         97,294                              7,389                             112,509
               1998                         89,634                              6,504                             106,279
               1999                         87,774                              6,280                             104,324
               2000                         106,383                             8,821                             127,794
               2001                         102,314                            31,477                             124,502
               2002                         133,225                            29,957                             164,457
               2003                         143,424                            34,370                             185,182
               2004                         120,056                            34,735                             155,991
               2005                         112,495                            32,279                             143,396
               2006                         147,118                            37,305                             188,899
               2007                         150,064                            47,336                             194,327
               2008                         209,904                            42,159                             274,250
               2009                         180,520                            42,282                             241,637
               2010                         164,330                            46,734                             221,090
               2011                         177,661                            44,873                             237,586

         -	 Represents zero.
         1	   Includes withdrawn numbers.
         2	   Includes Renewal of registration term changed with implemention of the Trademark Law Reform Act (Pub. L. No. 100-667)
              beginning November 16, 1989 (FY 1990).




176 	                                                              Performance and accountability Report: Fiscal Year 2011
                                                                                              Ot h e r Ac c o m pa n yi n g I n f ormati on




      TA B L E 2 0         TRADEMARK APPLICATIONS FILED BY RESIDENTS OF THE UNITED STATES
                                                    (FY 2011)
 State/Territory                  2011           State/Territory                 2011     State/Territory            2011

 Total                          313,551          Kentucky                         1,822   Oklahoma                    1,540
                                                 Louisiana                        1,829   Oregon                      3,364
 Alabama                           1,478         Maine                             746    Pennsylvania                8,930
 Alaska                              261         Maryland                         5,434   Rhode Island                1,220
 Arizona                           5,858         Massachusetts                    8,032   South Carolina              2,132
 Arkansas                          1,051         Michigan                         6,550   South Dakota                  487
 California                       66,407         Minnesota                        6,017   Tennessee                   4,403
 Colorado                          6,788         Mississippi                       683    Texas                      19,360
 Connecticut                       4,823         Missouri                         4,172   Utah                        3,639
 Delaware                          3,055         Montana                           605    Vermont                       690
 District of Columbia              2,935         Nebraska                         1,111   Virginia                    7,325
 Florida                          22,627         Nevada                           5,243   Washington                  6,499
 Georgia                           8,014         New Hampshire                    1,114   West Virginia                 449
 Hawaii                              992         New Jersey                      13,121   Wisconsin                   3,786
 Idaho                               822         New Mexico                        805    Wyoming                       336
 Illinois                         13,301         New York                        32,569   Puerto Rico                   454
 Indiana                           3,437         North Carolina                   5,913   Virgin Islands                 37
 Iowa                              1,535         North Dakota                      264    U.S. Pacific   Islands1        27
 Kansas                            1,564         Ohio                             7,738   United States2                157

 1	   Represents residents of American Samoa, Guam, and miscellaneous U.S. Pacific Islands.
 2	   No state indicated in database, includes Army Post Office (APO) filings.




www.uspto.gov	                                                                                                                        177
Other Acco mpany i ng I nf o r mat i o n




               TA B L E 2 1              TRADEMARKS REGISTERED TO RESIDENTS OF THE UNITED STATES 1
                                                                (FY 2011)
          State/Territory                  2011           State/Territory                2011          State/Territory                2011

          Total                           143,909         Kentucky                          609        Oklahoma                           587
                                                          Louisiana                         578        Oregon                          1,440
          Alabama                              489        Maine                             340        Pennsylvania                    2,847
          Alaska                                98        Maryland                        1,636        Rhode Island                       329
          Arizona                           1,861         Massachusetts                   2,254        South Carolina                     613
          Arkansas                             336        Michigan                        2,384        South Dakota                       261
          California                       15,950         Minnesota                       2,466        Tennessee                       1,215
          Colorado                          2,164         Mississippi                       201        Texas                           5,694
          Connecticut                       1,207         Missouri                        1,578        Utah                            1,185
          Delaware                         27,202         Montana                           294        Vermont                            222
          District of Columbia              1,011         Nebraska                          504        Virginia                        2,122
          Florida                           6,785         Nevada                          3,230        Washington                      2,486
          Georgia                           2,814         New Hampshire                     419        West Virginia                      123
          Hawaii                               266        New Jersey                      3,446        Wisconsin                       1,768
          Idaho                                315        New Mexico                        287        Wyoming                            250
          Illinois                          4,331         New York                        8,316        Puerto Rico                        153
          Indiana                           1,399         North Carolina                  1,934        Virgin Islands                         61
          Iowa                                 676        North Dakota                       96        U.S. Pacific Islands2                  17
          Kansas                               601        Ohio                            2,936        United States3                 21,523

          1	   When a trademark is registered, the trademark database is corrected to indicate the home state of the entity registering the
               trademark.
          2	   Represents residents of American Samoa, Guam, and miscellaneous U.S. Pacific Islands.
          3	   No state indicated in database, includes APO filings.




178 	                                                                  Performance and accountability Report: Fiscal Year 2011
                                                                                                      Ot h e r Ac c o m pa n yi n g I n f ormati on




    TA B L E 2 2                      TRADEMARK APPLICATIONS FILED BY RESIDENTS OF FOREIGN COUNTRIES
                                                          (FY 2007 - FY 2011)
 Residence                2007      2008      2009      2010      2011      Residence                    2007     2008      2009      2010      2011
 Total                    84,072    86,882    77,448    79,664    85,116    Cyprus                          88       101       115       151       210
                                                                            Czechoslovakia                 212       256       266       164       256
 Afghanistan                   2         2         9         3        11    Denmark                        922     1,197       997       884       827
 Albania                       1         3          -         -        6    Dominica                         2         9          -        2         2
 Algeria                       1          -         -         -         -   Dominican Republic              70        77        50        79        51
 Andorra                       2         1         8         7          -   Ecuador                         28        24        32        27        47
 Angola                         -         -         -       11        11    Egypt                           11        11        14        27        38
 Anguilla                      4         7        23         3        17    El Salvador                     69        56        34        36        36
 Antarctica                     -        1          -         -         -   Estonia                         26        35        48        64        37
 Antigua & Barbuda             2        20         4        18        15    Ethiopia                          -        2         1          -        1
 Argentina                   253       266       223       279       283    Faroe Islands                     -       12         1          -        2
 Armenia                       5         4        10         7        32    Fiji                             3         1          -        6         5
 Aruba                        18         1         3         3         1    Finland                        548       526       547       746       675
 Australia                 3,685     3,164     3,025     3,004     3,154    France                       5,460     6,254     5,620     6,176     5,868
 Austria                   1,187     1,344     1,181       980     1,212    French Polynesia                 9         3         2          -       11
 Azerbaijan                    2         3          -         -        8    Gabon                             -         -         -         -       10
 Bahamas                     218       152       121        99       153    Georgia                          2         3        11         8        27
 Bahrain                      17        11        19        20        31    Germany                     11,455    12,686    11,345    10,300    10,603
 Bangladesh                   10         3         4         1         7    Ghana                             -        2         1          -        1
 Barbados                    322       310       164       274       161    Gibraltar                       59        32        52        30        61
 Belarus                      16        20        10        46        35    Greece                         126       244       137       209       166
 Belgium                     804       869       997       788       760    Grenada                          1          -         -         -        1
 Belize                       30        19        20        20        30    Guadeloupe                       2          -         -        3          -
 Benin                          -         -         -         -        1    Guatemala                       56        39        29        27        16
 Bermuda                     353       296       178       164       182    Guinea                            -        1          -        3          -
 Bhutan                        1          -         -         -         -   Guyana                           2         7         1          -        1
 Bolivia                       3         5         8         3         4    Haiti                            2         1          -        5         2
 Bosnia & Herzegovinia         2          -        1         1         1    Honduras                         5         9        17        15         2
 Botswana                       -         -        3         1        48    Hungary                        135        77       155       118        87
 Brazil                      525       517       477       546       548    Iceland                        140       240        87        67        62
 British Virgin Islands      625       623       498       558       597    India                          412       697       461       645       717
 Brunei Darussalam             3         3         8        13         2    Indonesia                       35        62        64        51        56
 Bulgaria                    145       101        95        77        72    Iran                             9        39        27        38        28
 Burkina Faso                   -         -         -        1          -   Iraq                              -         -        4         -         1
 Cambodia                       -         -        2         1          -   Ireland                        634       724       441       567       615
 Cameroon                       -         -         -         -        1    Isle of Man                     82       101        36        82        56
 Canada                    9,127     9,614     8,354     8,707     9,257    Israel                         761       764       679       598       677
 Cape Verde                    1          -         -         -         -   Italy                        4,912     4,395     4,203     3,770     4,284
 Cayman Islands              296       360       390       263       292    Jamaica                         32        49        53        14        20
 Channel Islands             104        68        37        73       127    Japan                        5,258     4,764     4,832     4,633     5,054
 Chile                       201       206       185       193       263    Jordan                          15        23        21        28        33
 China (Hong Kong)         1,305     1,211     1,162     1,190     1,492    Kazakhstan                       5         7          -        -         3
 China (Macau)                 1          -         -        1          -   Kenya                            1         3         2         9         1
 China (mainland)          2,364     2,262     2,096     2,808     3,652    Korea, Dem. Republic of          2          -        1         6         -
 Colombia                    249       187       183       185       184    Korea, Republic of           1,599     1,566     1,554     2,069     2,028
 Cook Islands                   -         -        5         4          -   Kuwait                          37        37        16        20        10
 Costa Rica                   68       100        66        91        65    Latvia                          29        20        30        48        33
 Croatia                      12        22        42        33        14    Lebanon                          7        22        24        28        34
 Cuba                          3        13         6         1         3    Liberia                          -         2         -         -         1
 Curacao                        -         -         -         -       60    Liechtenstein                  202       247       240        99       182




www.uspto.gov	                                                                                                                                     179
Other Acco mpany i ng I nf o r mat i o n




        TA B L E 2 2                    TRADEMARK APPLICATIONS FILED BY RESIDENTS OF FOREIGN COUNTRIES
         C O N T.                                           (FY 2007 - FY 2011)
  Residence                 2007      2008       2009      2010       2011       Residence                    2007      2008       2009      2010      2011
  Lithuania                      6         25        17        10        30      Saint Lucia                       5        17         12        21       12
  Luxembourg                   403       550        499       888       807      Saint Marten                       -         -          -         -       2
  Macao                          2        20         12         5        10      Saint Vincent/Grenadines           -         -         6        17        1
  Macedonia                      8         7           -        8         4      Samoa                             6        11          5        15       11
  Madagascar                      -         -         7          -         -     San Marino                        4         3         17        10        8
  Malaysia                      93       119        126       122        89      Sao Tome/Principe                  -         -          -        1        1
  Malta                         24        48         81        34        63      Saudi Arabia                     71        61         49        61       66
  Marshall Islands                -        5          4         4        12      Scotland                         93        73         18        27       56
  Martinique                     1          -          -         -        1      Senegal, Republic of               -        1           -         -       7
  Mauritania                      -         -         1          -         -     Serbia/Montenegro                42        11         14        38       47
  Mauritius                     63        32         28        39        64      Seychelles                       24        27         26        19       38
  Mexico                     1,592     1,484      1,393     1,790     1,792      Singapore                       503       479        526       470      695
  Micronesia                     1         7          2          -        1      Slovakia                         67        82         46        56       65
  Monaco                       158       113         81        96       168      Slovenia                        171       105        152        82      129
  Mongolia                       1         4          7         2        30      South Africa                    241       218        183       232      253
  Montserrat                      -         -          -         -        6      Spain                         1,742     1,864      1,798     1,789    2,200
  Morocco                       26        60         35        48        23      Sri Lanka                        16        33         15        17       19
  Mozambique                     4          -          -         -         -     Suriname                           -         -          -        1         -
  Myanmar                         -         -          -        1          -     Swaziland                          -         -          -         -       1
  N. Mariana Island               -         -         5         9         2      Sweden                        1,521     1,482      1,222     1,467    1,536
  Namibia                         -        3          2          -        2      Switzerland                   4,692     4,772      3,883     4,750    4,770
  Nepal                           -        1          2          -        5      Syria                             1         6          7        14        7
  Netherlands                2,367     2,618      2,220     2,387     2,357      Taiwan                        1,257     1,283      1,221     1,359    1,525
  Netherlands Antilles         130        76         68       113        41      Tanzania                           -        2           -        1        2
  New Zealand                  648       534        486       482       520      Thailand                        155       206        146       105      174
  Nicaragua                      4         7          5         7         8      Timor-Leste                        -         -          -         -       1
  Nigeria                       12         1         25         8         4      Togo                               -        5           -         -       8
  Norway                       616       630        835       556       638      Trinidad & Tobago                37         1         23        13        5
  Oman                           1         2         11         5         6      Tunisia                           6         2          7        14       17
  Pakistan                      25        27         19        17        17      Turkey                          632       602        511       363      571
  Palau                          -         -          1         -          -     Turks and Caicos Islands          4        13         10        30       18
  Panama                        88       149        114       167       148      Uganda                             -        3          1          -       3
  Papua New Guinea               -         3          1         3          -     Ukraine                          81        90         63       102       92
  Paraguay                       7        11          7         4        12      United Arab Emirates            171       307        212       135      172
  Peru                          46       101         49        38        69      United Kingdom                9,431     9,463      7,624     7,727    8,451
  Philippines                   55        62         66        54        65      Uruguay                          57        35         35        47       35
  Poland                       196       273        300       225       240      Uzbekistan                         -        1          3          -        -
  Portugal                     268       372        318       335       261      Vanuatu (New Hebrides)           30          -          -         -        -
  Qatar                         34        16         10        20        43      Venezuela                        77       120         35        38       62
  Republic Moldova              18         6          9        14         9      Vietnam                          40        61        101        71       61
  Romania                       53        73         37        78        83      West Bank/Gaza                     -         -          -        3        1
  Russian Federation           441       733        676       650       591      Yemen                             3         4           -        1        4
  Rwanda                         -         -          1         -          -     Yugoslavia                        8         4           -        3         -
  Saint Christ-Nevis            26        31         16         6          -     Zimbabwe                           -        1          1          -        -
  Saint Kitts & Nevis            -         -          -         -        31      Other 1                          35        16         33        11        8

  - 	 Represents zero.
  1	 Country of Origin information not available or not indicated in database, includes African Regional Industrial Property Organization filings.




180 	                                                                      Performance and accountability Report: Fiscal Year 2011
                                                                                                  Ot h e r Ac c o m pa n yi n g I n f ormati on




    T A B L E 2 3 	TRADEMARKS REGISTERED TO RESIDENTS OF FOREIGN COUNTRIES (FY 2007 - FY 2011)

 Residence                2007      2008      2009      2010      2011      Residence                 2007     2008     2009     2010     2011
 Total                    27,798    38,800    34,648    31,855    33,752    Cuba                          3       16        6        7        7
                                                                            Curacao                        -        -        -        -       1
 Afghanistan                   3         5         2         3         4    Cyprus                       19       41       37       44       78
 Albania                       7         6         6         4          -   Czechoslovakia               37       79       69       68       57
 Algeria                       4         3         3         3         2    Denmark                     349      424      424      378      372
 Andorra                       2         2         1         1         4    Djibouti                       -       1         -        -        -
 Angola, Republic of            -        1         2          -        2    Dominica                      4        2        1        1        2
 Anguilla                      2         8         5         7         7    Dominican Republic           29       32       25       26       47
 Antarctica                    1          -         -         -         -   East Timor                    2         -        -        -        -
 Antigua & Barbuda            20        18        13         4         3    Ecuador                      17       17       17       15       23
 Argentina                   130       182       131       127       161    Egypt                         8        5        6        6        8
 Armenia                       7        19         6         8        17    El Salvador                  22       64       38       36       20
 Aruba                         2        18         5          -        2    Eritrea                       1         -        -        -        -
 Australia                 1,076     1,609     1,383     1,295     1,338    Estonia                      12        9       13       16       15
 Austria                     273       397       367       322       337    Ethiopia                      1        3        1        4        3
 Azerbaijan                     -         -         -         -        1    Faroe Islands                  -        -       1         -       1
 Bahamas                      52        61        56        44        60    Fiji                          3        1        2         -       1
 Bahrain                       1          -        2         3        18    Finland                     203      218      221      196      225
 Bangladesh                    3         4         1         3         1    France                    2,046    2,638    2,278    2,154    2,353
 Barbados                     84       115        92        62        89    French Guiana                 1        1         -        -        -
 Belarus                       6        10        10         6        13    French Polynesia              7       10        2         -       2
 Belgium                     283       399       337       309       287    Georgia                       1         -        -       3        4
 Belize                       11        14         5        20        12    Germany                   3,708    4,674    4,409    3,759    3,730
 Benelux Convention            5         9        13         9        18    Ghana                         1        5        2        3        2
 Benin                          -        2         1         1          -   Gibraltar                    11       32       30       10       29
 Bermuda                     129       164       197       161       105    Greece                       40       68       53       52       42
 Bhutan                         -        1          -         -         -   Greenland                     1         -        -       1         -
 Bolivia                       4         4         5         7         1    Grenada                       1         -        -        -        -
 Bosnia & Herzegovina           -        1         1          -        1    Guatemala                    30         -        -      24         -
 Brazil                      164       235       227       188       180    Guinea (Equitorial)            -        -        -        -       1
 British Virgin Islands      242       381       323       302       315    Guinea-Bissau                  -        -        -        -       1
 Brunei Darussalam             1         8          -        1          -   Guyana                        2        4        5         -       4
 Bulgaria                     46        47        26        24        21    Haiti                         1        6        2        5        2
 Burkina Faso                   -         -         -         -        1    Honduras                      2       12        8       17        4
 Burundi                        -        1          -         -         -   Hungary                      39       45       36       64       36
 Cambodia                      1         1          -        1         1    Iceland                      32       62       66       48       17
 Cameroon                      1          -        2         2         3    India                       129      186      213      202      252
 Canada                    3,168     4,396     4,084     3,714     4,069    Indonesia                    23       36       29       36       23
 Cape Verde                    1          -        3          -         -   Iran                         12       16       13        9        4
 Cayman Islands              129       146       170       151       133    Iraq                           -        -        -       1        2
 Channel Islands              25         5         2        15        25    Ireland                     165      264      260      211      212
 Chile                        86       145        84        97       100    Isle of Man                  12       10        7         -      24
 China (Hong Kong)           424       633       521       502       562    Israel                      240      392      319      348      341
 China (Macau)                  -         -        2         5         2    Italy                     1,693    2,281    1,819    1,556    1,733
 China (mainland)          1,020     1,601     1,459     1,356     1,705    Jamaica                      26       41       23       24       21
 Colombia                     79       114       115       105        94    Japan                     2,216    2,941    2,453    2,344    2,272
 Congo                         1          -         -        1          -   Jordan                        3        4       13        7       16
 Cook Islands                  1         3         1         1          -   Kazakhstan                     -       1        1         -       1
 Costa Rica                   16        24        27        36        21    Kenya                         2        2        4        5        3
 Cote D'Ivoire                  -         -        1          -        1    Korea, Dem. Republic of       4        1        7        4        2
 Croatia                       8        22         8        10        14    Korea, Republic of          496      849      760      773      904




www.uspto.gov	                                                                                                                               181
Other Acco mpany i ng I nf o r mat i o n




                   	TRADEMARKS REGISTERED TO RESIDENTS OF FOREIGN COUNTRIES (FY 2007 - FY 2011)
    T A B L E 2 3 CONT.

  Residence               2007    2008     2009    2010    2011    Residence                    2007      2008     2009         2010     2011
  Kuwait                     1        3       6       6       3    Russian Federation             118       168          162      154      206
  Kyrgyzstan                  -        -       -      1        -   Saint Christ & Nevis            10        16           26       26       10
  Laos                        -        -       -       -      1    Saint Lucia                      2         4            8        2        6
  Latvia                    10       17       6       8      14    Saint Vincent/Grenadines          -        1            2        1        2
  Lebanon                    7        7       6      12      15    San Marino                       3         4            2        7         -
  Liberia                    4        8      22      12       8    Saudi Arabia                    10        19           13       14       10
  Liechtenstein             49       85      75      48      37    Scotland                         8        30           50       15       17
  Lithuania                  7        7       8       7      11    Senegal                          1          -            -       3        2
  Luxembourg               131      168     184     177     246    Serbia                            -         -            -       4        6
  Macao                      1         -       -       -       -   Serbia/Montenegro                2          -            -        -        -
  Macedonia                  1        6       1        -      3    Seychelles                       5        11            8       12       14
  Malawi                      -        -       -       -      1    Sierra Leone                      -         -            -        -       2
  Malaysia                  52       58      57      63      78    Singapore                      134       199          174      220      230
  Mali                       1         -       -      1        -   Slovakia                        12         9           26       12       17
  Malta                      3       12       5      11      20    Slovenia                        14        27           33       15       29
  Marshall Islands           2        3       3       6       3    South Africa                      -      125          104      140      119
  Martinique                  -        -       -       -      1    Spain                          709     1,000          821      780      797
  Mauritius                 13       33      25      13      15    Sri Lanka                       13         7           21       13       16
  Mexico                   589      952     830     736     954    St. Kitts & Nevis                4          -            -        -        -
  Micronesia                 1        4       1       3       2    Sudan                            1          -            -        -        -
  Monaco                    25       32      24      19      25    Swaziland                        5         1            4         -        -
  Mongolia                    -       1       1        -      3    Sweden                         441       644          603      566      524
  Montenegro                  -        -       -      1        -   Switzerland                  1,345     1,953        1,672    1,338    1,566
  Morocco                    1        3       7       8       9    Syria                            3         2            2         -       5
  Mozambique                 1        2        -       -       -   Taiwan                         820     1,096          845      782      843
  Myanmar                     -        -       -       -      1    Tajikistan                        -        1             -        -        -
  N. Mariana Island          7        2        -      3       5    Tanzania                          -         -            -        -       1
  Namibia                    1         -       -       -       -   Thailand                        57        82           71       53       49
  Nauru                       -       2        -       -       -   Togo                              -         -           1         -        -
  Nepal                       -        -      1        -      2    Trinidad & Tobago                8        13            7       14        5
  Netherlands              788    1,001     931     883     831    Tunisia                           -        3            3        3        5
  Netherlands Antilles      33       47      32      39      30    Turkey                         169       206          169      167      167
  New Zealand              194      333     265     267     285    Turks and Caicos Islands         1         5            2         -      12
  Nicaragua                  2        7       5       2       6    Uganda                            -        1            3        1        1
  Nigeria                    4       16      10       4       6    Ukraine                         19        33           18       30       41
  Norway                   142      192     175     212     197    United Arab Emirates            21        27           36       56       52
  Oman                       1         -       -      1       6    United Kingdom               2,246     3,136        3,098    3,010    2,989
  Pakistan                   7       19      11      15      20    Uruguay                         17        21           20       23       24
  Palistinian Authority       -        -       -       -      3    Uzbekistan                       1         -            2         -       1
  Panama                    63       98      58      68      88    Vanuatu (New Hebrides)           1         4            1         -       -
  Papua New Guinea            -       1       1        -       -   Vatican City                      -        1             -        -       1
  Paraguay                    -       6       4       5       7    Venezuela                       26        49           45       42       41
  Peru                      26       49      57      26      31    Vietnam                         32        42           34       39       37
  Philippines               27       42      50      41      38    Western Samoa/Samoa              4          -            -       8        9
  Poland                    60      104     103      74      87    Yemen                             -        2            1        1        -
  Portugal                  89      147     136     123     130    Yugoslavia                        -        2            3        1        1
  Qatar                      1        9       6       9       5    Zambia                            -         -            -        -       1
  Republic Moldova           4        8       3       2       4    Zimbabwe                          -        2            2         -       4
  Romania                   13       23      20      11      17    Other1                           3        40           55       19       14
  Rwanda                      -        -       -       -      1

  - 	 Represents zero.                                             1	   Country of origin information not available.



182 	                                                          Performance and accountability Report: Fiscal Year 2011
                                                                           Ot h e r Ac c o m pa n yi n g I n f ormati on




      TA B L E 2 4                    SUMMARY OF CONTESTED TRADEMARK CASES
                                      (Within the USPTO, as of September 30, 2011)
                                                                  Concurrent
 Activity                              Ex Parte   Cancellations      Use       Interference   Opposition      Total

 Cases pending as of 9/30/10, total     1,430         1,456       	   70            -             5,453       8,409

 Cases filed during FY 2011             2,639         1,362       	   39            -             4,985       9,025

 Disposals during FY 2011, total        2,856         1,298       	   33            -             4,972       9,159
 	 Before hearing                       2,525         1,275       	   33            -             4,874       8,707
 	 After hearing                          331            23       	    -            -                98         452

 Cases pending as of 9/30/11, total     1,213         1,520       	   76            -             5,466       8,275
 	 Awaiting decision                      161            12       	    -            -                40         213
 	 In process before hearing1           1,052         1,508       	   76            -             5,426       8,062

 Requests for extension of time        16,420     	       -       	    -            -         	       -      16,420
 	 to oppose FY 2011

 -	 Represents zero.
 1	   Includes suspended cases.




www.uspto.gov	                                                                                                     183
Other Acco mpany i ng I nf o r mat i o n




                                           Actions on Petitions to the director of the
            TA B L E 2 5
                                                U.s. Patent and Trademark office
                                                         (FY 2007 - FY 2011)
         Nature of Petition                                                      2007          2008           2009           2010         2011
         Patent matters
         	 Actions on patent petitions, total                                  51,420         51,774         51,482         51,649       53,755
         	 Acceptance of:
         		 Late assignments                                                      619            621            628            773          892
         		 Late issue fees                                                     1,787          1,819          1,792          1,720        1,920
         		 Late priority papers                                                    7             10             13              5            4
         	 Access                                                                  12             12             42             14            9
         	 Certificates of correction                                          28,715         26,878         25,527         27,611       26,033
         	 Deferment of issue                                                      20             21             20              9            8
         	 Entity Status Change                                                 1,389          1,263          1,246          2,567        2,842
         	 Filing date                                                          1,090            975            723            539          531
         	 Maintenance fees                                                     2,355          2,774          1,949          2,173        2,457
         	 Revivals                                                             8,279         10,339         11,478          9,326        9,949
         	 Rule 47 (37 Code of Federal Regulations (CFR) 1.47)                  1,864          1,837          2,583          2,259        3,077
         	 Supervisory authority                                                  137            183            347            411          470
         	 Suspend rules                                                          214            228            301            237          275
         	 Withdrawal from issue                                                1,476          1,642          1,423          1,912        1,948
         	 Withdrawals of holding of aband.                                     3,456          3,172          3,410          2,093        3,340
         Late Claim for Priority                                                  981            986          1,121          1,094        1,389
         Withdraw as Attorney                                                   5,246          6,164          6,133          5,237        5,798
         Matters Not Provided For (37 CFR 1.182)                                  994          1,009          1,334          1,236        1,603
         To Make Special                                                        3,913          4,653          4,797          4,264       10,573
         Patent Term Adjustment/Extension                                         608            476          1,613         28,775        2,117
         Trademark matters
         	 Actions on trademark petitions, total                               21,755         29,703         24,747         21,852       23,133
         		 Filing date restorations1                                              72             28             20             13            6
         		 Inadvertently issued registrations                                    173            178            134            116           78
         		 Letters of Protest                                                    735            876          1,011          1,003        1,213
         		 Madrid Petitions                                                       19             13             21             28           46
         		 Make special                                                          205            121             94            225          170
         		 Reinstatements2                                                       575          1,249            851            563          547
         		 Revive (reviewed on paper)                                          4,275          6,524          2,526          1,096        1,276
         		 Revive (granted electronically)3                                   14,850         19,654         18,967         17,686       18,802
         		 Waive fees/refunds                                                     11             30             18             18            5
         		 Miscellaneous Petitions to the Director                               749            940          1,008            971          840
         		 Board Matters                                                          13              9             11             16            9
         		 Post Registration Matters                                              78             81             86            117          141
         	 Petitions awaiting action as of 9/30
         		 Trademark petitions awaiting response                                  166             56             72                51      60
         		 Trademark petitions awaiting action                                    117             95              3                 5       2
         		 Trademark pending filing date issues                                     2              -               -                -       -
         -	 Represents zero.
         1	 Trademark Applications entitled to a particular filing date; based on clear evidence of Trademark organization error.
         2	 Trademark Applications restored to pendency; inadvertently abandoned by the Trademark organization.
         3 	 The petition to revive numbers were not separated into two categories (paper versus electronic) in previous years.




184 	                                                                 Performance and accountability Report: Fiscal Year 2011
                                                                                  Ot h e r Ac c o m pa n yi n g I n f ormati on




       TA B L E 2 6                                     CASES IN LITIGATION
                                  (Selected Courts of the United States, as of September 30, 2011)
                                                                        Patents   Trademarks        OED            Total

 United States District Courts
 	 Civil actions pending as of 9/30/10, total                             113            -              2           115
 	 Filed during FY 2011                                                    37           2               1            40
 	 Disposals, total                                                        36           1               1            38
 	 Reversed                                                                  -           -               -            -
 	 Remanded                                                                 3           1                -            4
 	 Dismissed                                                               28            -              1            29
 	 Summary Judgement (SJ) Granted - USPTO                                   4            -               -            4
 	 SJ Granted - Opposing Party                                               -           -               -            -
 	 Transfer                                                                 1            -               -            1
 	     Civil actions pending as of 9/30/11, total                         114           1               2           117

 United States Courts of Appeals1
 	 Ex parte cases
 		 Cases pending as of 9/30/10                                            49           3               3            55
 		 Cases filed during FY 2011                                            103           7               1           111
 		 Disposals, total                                                       59           4               4            67
 			 USPTO Affirmed                                                        28           2               1            31
 			 District Court Affirmed                                                 -           -               -            -
 			 Reversed                                                               3            -               -            3
 			 Remanded                                                              13           1                -           14
 			 Dismissed                                                             15           1               1            17
 			 Vacated                                                                 -           -               -            -
 			 Transfer                                                                -           -              2             2
 			 Mandamus Denied                                                         -           -               -            -
 			 Mandamus Granted                                                        -           -               -            -
 	 Total ex parte cases pending as of 9/30/11                              93           6               -             99
 	 Inter partes cases
 		 Cases pending as of 9/30/10                                             4          10               -             14
 		 Cases filed during FY 2011                                              8          20               -             28
 		 Disposals, total                                                        4          18               -             22
 			 Affirmed                                                               2           5               -              7
 			 Reversed                                                                -           -              -              -
 			 Remanded                                                               1           1               -              2
 			 Dismissed                                                              1          12               -             13
 			 Transferred                                                             -           -              -              -
 	     Total inter partes cases pending as of 9/30/11                       8          12               -             20
 Total United States Courts of Appeals cases pending as of 9/30/11        101          18               -           119

 Supreme Court
 	 Ex parte cases
 		 Cases pending as of 9/30/10                                             3            -              -              3
 		 Cases filed during FY 2011                                              2            -              -              2
 		 Disposals, total                                                        4            -              -              4
 	     Cases pending as of 9/30/11, total                                   1            -              -              1
 Notices of Suit filed in FY 2011                                       2,314       2,369               -         4,683
 -	 Represents zero.
 1	   Includes Federal Circuit and Other Appellate Courts




www.uspto.gov	                                                                                                             185
Other Acco mpany i ng I nf o r mat i o n




        TA B L E 2 7                          PATENT CLASSIFICATION ACTIVITY
                                                    (FY 2007 - FY 2011)
  Activity                                                             2007      2008     2009      2010          2011

  Original patents professionally reclassified - completed projects    14,875    13,727    9,955    90,869        25,540

  Subclasses established                                                1,466     1,037     631      1,429          753

  Reclassified patents clerically processed, total                    192,898   111,507   60,778   156,590       165,019
  	 Original U.S. patents                                               4,991    25,903   18,765    52,036        55,090
  	 Cross-reference U.S. patents                                      187,907    85,604   42,013   104,554       109,929




        TA B L E 2 8         SCIENTIFIC AND TECHNICAL INFORMATION CENTER ACTIVITY
                                                   (FY 2011)
  Activity                                                                                           Quantity

  Prior Art Search Services Provided:
  	 Automated Prior Art Searches Completed                                                             30,033
  	 Genetic Sequence Searches Completed                                                                 6,799
  	 Number of Genetic Sequences Searched                                                               24,926
  	 Computer Readable Form Submissions Processed                                                       19,940
  	 Patent Linguistic Utility Service Searches Completed                                               65,261
  	 Foreign Patent Searches Completed                                                                   7,392

  Document Delivery Services Provided:
  	 Document Delivery/Interlibrary Loan Requests Processed                                             20,032
  	 Copies of Foreign Patents Provided                                                                 10,843

  Information Assistance and Automation Services:
  	 One-on-One Examiner Information Assistance                                                         23,862
  	 One-on-One Examiner Automation Assistance                                                          27,249
  	 Patents Employee Attendance at Automation Classes                                                  25,546
  	 Foreign Patents Assistance for Examiners and Public                                                 9,983
  	 Examiner Briefings on Scientific & Technical Information Center                                    10,690
  		 Information Sources and Services

  Translation Services Provided for Examiners:
  	 Written Translations of Documents                                                                   4,132
  	 Number of Words Translated (Written)                                                           14,467,530
  	 Documents Orally Translated                                                                         1,832

  Total Number of Examiner Service Contacts                                                           280,244

  Collection Usage and Growth:
  	 Print/Electronic Non-Patent Literature (NPL) Collection Usage                                    1,308,848
  	 Print Books/Subscriptions Purchased                                                                 67,941
  	 Full Text Electronic Journal Titles Available                                                       24,871
  	 Full Text Electronic Book Titles Available                                                          52,430
  	 NPL Databases Available for Searching (est.)                                                         1,575




186 	                                                           Performance and accountability Report: Fiscal Year 2011
                                                                          Ot h e r Ac c o m pa n yi n g I n f ormati on




      TA B L E 2 9                          END OF YEAR PERSONNEL 1
                                               (FY 2007 - FY 2011)
 Activity                                               2007     2008     2009         2010         2011

 Business
 	 Patent Business Line                                 7,959    8,582    8,786        8,645        9,234
 	 Trademark Business Line                                954      936      930          862          976
 		 Total USPTO                                          8,913    9,518    9,716        9,507       10,210

 Examination Staff
 	 Patent Examiners
 		 Utility, Plant, and Reissue Examiners               5,376    5,955    6,145        6,128        6,690
 		 Design Examiners                                      101      100       98           97           95
 			 Total UPRD Examiners                               5,477    6,055    6,243        6,225        6,785
 	 Trademark Examining Attorneys                          404      398      388          378          378

 1	   Number of positions.




www.uspto.gov	                                                                                                    187
Other Acco mpany i ng I nf o r mat i o n




       TA B L E 3 0 A               Top 50 Trademark                TA B L E 3 0 B           Top 50 Trademark
                                       Applicants                                               Registrants
                                        (FY 2011)                                                (FY 2011)
  Name of Applicant                                Classes1       Name of Registrant                         Registrations
  JOHNSON & JOHNSON                                    546        MATTEL, INC.                                    262
  MATTEL, INC.                                         544        JOHNSON & JOHNSON                               227
  LG ELECTRONICS INC.                                  321        Disney Enterprises, Inc.                        183
  NOVARTIS AG                                          321        IGT                                             130
  Disney Enterprises, Inc.                             299        LG Electronics Inc.                             123
  The Procter & Gamble Company                         255        Aristocrat Technologies Australia Pty Lt        114
  Glaxo Group Limited                                  254        Target Brands, Inc.                             102
  DreamWorks Animation L.L.C.                          238        The Procter & Gamble Company                     95
  The Saul Zaentz Company                              236        Sears Brands, LLC                                92
  Bally Gaming, Inc.                                   232        L'Oreal USA Creative, Inc.                       91
  Advance Magazine Publishers Inc.                     198        Novartis AG                                      89
  American Express Marketing & Development             196        Warner Bros. Entertainment Inc.                  80
  Bristol-Myers Squibb Company                         196        Glaxo Group Limited                              72
  Sears Brands, LLC                                    191        WMS GAMING INC.                                  72
  salesforce.com, inc.                                 185        Nintendo of America Inc.                         71
  DAIMLER AG                                           184        Retail Royalty Company                           63
  TEMASEK HOLDINGS (PRIVATE) LIMITED                   183        Twentieth Century Fox Film Corporation           63
  Twentieth Century Fox Film Corporation               183        Milux Holding S.A.                               58
  S. C. Johnson & Son, Inc.                            168        Wakefern Food Corp.                              58
  Wal-Mart Stores, Inc.                                167        WORLD WRESTLING ENTERTAINMENT, INC.              58
  Societe des Produits Nestle S.A.                     163        ASICS Corporation                                57
  T-Mobile USA, Inc.                                   163        Boehringer Ingelheim International GmbH          57
  The McGraw-Hill Companies, Inc.                      157        Cisco Technology, Inc.                           57
  SANOFI-AVENTIS                                       154        Hershey Chocolate & Confectionery Corpor         57
  Abercrombie & Fitch Trading Co.                      153        Lockheed Martin Corporation                      57
  UnitedHealth Group Incorporated                      151        APPLE INC.                                       55
  HUAWEI TECHNOLOGIES CO., LTD.                        146        Bally Gaming, Inc.                               55
  DA LIAN YA TU TOU ZI ZI XUN YOU XIAN GON             143        LF, LLC                                          55
  Fluff Monkey Enterprises, LLC                        140        L'Oreal                                          54
  Boehringer Ingelheim International GmbH              139        Microsoft Corporation                            54
  Cellco Partnership                                   138        Konami Gaming, Inc.                              53
  Merck KGaA                                           137        AOL INC.                                         52
  Monster Cable Products, Inc.                         136        S. C. Johnson & Son, Inc.                        52
  Global Grid, LLC                                     134        Abbott Laboratories                              51
  Board of Regents of the University Syste             133        ALOXXI INTERNATIONAL CORPORATION                 51
  UNITED STATES POSTAL SERVICE                         132        Kraft Foods Global Brands LLC                    51
  Marvel Characters, Inc.                              131        Samsung Electronics Co., Ltd.                    51
  L'Oreal USA Creative, Inc.                           130        sanofi-aventis                                   51
  Project Miracle, LLC                                 129        HASBRO, INC.                                     50
  The Wine Group LLC                                   128        Home Box Office, Inc.                            50
  HASBRO, INC.                                         127        MINISTERO DELLE POLITICHE AGRICOLE,; ALI         50
  Walgreen Co.                                         127        Lidl Stiftung & Co. KG                           49
  Koninklijke Philips Electronics N.V.                 124        Market Studies, LLC                              49
  Target Brands, Inc.                                  124        Televisa, S.A. de C.V.                          49
  Home Box Office, Inc.                                123        American Express Marketing & Development        48
  Conair Corporation                                   121        Columbia Insurance Company                      48
  DUNCAN ENTERPRISES                                   121        UHS of Delaware, Inc.                           48
  GHC Specialty Brands, LLC                            120        HEB GROCERY COMPANY, LP                         47
  SAMSUNG ELECTRONICS CO., LTD.                        120        Koninklijke Philips Electronics N.V.            47
  Victoria's Secret Stores Brand Managemen             118        Kohler Co.                                      46
  1	   Applications with Additional Classes.




188 	                                                         Performance and accountability Report: Fiscal Year 2011
Glossary of Acronyms
and Abbreviation List
        Glossary of Acronyms
        and Abbreviation List

                     ABC	         Activity Based Cost

                     ACR	         Accelerated Case Resolution

                     AIA	         America Invents Act

                     AIPA	        American Inventors Protection Act

                     APO	         Army Post Office	

                     BPAI	        Board of Patent Appeals and Interferences

                     CAO	         Chief Administrative Officer

                     CBT	         Computer-Based Training

                     CFO	         Chief Financial Officer

                     CFR	         Code of Federal Regulations

                     CFS	         Consolidated Financial System

                     COOP	        Continuity of Operations Plan

                     COPA	        Clearing the Oldest Patent Applications
                                  (Initiative)

                     COTS	        Commercial-off-the-shelf (software)

                     CSRS	        Civil Service Retirement System

                     DOC	         Department of Commerce

                     DOL	         Department of Labor

                     EFT	         Electronic Funds Transfer

                     EPO	         European Patent Office

                     EVS	         Employee Viewpoint Survey

                     FECA	        Federal Employees’ Compensation Act




190 	                       Performance and accountability Report: Fiscal Year 2011
                                                                   G lo s s a ry o f Ac r o n ym s a n d A b b r e v i ati on Li s t




FEGLI	     Federal Employees Group Life Insurance          IPR 	            Intellectual Property Rights

FEHB	      Federal Employees Health Benefit Program        ISO	             International Organization for Standardization

FERS	      Federal Employees Retirement System             IT 	             Information Technology

FFMIA	     Federal Financial Management Improvement Act    ITA 	            Internal Trade Administration

FICA	      Federal Insurance Contributions Act             ITU	             Intent-To-Use/Division Unit

FIFO	      First-In, First-Out                             JPO 	            Japanese Patent Office

FISMA 	    Federal Information Security Management Act     MBDA	            Minority Business Development Agency

FLASH	     First Look Application Sharing                  MOU	             Memoranda of Understanding

FMFIA	     Federal Managers’ Financial Integrity Act       MPEP	            Manual of Patent

FMS	       Financial Management Services                   MTS	             Metric Tracking System

FPNG	      Fee Processing Next Generation                  N/A	             Not Available

FY	        Fiscal Year                                     NASA	            National Aeronautics and Space Administration

GAAP	      Generally Accepted Accounting Principles        NIST	            National Institute of Standards and Technology

GAO	       Government Accountability Office                NOAA	            National Oceanic and Atmospheric Administration

GIPA	      Global Intellectual Property Academy            NPL	             Non-Patent Literature

GOTS	      Government-off-the-shelf                        NTEU	            National Treasury Employees Union

GPO	       U.S. Government Printing Office                 NTIA	            National Telecommunications and Information
                                                                            Administration
GSA 	      U.S. General Services Administration
                                                           OBRA	            Omnibus Budget Reconciliation Act
ID	        Identifications of Goods and Services
                                                           OCAO	            Office of the Chief Administration Officer
IDP	       Individual Development Plan
                                                           OCFO 	           Office of Chief Financial Officer
IG	        Inspector General
                                                           OCIO	            Office of Chief Information Officer
IIPI	      International Intellectual Property Institute
                                                           OEEOD	           Office of Equal Employment Opportunity and
IP	        Intellectual Property                                            Diversity


IPEC	      Intellectual Property Enforcement Coordinator   OGC 	            Office of General Counsel


IPIA	      Improper Payments Information Act               OHR	             Office of Human Resources




www.uspto.gov	                                                                                                                191
G l o s s a r y o f A c r o n y m s a n d A b b r e v i at i o n L i s t




Glos s ary o f Acro ny ms a nd A bbr ev i at i o n L i s t




OID	              Office of Innovation Development                             TEAS 	     Trademark Electronic Application System

OIG	              Office of the Inspector General                              TC	        Technology Center

OMB	              Office of Management and Budget                              TDR	       Trademark Data Retrieval

OPM	              Office of Personnel Management                               TEAPP	     Telework Enhancement Act Pilot Program

OPQA	             Office of Patent Quality Assurance
                                                                               TMEP	      Trademark Manual of Examining Procedure
OPT	              Office of Patent Training
                                                                               TRIPS	     Trade-Related Aspects of Intellectual
                                                                                          Property Rights
PAP	              Performance Appraisal Plan

                                                                               TTAB	      Trademark Trial and Appeal Board
PCT 	             Patent Cooperation Treaty

                                                                               UL	        Universal Laptop
PE2E	             Patent End-to-End

                                                                               UPRD	      Utility, Plant, Reissue, Design
PETTP	            Patent Examiner Technical Training Program

                                                                               UPOV	      (International) Union for the Protection of
POA&M	            Plan of Actions and Milestones
                                                                                          New Plant Varieties

PPAC	             Patent Public Advisory Committee
                                                                               U.S. 	     United States

PPH	              Patent Prosecution Highway
                                                                               U.S.C. 	   United States Code

Pub. L. No.	 Public Law
                                                                               USG	       United States Government

RAM	              Revenue Accounting and Management System
                                                                               USPTO 	    United States Patent and Trademark Office

Rospatent	 Russian Federal Service for IP, Patents and
                                                                               USTR 	     United States Trade Representative
           Trademark

                                                                               WHO	       World Health Organization
SHCP	             Strategic Human Capital Plan

                                                                               WIPO 	     World Intellectual Property Organization
SES	              Senior Executive Service

                                                                               WTO 	      World Trade Organization
SFFAS	            Statements of Federal Financial Accounting
                  Standards

SHARE	            Strategic Handling of Applications for Rapid
                  Examination

SJ	               Summary Judgement

SL	               Straight-Line




192 	                                                                      Performance and accountability Report: Fiscal Year 2011
                         o w ledgm
                       n           en
            ck                                                        tS
        A


                      This Performance and Accountability Report was produced
                      with the energies and talents of the USPTO staff.

                      To these individuals we would like to offer our sincerest thanks
                      and acknowledgement.

                      In particular, we would like to recognize the following
                      organizations and individuals for their contributions:

                      Office of the Under Secretary and Director – Andrew Baluch
and Azam Khan; Office of the Chief Communications Office – Peter Pappas; Office
of the Chief Administrative Officer – Roger Williams; Office of the Chief Financial
Officer – Michelle Picard; Office of Planning and Budget – Bonita
Royall, Ali Emgushov, Robert Fawcett, and Candice Goodman;
Office of Finance – Shana Willard, Dennis Detar, and Mark Krieger;
Office of External Affairs – Janette Brown; Office of the Chief
Information Officer – Scott Williams and Maureen Brown; Office
of the General Counsel – Debra Decker and Mary Kelly; Board
of Patent Appeal and Interferences – Kurt Brown; Trademark Trial
and Appeal Board – Latoya Brown; Office of the Commissioner
for Patents – Kimberly Kenney and David Fitzpatrick; Office of the
Commissioner for Trademarks – Robert Allen, Karen Strohecker, and
Nabil Chbouki.

We would also like to acknowledge the Office of the Inspector General and KPMG
LLP for the professional manner in which they conducted the audit of the FY 2011
Financial Statements.

We offer special thanks to AOC Solutions, Inc. and The DesignPond for their
outstanding contributions in the design and production of this report. To send
comments or get additional information
about this report, please contact:

Office of Planning and Budget
600 Dulany Street
Alexandria, VA 22314
PARmail@uspto.gov
Phone: 571-272-3333
Fax: 571-273-0127
United States Patent and Trademark Office


             600 Dulany Street
         Alexandria, Virginia 22314



     www.uspto.gov
       www.uspto.gov
